<html>
<title> - S. 693: THE TAIWAN SECURITY ENHANCEMENT ACT</title>
<body><pre>[Senate Hearing 106-230]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-230
 
               S. 693: THE TAIWAN SECURITY ENHANCEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                    U.S. GOVERNMENT PRINTING OFFICE
60-900 CC                   WASHINGTON : 1999



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Beigun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. Richard V., Allen & Co., Washington, DC..............    31
    Prepared statement of........................................    34
Baucus, Hon. Max, U.S. Senator from Montana......................     4
    Prepared statement of........................................     5
Campbell, Dr. Kurt, Deputy Assistant Secretary of Defense for 
  Asian and Pacific Affairs, Department of Defense...............    15
    Prepared statement of........................................    16
Lampton, Dr. David M., director of China Studies, School of 
  Advanced International Studies, Johns Hopkins University, 
  Washington, DC.................................................    39
    Prepared statement of........................................    41
Roth, Hon. Stanley O., Assistant Secretary of State for East 
  Asian and Pacific Affairs, Department of State.................     7
    Prepared statement of........................................    11
Thomas, Hon. Craig, U.S. Senator from Wyoming, prepared statement 
  of.............................................................     7
Weinberger, Hon. Caspar W., chairman, Forbes, Inc., Washington, 
  DC.............................................................    37
Woolsey, Hon. R. James, Shea & Gardner, Washington, DC...........    46


                                Appendix

Responses of Assistant Secretary Stanley O. Roth to questions 
  submitted for the record.......................................    59
Responses of Deputy Assistant Secretary Kurt Campbell to 
  questions submitted for the record.............................    61
``Dynamic Elements in the Cross-Straits Military Balance,'' a 
  study by Richard D. Fisher, Jr.................................    63

                                 (iii)




              S. 693: THE TAIWAN SECURITY ENHANCEMENT ACT

                              ----------                              


                             AUGUST 4, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Coverdell, Thomas, Biden, and 
Kerry.
    The Chairman. The committee will come to order.
    We have an array of distinguished witnesses today, a full 
schedule. And on behalf of the committee, I extend our welcome 
to each and every one of them.
    The first being Senator Max Baucus, who is known to all of 
us, as is Assistant Secretary Roth, Deputy Assistant Secretary 
Campbell, and our private panelists. We are genuinely grateful 
to all of you for coming today.
    Specifically, our purpose is to examine S. 693, the Taiwan 
Security Enhancement Act, which Senator Torricelli and I 
introduced sometime earlier this year. I think it was in March. 
This legislation will ensure that Taiwan will have essential 
self-defense capabilities. And to accomplish that, we propose 
to bolster the process for defense sales to Taiwan, and help 
Taiwan achieve and maintain an adequate military readiness.
    Now, the need to enhance our defense relationship with 
Taiwan, I think, is obvious. First, the reunification of Taiwan 
has become an increasingly high agitation issue for Beijing now 
that they have reabsorbed Hong Kong and, as of this coming 
December, Macau.
    Second, Beijing constantly demonstrates a willingness to 
use intimidation to achieve its goals. China fired missiles off 
of Taiwan's coast in 1995 and 1996, and is now engaged in a 
massive missile buildup opposite Taiwan, according to the 
February 1999 Pentagon report to Congress. Beijing is also 
undergoing a multifaceted military buildup, which includes 
increased emphasis on logistical improvements for a Taiwan 
scenario. And if one adds to this buildup the ugly, threatening 
rhetoric aimed at Taiwan by the highest levels of the Chinese 
Government, one can see the very real threat that Taiwan may 
face.
    Third, part of Beijing's strategy is to continue its 
pressure on the United States to limit or cease arms sales to 
Taiwan. And this had the effect at various times on successive 
administrations in this country. Of course, it was the Reagan 
administration that signed the regrettable 1982 communique, 
which set a ceiling on arms sales to Taiwan, and promised China 
that we would gradually reduce these sales.
    Over the years, the United States has refused to sell 
Taiwan needed defense items, such as submarines and missiles, 
solely to assuage China. Just 2 weeks ago, the Clinton 
administration withheld several arms sales notifications to 
Congress, and is reported to be considering further such 
measures in an obvious attempt to curry favor with Beijing and 
punish Taiwan for President Lee's recent remarks on Taiwan's 
status.
    And, last, our friends in Taiwan have military capabilities 
that have operated in virtual isolation for more than 20 years. 
Taiwan's military does not conduct joint exercises with the 
U.S. military, and is not even able to observe many of our 
exercises. No U.S. officers above the rank of colonel or Navy 
captain can go to Taiwan. And those who do are limited in the 
things they can do and say. This has certainly had a corrosive 
effect on Taiwan's military preparedness at exactly the time 
Taiwan faces a growing military threat from China.
    So, United States strategic interests, United States law, 
and United States moral values dictate, it seems to me, that we 
assist our long-time friends in Taiwan in meeting these 
challenges. And that is why Senator Torricelli and I have 
introduced this bill.
    I look forward to hearing from our distinguished witnesses, 
but, first, I look forward to hearing from Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    I think that we occasionally need an important bill like 
this to both attract the caliber of witnesses you have 
assembled today, as well as to prove to people that we do not 
agree on everything. Because, of late, that has been the case.
    Mr. Chairman, let me first commend you for holding this 
hearing to examine S. 693, the Taiwan Security Enhancement Act. 
And let me also welcome the very distinguished panel of 
witnesses. I look forward to hearing each of their testimony.
    As some in this hearing room may know, the chairman and I 
are among a handful of current Members of the Senate who were 
here to vote for the Taiwan Relations Act, or against it, 20 
years ago. As I have said many times before, over the past 20 
years, there has been no Member of the Senate who has been a 
more loyal friend of Taiwan than the chairman. Like the 
chairman, I, too, am proud of my vote 20 years ago to help pass 
the Taiwan Relations Act. And the TRA has helped preserve, in 
my view, peace and stability in the Western Pacific and created 
an environment in which Taiwan has thrived.
    Taiwan today is an economically and culturally vibrant, 
multi-party democracy. And Taiwan's transformation, I think, 
would not have been possible without the United States' 
commitment to its security, as enshrined in the TRA. China 
should have no doubt that our commitment remains firm. The 
United States believes China and Taiwan should settle their 
differences peacefully, through dialog, on the basis of mutual 
respect.
    Mr. Chairman, it is precisely because I share your 
commitment to Taiwan's security, and to the Taiwan Relations 
Act as the law of the land, that I have such grave reservations 
about the Taiwan Security Enhancement Act, which is the subject 
of today's hearing. Far from enhancing Taiwan's security, I am 
concerned that passage of this legislation would be the 
equivalent of waving a red cape in front of Beijing and 
inviting China to charge.
    First, there is no security measure included in this act 
that is precluded by the Taiwan Relations Act, the TRA. Let me 
repeat that. Nothing contemplated in S. 693 is prohibited by 
the TRA. In fact, some of the enhancements suggested in the 
bill, such as increased military exchanges, better access to 
U.S. military schools, improved missile defense, airborne early 
warning aircraft, advanced medium-range air-to-air missile 
technology, anti-submarine warfare equipment, et cetera, are 
already part of the administration's security policy toward 
Taiwan.
    Recent U.S. defense sales to Taiwan have included 150 F-16 
fighters, advanced Patriot missile batteries, Perry- and Knox-
class frigates, the E2T Airborne Early Warning Aircraft. Of 
course, some aspects of our security relationship are not 
publicized very much. And that is as it should be, in my 
opinion. But as a result of this low profile, results-oriented 
approach, some Members of Congress and the public may get the 
mistaken impression that the U.S. is neglecting Taiwan. In my 
view, nothing could be further from the truth.
    Few people, for instance, know that Taiwan's Chief of 
General Staff, a four-star general who is currently Taiwan's 
Defense Minister, visited Washington last October to meet with 
Secretary of Defense Cohen. Three- and four-star generals 
routinely visit the Pentagon and other military installations--
usually with very little hoopla.
    My second concern is the bill's mistaken conclusion that 
Taiwan's security is primarily a function of its military 
capabilities. While it is true that deterrence is a significant 
component of Taiwan's security, in my view, the reality is that 
no amount of weaponry alone can guarantee Taiwan's security. 
Taiwan's security, in my view, flows from its democratic form 
of government, its growing economic, cultural, and political 
contacts with the mainland, and, ultimately, the United States' 
abiding commitment to a peaceful resolution of the Taiwan 
question.
    In my opinion, we should concentrate on strengthening those 
areas, rather than spend time pre-authorizing the sales of 
weapon systems, some of which do not even exist yet. None of 
the authorizations included in section 5 of the bill, as I read 
the bill, is necessary, in my view. The administration already 
has all the authority it needs, under the TRA, to sell such 
defensive weapon systems to Taiwan as are deemed necessary to 
meet Taiwan's legitimate defense needs.
    And, finally, Mr. Chairman, I am concerned that this bill 
is very ill-timed. U.S. relations with China leave a lot to be 
desired at the moment, to say the very least. And as Taiwan's 
Defense Minister told a visiting staff member of the committee 
2 months ago, poor U.S.-China relations are bad news for cross-
Strait relations, for Taiwan-Chinese relations.
    There is no single issue with greater potential to bring 
the United States and China into conflict than Taiwan. And a 
surefire way to spark such a conflict is for the U.S. to 
reinforce the growing perception in Beijing, however mistaken 
it may be, that the United States is hostile to China or 
pursuing the fragmentation of China.
    President Lee Teng-hui's July 9 statement that China and 
Taiwan should conduct their affairs on the basis of a special 
state-to-state--and that is to quote--``special state-to-
state''--end of quote--relations has rattled Beijing and 
injected a measure of uncertainty about Taiwan's future into 
the cross-Strait dynamic. Now is not the time for the U.S. to 
add to that uncertainty by modifying the very foundation upon 
which six successive U.S. administrations have constructed 
their Chinese policy.
    We should follow the old maxim: ``If it ain't broke, do not 
fix it.'' Mr. Chairman, I think this is premature. I understand 
your intentions. I believe they are obviously well-intended. 
There is nothing in the Taiwan Relations Act that would 
preclude anything that you are contemplating from going 
forward. I think we should let things simmer down a little bit, 
rather than heat up.
    And I thank the chair for his indulgence.
    The Chairman. Very well.
    Senator Baucus visited me on the floor the other day, and 
said he wanted to comment on this, in opposition to the bill. 
And we welcome him. He suggested 5 to 7 minutes, but we are 
going to turn the red light on at 10 minutes and give you a 
little extra time.
    Senator Baucus, we are glad to have you.

   STATEMENT OF HON. MAX S. BAUCUS, U.S. SENATOR FROM MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. I very 
much appreciate your courtesy, as well as that of Senator Biden 
and all the rest of the committee. And I will be less than 10 
minutes. I know you have a full agenda, so I will be very 
brief.
    I, Mr. Chairman, share the motivation underlying the Taiwan 
Security Enhancement Act. I, too, am concerned about the 
security and stability of Taiwan. But I believe that this is 
the wrong approach at the wrong time.
    The one-China policy has served the People's Republic of 
China, Taiwan, the United States, and the world very well for 
over a quarter of a century. It has led to peace and stability 
across the Taiwan Strait and the region. In Taiwan, we have 
seen the development of a flourishing and vibrant democracy, a 
prosperous and dynamic high-tech economy, envied by the entire 
world, and security.
    In the PRC, we have seen the opening up to the West, 
double-digit economic growth, a more responsible involvement in 
global affairs, liberalizing trends domestically, and security. 
For the United States, we have gotten over a quarter of a 
century of stability in Asia, the maintenance of workable 
relations with both the PRC and Taiwan, and the ability to 
influence both the PRC and Taiwan in the direction of modernity 
and responsibility on the world scene. And the world has seen 
peace, stability and economic prosperity in the region.
    There are some who criticize the Taiwan Relations Act and 
the three communiques. They say that this framework is simply 
an artifact of the cold war, an artifact that is irrelevant 
with the end of the Soviet Union and the enormous political and 
economic changes in Taiwan. I see no alternative at the present 
time to this framework that we have helped so much to 
construct. It is not perfect. It is not neat. But it has 
benefited everyone. And at least in the near term, there is 
nothing better.
    Over the long term, I believe that the current framework 
will not be sustainable. But change and adjustment must be done 
with great care and great caution. There can be no unilateral 
redefinition.
    The message that we in the United States have given to 
Beijing and Taipei from the beginning of the normalization 
process has been that they must negotiate together to resolve 
their differences. Settlement must be found by peaceful means. 
And there should be no unilateral steps taken to change the 
situation. That message is the same today.
    I want to take a moment to commend President Clinton for 
his active role that he has taken in trying to calm things down 
between Taipei and Beijing. I was extremely glad that the 
President called Chinese President Jiang Zemin to encourage 
restraint. His public comments, as well as his dispatch of 
Assistant Secretary Roth to Beijing and AIT Director Bush to 
Taipei have helped.
    What is needed now, more than ever, is dialog across the 
Taiwan Strait--dialog without Taiwan attempting to change the 
framework unilaterally, and dialog without the PRC making 
belligerent threats, taking military action, or trying in other 
ways to squeeze Taiwan.
    Let me conclude with a few comments about the WTO. The PRC 
is the world's most populous country. Taiwan is the twelfth 
largest economy in the world. It makes no sense to have them 
outside the WTO. The Taiwan agreement is finished. The Chinese 
agreement almost done. I urge Beijing to come back to the 
negotiating table now and complete the agreement quickly. The 
Congress can then approve permanent NTR. And we will see both 
Taipei and Beijing committed to the WTO this fall.
    A peaceful resolution of the Taiwan issue is deeply in the 
interest of all parties and of the entire region. We must avoid 
confrontation, which would inevitably draw the United States 
into it in some way. It is a delicate balance across the Taiwan 
Strait, and I do not believe that the Taiwan Security 
Enhancement Act is the way to maintain peace and stability and 
continued economic growth in the region.
    Again, Mr. Chairman and Senator Biden, I thank you for 
giving me the opportunity to present my thoughts to the 
committee today, and I urge you to do what is right. And that 
is, maintain peace and the continuation of the one-China 
policy.
    The Chairman. Thank you, Senator. I noticed you abbreviated 
your statement somewhat. So, without objection, the full 
statement as prepared will appear in the record.
    [The prepared statement of Senator Baucus follows:]

                Prepared Statement of Senator Max Baucus

    I appreciate the opportunity to appear before the Foreign Relations 
Committee today as you consider the Taiwan Security Enhancement Act.
    I have had a long interest and involvement in our nation's China 
policy. I share the motivation of the authors of the Taiwan Security 
Enhancement Act, which I believe is concern for the security and 
stability of Taiwan. But, as a good friend and supporter of Taiwan, I 
believe this is the wrong approach at the wrong time.
    The ``One China'' policy has served the People's Republic of China, 
Taiwan, the United States, and the world very well for over a quarter 
of a century. It has led to peace and stability across the Taiwan 
Strait and in the region. All sides, the United States, the PRC, and 
Taiwan, have prospered, both economically and politically, since the 
opening of China in 1972 with the Shanghai Communique.

    What has been the result of the ``One China'' policy for Taiwan?
          Development of a flourishing and vibrant democracy, a 
        prosperous and dynamic high tech economy envied by the entire 
        world, and security.

    What has been the result for the PRC?
          An opening up to the West, double digit economic growth, a 
        more responsible involvement in global affairs, liberalizing 
        trends domestically, $30 billion in investment from Taiwan, and 
        security.

    What has been the result for the United States?
          Over a quarter of a century of stability in Asia, the 
        maintenance of workable relations with both the PRC and Taiwan, 
        and the ability to influence both the PRC and Taiwan in the 
        direction of modernity and responsibility on the world scene.

    What has been the result for the World?
          Peace, stability, and economic prosperity in the region and, 
        I hope, WTO membership for both the PRC and Taiwan at the WTO 
        Ministerial in Seattle this fall, with the attendant benefits 
        to global economic growth.

    There are some who criticize the Taiwan Relations Act and the three 
communiques, that is, the Shanghai Communique of 1972, the 
Normalization Agreement of 1979, and the Arms Sales Agreement of 1982. 
They say that this framework for the interaction among the PRC, Taiwan, 
and the United States is simply an artifact of the Cold War, an 
artifact that is increasingly irrelevant with the fall of the Soviet 
Union and the end of the Cold War, and even more irrelevant given the 
enormous political and economic changes and progress we have witnessed 
within Taiwan.
    It is true that much has changed in the region over the past 
decade. But one major reason for many of these changes, and certainly 
the changes in Taiwan, lies in the existence of the Taiwan Relations 
Act and the three communiques and, frankly, their ambiguities.
    I see no alternative at the present time to this framework that we 
helped so much to construct. It is not perfect. It is not neat. But, at 
least in the near term, there is nothing better than the framework 
created by the Taiwan Relations Act and the three communiques. Over the 
long term, the current framework will not be sustainable. But change 
and adjustment must be done with great care and with great caution. 
Change must not be made through unilateral measures by any party.
    The message that we in the United States have given to Beijing and 
Taipei from the beginning of the normalization process has been that 
they must negotiate together to resolve their differences, settlement 
must be found by peaceful means, and there should be no unilateral 
steps taken to change the situation. This policy has worked. The United 
States must continue to oppose any effort, by either side, Taiwan or 
the PRC, to redefine the relationship unilaterally.
    I want to take a moment to commend President Clinton for the active 
role he has taken in trying to calm things down between Taipei and 
Beijing. I was extremely glad that the President called Chinese 
President Jiang Zemin to encourage restraint. His public comments, as 
well as his dispatch of Assistant Secretary of State Stanley Roth to 
Beijing and AIT Washington Director Richard Bush to Taipei, have 
helped.
    What is needed now, more than ever, is dialogue across the Taiwan 
Strait--dialogue without Taiwan attempting to change the framework 
unilaterally, and dialogue without the PRC making belligerent threats 
or taking military action.
    The United States must do everything we can to encourage the 
resumption and continuation of the cross-Strait dialogue. We saw after 
1993, when these talks began, that the result was rapidly improved 
cooperation--in tourism, investment, communications, and shipping. We 
must encourage this process. We have read a lot about the possibility 
that Wang Daohan, China's top negotiator on Taiwan, will not visit 
Taiwan in the fall. It is important that Taipei and Beijing make this 
visit happen.
    I said earlier that, over the long term, the current framework is 
not sustainable. There will have to be changes, but they must be the 
product of discussion and joint agreement. And, whether we like it or 
not, the United States is going to be a party, one way or another, to 
any discussion and agreement on change.
    Let me turn to the WTO for a moment. The PRC is the world's most 
populous country and one of the fastest growing economies in the world. 
Taiwan is the 12th largest economy in the world, despite a population 
of only 23 million people, and one of the world's major traders. It 
makes no sense to have these economies outside the WTO. They must be 
incorporated into the global system of trade rules.
    The Taiwan agreement is finished. The Chinese agreement is almost 
done. I urge Beijing to come back to the negotiating table now and 
complete the agreement quickly so that the U.S. Congress can grant them 
permanent NTR and welcome both Taipei and Beijing as members of the WTO 
at the Ministerial meeting in Seattle this fall.
    I am a firm believer that America's interest is to have China in 
the WTO, and I appreciate the support this has received from a number 
of members of this committee. There are solid economic reasons for 
wanting China to be a member of the WTO. In addition, it would 
represent one more step in China's integration into the world system, 
which is critically important to all of us.
    A peaceful resolution of the Taiwan issue is deeply in the interest 
of all parties, and of the entire region. We must avoid confrontation 
which would, inevitably, draw the United States into it in some way. It 
is a delicate balance across the Taiwan Strait. I don't believe that 
the Taiwan Security Enhancement Act is the way to keep the region in 
peace, with stability and continued economic growth.
    Again, thank you for giving me the opportunity to present my 
thoughts before the committee today.

    [The following prepared statement of Senator Thomas was 
submitted for inclusion in the record.]

               Prepared Statement of Senator Craig Thomas

    Thank you Mr. Chairman, and thank you for holding this hearing. I 
know we have a lot of witnesses this morning, so I will keep my opening 
brief.
    I know there is no member of this Committee, or of the Senate as a 
whole, with a stronger commitment to the people of Taiwan than you. I 
also know that you have introduced S. 693 with the intent of 
strengthening the security of Taiwan. That security is very important 
to me too. I have made clear both to Beijing and Taipei that any move 
to settle the cross-Strait issue by less than peaceful means is 
completely unacceptable.
    But as Chairman of the Subcommittee on East Asian and Pacific 
Affairs, I strongly believe that enactment of S. 693 would actually 
have the reverse effect. Passage of this bill would be interpreted by 
the PRC--and reasonably so--as a complete abrogation of the 1982 joint 
communique, one of the three pillars of our bilateral relationship; as 
a significant revision of the Taiwan Relations Act (TRA); and as a 
drastic change in our fundamental policy of maintaining unofficial 
relations with Taiwan. It would decimate our bilateral relationship 
with the PRC, and in turn would only make its relations with Taiwan 
more hostile.
    The TRA and joint communique have successfully governed our 
relationships with both countries for 20 years through both Republican 
and Democrat administrations. Those two documents have enabled us to 
maintain good relations with both governments, maintain the security of 
Taiwan through the sale of purely defensive weapons systems, and 
encourage cross-Strait dialog--a dialog without which the cross-Strait 
issue will never be resolved. I do not believe that present 
circumstances call for the kind of sea changes contained in the bill; 
as the saying goes, ``if it isn't broke, don't fix it.''

    The Chairman. Now, I have just been advised that there will 
be a vote on the floor at 5 minutes past 11. But let us get 
started with panel 2: The Honorable Stanley O. Roth, whom all 
of us know, Assistant Secretary of State for East Asian and 
Pacific Affairs and Dr. Kurt Campbell, Deputy Assistant 
Secretary of Defense for Asian and Pacific Affairs.
    Mr. Secretary, you may proceed.

STATEMENT OF STANLEY O. ROTH, ASSISTANT SECRETARY OF STATE FOR 
      EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Roth. Thank you, Mr. Chairman. It is good to see you 
again.
    I want to start on a completely different topic, but just 
to give you a very short briefing, because I know it is a high 
priority for you. I was in Vietnam last week for consultations. 
And I wanted to let you know that I put at the top of my 
meeting with the Deputy Prime Minister, who is also Foreign 
Minister, the continuing issues concerning the Montagnards that 
you and I have discussed before.
    The Chairman. Right.
    Mr. Roth. And in particular, the question of visas, so they 
can be reunited in the United States. And so I wanted you to 
know that this remains a high priority issue for the 
administration, not just for you.
    The Chairman. Well, I appreciate that. Is it your opinion 
that maybe the situation is becoming a bit better?
    Mr. Roth. The situation is becoming a bit better, but it is 
not good enough. And I think we should continue to press to 
make it a lot better. They are both in terms of issues relating 
to NGO access to the areas themselves and benefits for the 
people living there. There has been some progress, including 
the fact that members of your staff were given a visa. But that 
is not a substitute for better treatment of these people.
    There has been some progress on the visa issue. Many cases 
have been reviewed, but not all of them. And there are still 
several hundred cases of individuals that are pending, where we 
have not heard back from Vietnam. And I indicated that this was 
not acceptable, and we need their help in getting these cases 
resolved expeditiously, that this was a humanitarian problem. I 
pointed out that this was a high priority for you. But I 
indicated it was also a high priority for the administration.
    So, I do not want to use too much time, but I did want to 
let you know that this happened just last week.
    The Chairman. Well, I appreciate your doing that. Let us 
never forget that these are people who supported the United 
States when we needed support most in the world. And now they 
are being kicked around. And I am encouraged by your remarks. 
But please do just hang in there.
    Mr. Roth. Yes, Senator.
    The Chairman. You may proceed.
    Mr. Roth. In terms of the issue at hand, what I thought I 
would do is briefly review the context in which this 
legislation needs to be considered, and then offer remarks 
about the legislation itself.
    The Chairman. All right.
    Mr. Roth. Obviously the world has changed enormously since 
we last had a hearing on this subject, on March 25. At that 
time, you may recall that I was cautiously optimistic. That was 
because the cross-Strait dialog had taken an historic step 
forward, with the so-called Wong-Koo meetings, and another 
round was scheduled. And it appeared that both parties on 
either side of the Strait were talking to each other, and that 
such a dialog held out the hopes for progress.
    Obviously the situation has turned in a different 
direction, beginning with the series of events on July 9, when 
Lee Teng-hui made his interview concerning special state-to-
state relations. In my testimony, I have outlined the 
chronology of what has happened back and forth between the two 
parties. But in the interest of time, since those facts are 
well known, I will not go over that now.
    I thought what I would do instead is concentrate, first, on 
U.S. policy. I want to make it very clear that the 
administration, at every level, from the President on down to 
your humble servants, have made exactly the same three points 
to both parties. There are three pillars of the administration 
policy.
    First, the administration's commitment to a one-China 
policy is unchanged. Regardless of the position of the parties, 
we have not changed our policy. The President has said that 
both publicly and privately.
    Second, we believe that the best means to resolve these 
issues is by direct dialog between the parties themselves. We 
have taken every opportunity, including on my own trip to 
Beijing last week with Ken Liebenthal from the NSC, to urge the 
PRC to continue this dialog. It strikes us that it is precisely 
when times are difficult that you need the dialog. And to 
cancel it because of disagreements would be a mistake.
    China has not yet indicated whether or not these talks will 
continue in the fall, as had been previously anticipated, but 
they have put out a lot of hints, suggesting that it would not 
take place. And we are urging them to continue with this 
dialog.
    The third point that is integral to our position: We have 
stressed again, at every opportunity, the importance of a 
peaceful resolution of this issue. And the President has made 
that absolutely clear, as did Secretary Albright in her meeting 
with Chinese Foreign Minister Tang in Singapore last week, as 
did Ken Liebenthal and I in our meetings in Beijing. But China 
can have no doubts about what the United States position is 
with respect to peaceful resolution of this issue. And of 
course the administration has a track record on this point, 
which you are well aware of.
    So, where does this leave us, given all the to-ing and fro-
ing that has taken place between the parties and this clear 
exposition of U.S. views? I think the unfortunate answer is the 
situation remains tense, and potentially dangerous. That we do 
not know if the dialog will continue. There are continuing 
efforts, particularly on the Taiwan side, to try to clarify 
their position. We saw an effort yesterday in the Financial 
Times, with a statement by Su Chi. And we hope that the parties 
will work out a formula between themselves to get the dialog 
back on track.
    Thus far, we do not see any indication that there is 
mobilization on the PRC side of a military response. That is, 
as of today. It is very important, from our perspective, that 
that remain the case in the future, and that China not change 
its mind. We do not want to see a military response. And we 
have made that absolutely clear.
    But what we do not know is whether our efforts to encourage 
both sides to engage in this dialog, and if our warnings not to 
engage in military activities, will work. So this is, as some 
of the previous speakers have indicated, a dangerous period of 
time.
    One more point, and then I will relate all this to your 
legislation. There has been a lot of talk, some allegations, 
that the administration is somehow pressuring Taiwan. And some 
people cite the fact that I was sent to Beijing and that 
Richard Bush was sent to Taipei as proof of this pressure. I 
want to say, Mr. Chairman, frankly, I am a bit surprised by 
this. Had I been sent to Beijing and had nobody been sent to 
Taipei, I think the argument would have been that was tilting, 
that we would have been seen as leaning toward China and not 
even talking to the Taiwanese.
    In fact, Richard Bush and I were dispatched with identical 
messages in terms of what we sent to the two sides. And our 
mission, in addition to listening to what our respective 
interlocutors had to say, was simply to relay what U.S. policy 
is, so that there could be no mistake, and the parties 
understood what we stand for. And that is what we did. But I do 
not think that constitutes pressure.
    We have lived up to our obligations. We always had the 
intention of proceeding with the Taiwan arms sales before the 
congressional recess. There was not a single conversation that 
I was privy to or heard about where there was talk of 
punishment. You have been around long enough to remember the 
famous 1970's reassessment of policy toward the Middle East, 
when there was a desire to pressure Israel through arms sales. 
Nothing like that was contemplated, to my knowledge, anywhere 
in the U.S. Government. And we have come up with those arms 
sales before the notifications, before the recess.
    So I am here today to categorically reject the notion that 
there has been one-sided administration tilt or unfair pressure 
on Taiwan. We have been scrupulously neutral in our positions 
in terms of saying what U.S. policy is, identical to each side.
    Now, let me turn to the legislation itself. I do this with 
some trepidation, Mr. Chairman, because it is not a pleasant 
position to be in--to have to tell the chairman of this 
committee that the administration strongly opposes a piece of 
legislation that he has personally authored. Nevertheless, that 
is the administration's position.
    Senator Biden. The Bush administration never had any 
trouble telling us that. Do not feel so bad.
    Mr. Roth. I think the chairman deserves some deference.
    In any case, let me lay out the arguments, and permit us to 
get to the question and answer period.
    I think there are two fundamental points, and then a number 
of specifics. But what I would like to do in my oral remarks is 
concentrate on the fundamental points, which actually have been 
made by Senator Biden in his opening remarks.
    First, I believe the biggest fundamental flaw in the 
legislation is that it focuses on the narrow military aspects 
of the relationship, and assumes that that is the basis for 
Taiwan's security. Obviously having a strong defensive 
capability on Taiwan's part is important. A weak Taiwan might 
send the wrong signal to the other side and encourage 
activities that we do not want to see.
    But, having said that, there is also the reality that a 
military solution alone for an island of 22 million people, 
facing a nation of 1.3 billion people, is a rather difficult 
proposition. And Taiwan's security is not simply a matter, or 
even primarily a matter, of hardware and of the balance of 
forces in that sense. I think that the geopolitical situation 
is actually the critical determinant.
    By that, I mean several things. Obviously, the relationship 
across the Strait, between Taiwan and China, has a huge impact 
on the security of Taiwan. And that is why we have pressed so 
hard for the cross-Strait dialog, because that is the mechanism 
to resolve these issues peacefully.
    Second, the U.S. relationship with the PRC is critical. 
Because, as Senator Biden mentioned, it is precisely when U.S.-
PRC relations are strong that history has shown that China-PRC 
relations prosper and that U.S.-Taiwan relations prosper. It is 
not only not a zero-sum game, it is the opposite.
    So, Taiwan's security is really a complex equation that 
only partially depends on the hardware, but depends far more on 
the overall environment. And the question then is, at this 
dangerous moment of high tension, would the passage of this 
legislation, which seeks to change the rules of the game, be 
beneficial for that environment or would it be more likely to 
provoke a response that would hurt Taiwan?
    I think I can say with no false--without any hype here, Mr. 
Chairman, that Taiwan has no better friend in the United States 
than you. And I think your only intention in offering this 
legislation is to help promote Taiwan's security. But the 
administration's judgment is that this legislation not only 
will not do that, but would endanger that. And that is why we 
are opposing it--because we think it could risk a dangerous 
response from the other side, however unjustified that response 
might be.
    The other fundamental point that I wanted to make goes back 
to the ``if it ain't broke, don't fix it'' argument that 
Senator Biden made. I believe the record demonstrates that the 
Taiwan Relations Act has worked very well. We have, under the 
Clinton administration, a very robust policy of implementation 
of this act. Dr. Campbell will provide some of the details in 
terms of what we have done in terms of defensive weaponry sales 
and other steps. But I think that our arms sales process is 
working, despite the fact that we have disagreement over 
several systems.
    But it really is not broken. In fact, the overall 
relationship has helped to promote a situation that is 
radically better than where we were 20 years ago, when this act 
was adopted. Since I already testified in March at great detail 
about that, I will not go through that lengthy argument again, 
other than to say that the degree of ties between Taiwan and 
the PRC that exists today were inconceivable 20 years ago. The 
cross-Strait dialog was inconceivable 20 years ago. And the 
atmosphere of peace and stability that enabled Taiwan to get so 
prosperous and to democratize was inconceivable 20 years ago.
    These are all accomplishments of the TRA, which continues 
to work. So, if it ain't broke, don't fix it.
    Beyond that, in my testimony, I have laid out some very 
specific objections to individual provisions in the bill. It is 
your call, Mr. Chairman. I can do that now or respond in the 
Q&A, depending on whether you would like me to finish before 
the vote.
    [The prepared statement of Mr. Roth follows:]

               Prepared Statement of Hon. Stanley O. Roth

    It is a pleasure to appear before the Committee today, Mr. 
Chairman, in response to your request for Administration views 
concerning S. 693, ``The Taiwan Security Enhancement Act.'' I welcome 
the opportunity to respond to you on that subject, but I would like to 
do so in the context of providing you the Administration's assessment 
of current cross-strait relations.
                             recent events
    When I appeared before this Committee on March 25, I found some 
cause for optimism about dialogue between Taiwan and the PRC. In 
October of 1998, Koo Chen-fu, Chairman of Taiwan's Straits Exchange 
Foundation (SEF) and Taiwan's senior unofficial representative in talks 
with the PRC, traveled to Shanghai, where he was welcomed by his 
counterpart, Wang Daohan, the chairman of the PRC Association for 
Relations Across the Taiwan Strait (ARATS). He then went to Beijing 
where he stayed in an official state guesthouse, and met with President 
Jiang Zemin. Koo and Wang agreed to further dialogue on political, 
economic and other issues, and Wang agreed to make a return visit to 
Taiwan.
    The U.S. had strongly encouraged both sides to engage in such a 
direct dialogue. We welcomed the prospect that the dialogue would 
continue and hoped that Wang's visit to Taiwan might establish a more 
solid basis on which to continue the dialogue. Such a dialogue is the 
basis for Taiwan's lasting security, which military hardware alone 
cannot guarantee.
    In the context of that positive momentum, we had in recent months 
suggested that both sides look at the possibility of ``interim 
agreements'' as one way to move forward in their dialogue. We offered 
no preconceived formula about what the substance of interim agreements 
might be, only that they might serve as a way for both sides to build 
confidence in their ability to work together, setting the stage for 
increased cooperation and enhanced regional stability. We did not offer 
this suggestion to put pressure on either side, only as an idea that 
might prove useful to both.
    Unfortunately, the positive momentum which existed earlier this 
year has deteriorated sharply. On July 9, Taiwan's President Lee Teng-
hui told Voice of Germany radio that ``we have designated cross-strait 
ties as state-to-state or at least as special state-to-state ties.'' On 
July 12, Su Chi, the Chairman of Taiwan's Mainland Affairs Council, 
said that the PRC's formulation of the ``one China'' principle was not 
a basis for cross-strait discussions.
    Beijing stated that Lee's statements threatened the idea of ``one 
China'' that was the basis for relations across the Taiwan Strait and 
``was a very dangerous step along the way to splitting the country.'' 
Beijing repeated its long held position that it reserved the right to 
use force if Taiwan moved toward independence. Wang Daohan suggested 
that Lee's statement undermined the basis for him to travel to Taiwan 
this fall to continue the dialogue between the two sides, and he called 
for a clarification from SEF's Koo Chen-fu.
    On July 30 Koo Chen-fu sent a statement to Wang Daohan to clarify 
Lee's statement. Although he stated that there had been no change in 
Taiwan's policies favoring cross-strait dialogue, agreements between 
the two sides, and the goal of a unified China, Koo also held to Lee's 
position on ``special state-to-state relations.'' Koo said Taiwan 
considers that `` `one China' is something for the future since China 
at present is divided and ruled separately by two equal sovereign 
states in existence at the same time.''
    After Koo sent his statement of clarification, ARATS immediately 
rejected it and said that it ``seriously violated'' the 1992 SEF-ARATS 
consensus.
    From the very beginning, the United States responded to this 
disruption of cross-strait relations with consistent public and private 
statements in an effort to calm tensions and encourage a peaceful 
resolution of this dispute. On July 12, the State Department spokesman 
reiterated the U.S. commitment to its ``one China'' policy. The 
spokesman also stressed that, in accordance with the Taiwan Relations 
Act, we would view with grave concern any attempt to determine the 
future of Taiwan by other than peaceful means.
    The President, first in a telephone call to PRC President Jiang 
Zemin, and later in a White House press conference, spelled out the 
three pillars of our position toward relations between Taiwan and the 
PRC:

  <bullet> Our ``one China'' policy is unchanged;
  <bullet> We support dialogue as the only way for differences between 
        the two sides to be resolved; and
  <bullet> We have an abiding interest that there be a peaceful 
        approach by both sides to resolving differences.

    Following the Clinton-Jiang call, the Administration continued its 
diplomatic efforts to restore calm in cross-strait relations. This 
included dispatching parallel missions to Beijing and Taipei. NSC 
Senior Director for East Asia, Ken Lieberthal, and I traveled to 
Beijing while the Chairman of The American Institute in Taiwan (AIT), 
Richard Bush, traveled to Taipei. Both missions had the same 
objectives: to listen to senior leaders; and to make sure that they 
understood the United States' firm adherence to its long-standing 
policies: ``one China'' and our insistence on peaceful resolution of 
differences.
    As a second step, the Secretary met with PRC Foreign Minister Tang 
Jiaxuan in Singapore July 25, on the eve of the meeting of the ASEAN 
Regional Forum (ARF), to make clear our commitment to a one-China 
policy, a peaceful approach and cross-strait dialogue. Secretary 
Albright pressed Beijing to continue the cross-strait dialogue and 
urged them not to use force.
    Where does this leave the cross-strait situation today? It is 
impossible to be certain. There is no sign of imminent hostilities. It 
appears that PRC military activity is somewhat elevated, but reports in 
the media have been exaggerated. Nonetheless, the risk of escalation 
remains. The visit of Wang Daohan to Taiwan has not been officially 
cancelled, but the situation is serious, and we have urged that the 
visit proceed. In this period of uncertainty, all the key players will 
need to navigate with care.
          comments on ``the taiwan security enhancement act''
    Having set the context for our consideration of ``The Taiwan 
Security Enhancement Act,'' I would like first to offer a personal 
observation. Everyone who knows you, Mr. Chairman, knows beyond the 
slightest doubt that your overwhelming interest in offering this 
legislation is to strengthen Taiwan's security.
    Nonetheless, Mr. Chairman--and I say this with all due respect--the 
Administration believes that this legislation could have serious, 
unintended negative consequences that would weaken Taiwan's security 
and impinge on our own security interests in the region. These 
consequences arise because this legislation will be interpreted by 
Taiwan and by the PRC as a significant revision of the Taiwan Relations 
Act, which has successfully governed the U.S. role in cross-strait 
issues for twenty years. It will be seen as an effort to reverse our 
commitment to an unofficial relationship and to recreate in its place a 
formal military relationship with Taiwan.
    Several provisions of this bill lead to this perception. For 
example, the legislation mandates operational communication links 
between military headquarters of Taiwan and the U.S. in Hawaii, a 
linkage more indicative of formal military ties than an unofficial 
relationship. This perception would be further enforced by the Act's 
requirement that the Secretary of Defense permit the travel of flag-
rank officers to Taiwan. Avoiding such senior military travel has 
helped this and previous administrations of both parties to have 
successful working-level contacts while avoiding the cloak of 
officiality that would be a hindrance to effective exchange.
    Equally troubling is the specific authorization (in section 5 (d) 
and (e)) that the U.S. provide ballistic missile defense and early 
warning radar to Taiwan. As you know from my previous testimony, Mr. 
Chairman, the Administration, as a matter of policy, does not preclude 
the possible sale of TMD systems to Taiwan in the future. But, making 
this determination now, when the systems are still under development, 
and not yet even available to U.S. forces, is certainly premature. By 
their nature, providing these systems to Taiwan would be a decision 
with significant implications for Taiwan's security, for regional 
security, and for the security of the United States. That decision will 
need to be made based on a determination of Taiwan's defensive needs 
and in the context of regional developments at some point in the future 
when the system is ready for deployment.
    One major element of that context will be the choices that the PRC 
makes over the intervening years concerning the deployment of its 
missiles. We believe, and we are discussing this with the PRC, that its 
own security interests, as well as regional security, would be best 
advanced by a decision to check or scale back its missile deployments. 
Trends in PRC deployments will affect our consideration of deploying 
ballistic missile defense systems to Taiwan. While I cannot predict the 
outcome of our discussions with the PRC, I can assure you that 
enactment of this language into law will make it harder rather than 
easier for us to succeed, and could fuel an arms race that would leave 
Taiwan worse off.
    Finally, Mr. Chairman, this bill puts the Congress on record as 
endorsing the sales of a number of specific weapons, including several 
which the Administration had previously denied because they did not 
meet the criteria of strictly defensive weaponry.
    We see a danger that this bill could be the first step in a process 
whereby Congress would attempt to mandate specific arms sales, thereby 
abrogating the long-standing and effective arms sales process that now 
exists. That very prospect would change the dynamics of the current 
process, encouraging Taiwan to seek direct Congressional authorization 
for the sale of desired weapons.
    Equally significant, three actions required by the bill raise 
immediate constitutional concerns: the report detailing the 
administration's deliberative review of Taiwan's arms sales requests 
(sec. 4(b)); the plan for ``operational training and exchanges of 
personnel'' between the Taiwan and U.S. militaries (sec. 5(b)); and the 
establishment of a ``secure direct communications'' between the U.S. 
and Taiwan military (sec. 5(c)). All three would unconstitutionally 
interfere with the President's authority as Commander in Chief and 
interfere with his ability to carry out his responsibilities for the 
conduct of foreign relations
    In considering all these potentially serious problems with the 
proposed legislation, Mr. Chairman, I think is worth considering 
whether there is really a need for this Act. Has the Taiwan Relations 
Act failed in assisting Taiwan to provide for its security and 
stability? The track record of four administrations says ``no.'' 
Despite the difficulties cross-strait relations have encountered since 
I testified before you in March, the assessment of the Taiwan Relations 
Act, which I offered then, remains valid:

          I have no hesitation in declaring the TRA a resounding 
        success. Over the past twenty years, the TRA has not only 
        helped to preserve the substance of our relationship with 
        Taiwan, it has also contributed to the conditions which have 
        enabled the U.S., the PRC, and Taiwan to achieve a great deal 
        more.

    While there have been periods of friction over these twenty years, 
the dynamism and increasing prosperity across the Strait is 
unmistakable.
    That dynamism and prosperity has been the product of people on both 
sides of the Strait working together. Thousands of Taiwan companies 
have established operations in the PRC, often in cooperation with PRC 
companies, both private and government owned. Tens of thousands of PRC 
workers work for these Taiwan companies.
    That shared prosperity has been possible in part because Taiwan has 
been able, with the support of the United States under the TRA, to 
strengthen its self-defense capability. The United States has provided 
a wide range of defensive military equipment to Taiwan, ranging from 
Knox-class frigates, to anti-submarine S-2T aircraft, to anti-air 
missiles. Just last week, when some doubted we would move forward on 
pending sales, we notified to the Congress an additional sale of E-2T 
early warning aircraft and parts and equipment for F-16 aircraft.
    Every year, it seems, there is some speculation that the 
Administration will not move forward with some sale of defensive 
equipment to Taiwan because of some issue of the moment. Each time the 
speculation has been wrong. We are and will remain committed to 
fulfilling our obligations.
    In addition to providing military systems, we have provided 
extensive advice and training opportunities for Taiwan's military. 
Having an unofficial relationship has not obstructed our ability to 
have the kinds of contacts necessary to meet our obligations under 
section 3 of the TRA.
    All of this has occurred in accordance with our commitments under 
the TRA. It has worked and is working. Taiwan has never had a stronger 
defense capability, and that capability remains robust as a result of 
our ongoing efforts. I would propose that this answers the question I 
posed a moment ago. The Taiwan Relations Act has succeeded in assisting 
Taiwan to provide for its security and stability. There is no benefit 
to counterbalance the risks entailed in changing it.
                     conclusion: a serious decision
    In concluding, I would like to note that the TRA, for all its 
considerable success, cannot by itself provide for Taiwan's security. 
Given the disparity in size between the PRC and Taiwan, the island's 
security must always depend on more than just military hardware. The 
TRA must be complemented by peaceful interaction, including dialogue, 
between Taiwan and the PRC, if we are to reduce tensions and improve 
security. For twenty years, with the support of the TRA we have seen 
progress, halting at times, toward such a dialogue. Despite the 
difficulties of recent weeks, it must continue. It was with that in 
mind that the President responded to recent statements on both sides of 
the Strait by reiterating our commitment to dialogue and to a peaceful 
resolution of differences between Taiwan and the PRC.
    This bill would not enhance the prospects for dialogue and the 
peaceful resolution of differences. On the contrary, it could make it 
more difficult for both sides to advance cross-strait talks. And, it 
would do all this at a time of continuing concern, a time when the U.S. 
must provide stability and predictability if the two sides are to move 
forward to resolve their differences in a peaceful manner.
    Your vote on this bill is a serious decision. It is not what some 
would call ``a free vote.'' It is a potentially dangerous vote against 
a policy that has worked through four administrations and continues to 
work today.
    Thank you.

    The Chairman. Mr. Secretary, you are a very articulate man. 
But I would point out, if you will check the transcript a 
little bit later, you may want to adjust that. You put all the 
blame on the President's speech. You did not say anything about 
the saber rattling of Beijing. You did not say anything about 
the threats. I think the facts are that Beijing is a 
belligerent bully, jealous and envious of what Taiwan has 
accomplished.
    Dr. Campbell.

 STATEMENT OF KURT CAMPBELL, PH.D., DEPUTY ASSISTANT SECRETARY 
OF DEFENSE FOR ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF DEFENSE

    Dr. Campbell. Thank you very much, Mr. Chairman. It is an 
honor to be able to appear before you.
    And I think Assistant Secretary Roth has given you a 
broader and I think very accurate foreign policy representation 
of the cross-Strait situation. What I would like to do this 
morning is to speak specifically and very briefly on the 
security issues.
    First of all, I would like to very quickly associate myself 
with much of what Senator Biden has said. I think it is very 
accurate and very clear. One thing in particular that I would 
like to draw attention to is when he talked about the security 
dynamic between the United States and Taiwan as being one that 
has been a low-profile, results-oriented approach, that best be 
done quietly. And I would like to associate myself with that. I 
think I have been part of that, and I think it has been very 
successful.
    I would say just very briefly that I think the Taiwan 
Relations Act is the most successful piece of legislative 
leadership in modern history in the foreign policy realm. And I 
think it has been enormously effective in not only securing 
peace and stability, but an active U.S. role in the 
preservation of peace and stability in the Western Pacific.
    And I also agree that it gives us every bit of authority we 
need to maintain peace and stability. And I think that is the 
key. The Taiwan Relations Act gives us what we need to maintain 
peace and stability.
    Very briefly, in terms of your bill, the Taiwan Security 
Enhancement Act, Mr. Chairman, I just want to say quickly that 
it is, as Secretary Roth indicated, a very delicate time--
potentially even a dangerous time. And I think it behooves us 
to move very carefully in this context. And what I am worried 
about are the unintended consequences of the bill. And in my 
judgment, and I think in the judgment of the Department of 
Defense, is that the unintended consequences are likely to be 
dangerous. And so I would urge the committee to indeed re-
embrace the Taiwan Relations Act, which I think, as has been 
already indicated, has served our interests and the interests 
of Taiwan so very well for these last 20 years.
    Since I know you have a vote, I can conclude here, and 
then, as Mr. Roth indicated, I can take any questions about 
systems or discussions about the broader security implications 
or ramifications of what we are facing now subsequently.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Campbell follows:]

                Prepared Statement of Dr. Kurt Campbell

    Good afternoon Mr. Chairman and Members of the Committee. Thank you 
for this opportunity to speak to you about the U.S.-Taiwan security 
relationship. It is especially important to address these issues now 
that we are well into the 20th year of the Taiwan Relations Act. In the 
interest of reserving time to answer any questions you may have, I 
respectfully request that the following statement be entered into 
record. I have prepared a brief statement that specifically addresses 
your interest in the views of the Department of Defense toward the 
security situation in the Taiwan Strait.
    An overarching national security interest of the United States is 
preservation of peace and stability in the Asia-Pacific region. United 
States policy with regard to Taiwan and the PRC is integral to this 
goal. We maintain our obligations toward Taiwan as stipulated in the 
Taiwan Relations Act, not only because it is law but because it is good 
policy. We have also maintained a policy of comprehensive engagement 
and pursue a constructive relationship with the PRC, also because it is 
good policy. These two approaches are complementary and support our 
interests that the PRC and Taiwan directly and peacefully resolve their 
differences. A constructive and peaceful Taiwan-PRC dialogue serves the 
interest of all the parties and is a major element in achieving long-
term peace and stability in the Pacific.
    Our commitment to peace and stability is further bolstered by the 
maintenance of approximately 100,000 U.S. troops in the region, a 
policy reaffirmed by Secretary Cohen in DoD's 1998 East Asia Strategy 
Report. There have been times when more than simple dialogue and 
presence have been necessary to maintain stability. America's enduring 
commitment is well known and widely appreciated throughout the region, 
and contributes to our overall approach to the cross-Strait issue. The 
deployment of two carrier battle groups to the western Pacific in 
response to provocative PRC missile tests in March 1996 was a visible 
demonstration of the U.S. commitment to preserve peace and stability.
                       u.s. policy toward taiwan
    The Taiwan Relations Act (TRA) of 1979 forms the legal basis of 
U.S. policy regarding the security of Taiwan. Its premise is that an 
adequate Taiwan defensive capability is conducive to maintaining peace 
and security as long as differences remain between Taiwan and the PRC. 
Section 2(b) states, in part, that it is the policy of the United 
States:

  <bullet> to consider any effort to determine the future of Taiwan by 
        other than peaceful means, including by boycotts or embargoes, 
        a threat to the peace and security of the Western Pacific area 
        and of grave concern to the United States;
  <bullet> to provide Taiwan with arms of a defensive character; and
  <bullet> to maintain the capacity of the United States to resist any 
        resort to force or other forms of coercion that would 
        jeopardize the security, or the social or economic system, of 
        the people of Taiwan.

    Section 3 of the TRA also provides that the ``United States will 
make available to Taiwan such defense articles and defense services in 
such quantity as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' The act further states that ``the 
President and Congress shall determine the nature and quantity of such 
defense articles and services based solely upon their judgment of the 
needs of Taiwan, in accordance with procedures established by law.'' 
The TRA also asserts that a determination of Taiwan's needs ``shall 
include review by United States military authorities in connection with 
recommendations to the President and Congress.''
    Let me also call attention to an aspect of the August 17, 1982, 
Joint Communique between the United States and the People's Republic of 
China that is important to Taiwan's security. In this document, the PRC 
stated that its ``fundamental policy'' is ``to strive for a peaceful 
resolution to the Taiwan question.'' Having in mind this policy and the 
anticipated reduction in the military threat to Taiwan, the 1982 
Communique outlined our intention to gradually reduce the quantity and 
quality of arms sales to Taiwan. At the time the Joint Communique was 
issued, we made it clear that our intentions were premised upon the 
PRC's continued adherence to a peaceful resolution of differences with 
Taiwan.
    The Chinese deployment of theater missiles has the result of 
undermining confidence in the PRC's commitment to pursue peaceful means 
to resolve the long standing cross-Strait dispute. The United States 
urges restraint in PRC military operations and deployments opposite 
Taiwan and does not wish to see the development of an arms race in the 
region. The United States has abided by and will continue to abide by 
its commitments to Taiwan under the Taiwan Relations Act. Similarly, we 
believe that Taiwan's security will also be enhanced as we work to 
improve relations with the PRC.
                  the taiwan security enhancement act
    Our unofficial security relationship with Taiwan will remain an 
important part of maintaining peace and stability in the Taiwan Strait. 
We share the concerns that are reflected in many of the objectives in 
the Taiwan Security Enhancement Act. PLA modernization and a host of 
other factors could present Taiwan with an ever widening array of 
challenges in the coming years. We believe, however, that the Taiwan 
Relations Act provides a sufficient basis for U.S. security cooperation 
with Taiwan and that the Taiwan Security Enhancement Act is unnecessary 
and could have a counterproductive effect on Taiwan's security. 
Moreover, Taiwan's security rests not only on its defense posture but 
also on a continued, constructive cross-Strait dialogue.
    We already are addressing many of the provisions outlined in the 
Taiwan Security Enhancement Act. For example, DoD has a program of 
exchanges with Taiwan focused on such areas as planning, training, C4I, 
air defense, ASW, and logistics.
    These non-hardware exchanges serve multiple purposes. ``Software'' 
programs attempt to address many of the shortcomings in Taiwan military 
readiness that were identified in the February 1999 DoD Report to 
Congress on the Cross-Strait Security Situation. They allow Taiwan to 
better integrate newly acquired systems into their inventory. These 
initiatives provide an avenue to exchange views on Taiwan's 
requirements for defense modernization, to include professionalization, 
organizational issues, and training. Exchanges and discussions enhance 
our ability to assess Taiwan's longer term defense needs and develop 
well-founded security assistance policies. Such exchanges also enhance 
Taiwan's capacity for making operationally sound and cost effective 
acquisition decisions.
    We take very seriously our responsibility under the Taiwan 
Relations Act and have provided Taiwan with defense articles and 
services necessary for a self-sufficient defense capability. The U.S. 
has provided Taiwan with a range of advanced air defense systems, 
including E-2T airborne early warning aircraft, PATRIOT-derived 
Modified Air Defense Systems; HAWK and CHAPARRAL ground-based air 
defense systems; and F-16 air superiority fighters. We continue to 
examine means to enhance Taiwan's air defense capacity.
    Taiwan's interest in theater missile defenses is driven by China's 
past actions and its theater missile build-up opposite Taiwan. Future 
Chinese actions can have an influence on U.S. decisions with regard to 
the provision of theater missile defenses to Taiwan. We do not preclude 
the possibility of Taiwan having access to theater missile defenses, 
but these decisions remain in the future when the technology is mature. 
Our decisions on this will be guided by the same basic factors that 
have shaped our decisions to date on the provision of other defensive 
capabilities to Taiwan. As noted previously, we believe that a cross-
Strait dialogue that contains confidence-building measures is a 
critical ingredient to long-term stability across the Strait.
    Our responsibilities under the Taiwan Relations Act include 
assisting Taiwan with countering surface and subsurface naval threats. 
The U.S. has provided Taiwan with Knox-class frigates; S-70C 
helicopters and modernized S-2T ASW aircraft. We are continuing to 
examine Taiwan's comprehensive ASW requirements. We have also provided 
Taiwan with systems to counter an amphibious landing, to include M-60A 
tanks and armed helicopters.
    The Department of Defense's relationship with Taiwan is unofficial 
in nature. U.S. policy has been effective in promoting Taiwan security 
for the last 20 years. Senior DoD officials interact with their Taiwan 
military counterparts on a regular basis during unofficial visits to 
the United States. The Administration's policy regarding high-level 
visits to Taiwan is governed by the 1994 Taiwan Policy Review. We 
conduct responsible military interactions that are consistent with this 
1994 Review within the context of the unofficial nature of our 
relationship with Taiwan.
                 u.s.-prc relations and taiwan security
    In all our dialogues, we make clear to the PRC that we will 
continue to support Taiwan in its legitimate defense needs not only 
because it is required by U.S. law, but also because it serves the 
wider interests of peace and stability in the region. We also have made 
clear that we support only a peaceful resolution of the Taiwan issue, 
and regard any attempt to resolve the issue by other than peaceful 
means, or any other action that threatens regional stability to be of 
grave concern to the United States.
    It is important to reiterate our belief that any improvements in 
the U.S.-PRC bilateral relationship are not zero-sum: they will not 
come at Taiwan's expense, but rather serve to prevent possible 
misperceptions, enhance mutual trust and transparency, and promote 
restraint. Taiwan will be a primary beneficiary of the regional peace 
and stability fostered by positive Washington-Beijing relations.
    Ultimately, the U.S. position is that the Taiwan issue is for 
people on both sides of the Strait to resolve. This remains the best 
approach and our policy must remain consistent in this regard. Indeed, 
this is the only long-term guarantee of a peaceful and durable solution 
across the Taiwan Strait. It is also a necessary element in 
guaranteeing long-term peace and stability in East Asia.
    Our relationships with Taiwan and the PRC are likely to be among 
our most complex and important foreign policy challenges for many years 
to come. Indeed, the global political and regional environment is very 
different today than at the time the three Communiques and Taiwan 
Relations Act were formulated and implemented. Nonetheless, these 
documents have served U.S. interests in maintaining peace and stability 
in the Taiwan Strait for more than 20 years and remain the best 
framework for guiding U.S. policies into the future.
    The Taiwan Relations Act has been the most successful piece of 
legislative leadership in foreign policy in recent history. Its 
framework has contributed to an extended period of peace and prosperity 
across the Taiwan Strait and has promoted American interests in the 
western Pacific. This legislation, along with the three communiques, 
has also secured the foundation for the complex political and security 
interactions among China, Taiwan and the United States. The Taiwan 
Security Enhancement Act is unnecessary and potentially 
counterproductive. The Department of Defense opposes this legislation.
    Thank you, Mr. Chairman.

    The Chairman. Very well.
    Secretary Roth, the second part of section 3(b) of the 
Taiwan Relations Act says that ``determinations of defense 
sales to Taiwan should be based solely on our''--meaning the 
President and Congress--``judgment of the needs of Taiwan.'' 
Now, I read that to mean if Taiwan has a valid military 
requirement for something based on the threat it faces, we 
should approve that sale. In other words, political factors 
such as the opinion of dictators in Beijing should not be a 
consideration.
    Do you differ with my interpretation?
    Mr. Roth. If you are asking me, is the criterion for an 
arms sale whether China approves it or not, the answer clearly 
is no; that that would be illegal. But it would also be bad 
policy. That China opposes all arms sales to Taiwan. And as you 
know, the administration position is we not only abide by our 
obligations under the TRA to provide defensive weaponry, but we 
believe that is the correct policy. So we do look at it from 
the point of view of what Taiwan needs for self-defense.
    That, however, is a complicated calculation as to what goes 
into that. And we sometimes differ with Taiwan in terms of what 
their needs are. So I would not go to the opposite extreme, and 
say the mere fact that Taiwan asks for it means that we agree 
that they should receive it.
    The Chairman. Could you tell me, then, why there was so 
much agitation at the State Department--they had the nervous 
jeebies--in opposition to providing Taiwan with an early 
warning radar, which merely would give the citizens of Taiwan a 
few minutes' warning that a missile was headed their way? Why 
did the State Department get so excited about that?
    Mr. Roth. Well, let me go back to what I said previously. 
First of all, it was always our intention to approve this 
package of arms sales prior to the recess. And I think there 
has been a lot of unnecessary concern that this was going to be 
blocked somehow by a pro-Beijing State Department that was 
going to sell out our obligations to Taiwan. And I have tried 
to say categorically that that is not the case.
    There are concerns relating to a very different set of 
issues, Mr. Chairman, which is the larger set of issues 
relating to theater missile defense and ballistic missile 
defense, and the whole range of systems that could be 
contemplated under that category. And there, there has been a 
lot of consideration about what should or should not be 
provided at what point. That is a whole different set of issues 
where there has been a lot of discussion and no decisions.
    So, I do not want to mislead you. But in terms of the 
narrow, specific sale that has now been notified, there was no 
guerrilla warfare from the State Department.
    The Chairman. Well, is the State Department now committed 
to providing this early warning to Taiwan?
    Mr. Roth. Are you are referring to the planes that were 
just notified? Let me defer that to my colleague.
    The Chairman. You have approved it, but you have not 
notified; is that what you are saying?
    Mr. Roth. I think I am thinking of the sale we just 
notified. Let me defer to Dr. Campbell.
    Dr. Campbell. Mr. Chairman, I think there has been a slight 
bit of confusion. If you are talking about the early warning 
radar discussions that were held earlier this year, our 
understanding, of course, is that the administration agrees 
that Taiwan has a need for an appropriate early warning radar 
system. We have begun both intensive technical review, both 
internally and with Taiwan authorities, and we anticipate 
making final decisions at next year's arms talks.
    And that has been notified both to all parties on Capitol 
Hill and it has been informed to interlocutors in Taiwan, as 
well. And I will tell you, I think that is a unified decision 
that the administration has taken.
    It is unfair to characterize it as opposition within the 
State Department. I have been part of those discussions. The 
discussions are intense in terms of talking about what is 
appropriate. Remember, we have never provided these kinds of 
systems, really, to any country before. There are a lot of 
technical issues associated with releasability. I am 
comfortable that we have made the right decision. And we are in 
the midst of very, as I said, intense both internal 
deliberations and also discussions with Taiwan as we speak.
    The Chairman. I am a little bit confused. You said you have 
advised, informed, Taiwan. I understood that you were in the 
process of deciding. What did you advise Taiwan about?
    Dr. Campbell. We advised them that we agreed that there is 
a need for an early warning capability, and an early warning 
capability associated with the radar system. But, remember, as 
I said, Mr. Chairman, we have never had to consider this kind 
of request from any country before. So the technical issues are 
very difficult.
    The Chairman. OK. My time is just about up. Just a second 
now. In other words, the State Department has taken the view 
that the April agreement is a commitment to provide the early 
warning radar; is that right?
    Mr. Roth. Let me apologize for the confusion I may have 
just created, since I misunderstood the original question. I 
thought it applied to the sale that has already been notified. 
Now that I understand the question, the position is exactly as 
Dr. Campbell has represented. We have made a determination that 
a capability is needed for early warning, and we have agreed to 
address it in the context of next year's consultations with 
Taiwan.
    We have not worked out all the specifics, but we have had 
the decision in principle that a capability is needed. And we 
will be working on that and will be consulting with the Hill. 
But we have not made a definitive decision, notified to the 
Congress yet, on a specific system.
    The Chairman. But you have still got them dangling on the 
string, because they do not know what you are going to do. I am 
sure you did advise them that you are thinking about it.
    Senator Biden.
    Senator Biden. Thank you very much.
    Let me make sure I understand about the radars. What we are 
talking about is a land-based radar that is part of a TMD, or 
maybe----
    Dr. Campbell. No. In fact, Senator Biden--not to interrupt 
you----
    Senator Biden. Interrupt me. I want to get it straight.
    Dr. Campbell. This is a system that is designed--or will be 
designed--for early warning, exactly as the chairman indicated.
    Senator Biden. I understand that. But they have E-2's now, 
and you have agreed to sell them more E-2's, right?
    Dr. Campbell. Yes.
    Senator Biden. So it is not like they are blind now, right?
    Dr. Campbell. That is correct.
    Senator Biden. Since there is a vote on and there is not 
much time, one of the things that I think has prompted--and 
this is me speaking, not for the chairman, and the chairman 
will correct me if I am wrong--I think one of the things that 
has prompted this legislation is not merely the PRC's saber 
rattling or placement of systems aimed at Taiwan, additional 
systems. I think much of it has to do with whether or not there 
is a belief on the part of those who introduced the legislation 
whether this President will in fact give everything that Taiwan 
needs, legitimately needs, for its defense.
    I may be wrong about that, but I think that is what it is 
about. Nobody argues--nobody argues that I have heard so far, 
and I am anxious to hear the next panel--that everything that 
is contemplated in this legislation is not already allowed in 
the Taiwan Relations Act. This is kind of like a pre-approval. 
And what it is all about, as I see it, is putting the 
administration, from the perspective of those who think it is 
not doing enough, in the position of having to do what the 
Congress would like it to do and they are afraid the 
administration will not do.
    Now, I am in the minority, so I can afford to not be taken 
seriously, and I can say things that maybe I would not say were 
I chairman. But the bottom line is there is a lack of trust 
here. Just like some of us did not trust the Reagan 
administration and what they told us, a lot of folks here do 
not trust the Clinton administration and what you all are 
telling them.
    One of the questions I have for you, Mr. Roth, is would you 
be prepared to commit--and this may not be enough to stem the 
tide here to pass this legislation--but would you be prepared 
to--I mean would you consider communicating to the 
administration that if they were prepared to consult with the 
appropriate committees up here prior to an arms sale, not for 
the normal reasons--usually we seek prior consultation because 
we may not want an administration to transfer certain arms; 
here, it is the flip. Here, the flip is that you come up here 
with a plate full of goodies that are going to be sent to 
Taiwan in an arms sale, and the likelihood is you are going to 
have people here saying: Why is not there more on the plate?
    And so, as an alternative here, would you take back the 
message that there should, in my view, be some consideration to 
more advance consultation with this committee? I am assuming 
this act does not become law, either because there is not 
sufficient votes or it is vetoed and there is no ability to 
override the veto. Would you be able to come back here to this 
committee and to the Armed Services Committee and the 
Intelligence Committees, and say, look, this is what we intend, 
do you all think we should do more? Would you make your case to 
us before we do what we now do--we make an internal decision, 
we inform you of that decision?
    I absolutely think that just as you say cross-Strait 
discussions are important, cross-branch dialog, up-street, 
down-street relations are important here. Because the bottom 
line of all this is I think it is being driven by the fact that 
there is a concern--a concern that this administration will not 
do all that it is called for to do; that is, stand with Taiwan, 
consistent with the Taiwan Relations Act that was voted 20 
years ago.
    Would you consider delivering that message and be willing 
to get back to us, or at least to me and the committee, to 
determine whether or not you are willing to enhance that 
consultation?
    Mr. Roth. Of course, we will take the message back.
    Senator Biden. Let me put it another way. If you all do not 
do it, you are all going to get what you do not want. So take 
some advice from a guy who may not know much about the politics 
of this place, get smart quick. Otherwise the boss is going to 
win. And it is not a good idea that he win this one.
    I am going to go vote before I get myself in more trouble, 
Mr. Chairman.
    The Chairman. We have to do this in tandem now.
    When the United States sent aircraft carriers to the Taiwan 
Strait in 1996, were there secure communications directly 
between the U.S. and Taiwan? Either one of you may answer.
    Dr. Campbell. Mr. Chairman, as you know, the Taiwan 
Relations Act specifies that dialog, both on political and 
security issues, be handled through AIT, our representatives in 
Taipei.
    The Chairman. So the answer is no; is that right?
    Dr. Campbell. If I can, let me just finish, if I can, Mr. 
Chairman. That office does have classified capabilities and 
secure communications. They were used extensively during that 
crisis.
    But let me just underscore. Those are Americans in that 
office. And so the message was then subsequently passed from 
AIT to Taiwan officials. I would say and just underscore to 
you, during that time we did have extensive discussions with 
AIT, yes.
    The Chairman. Gee, I am all alone here, and I am enjoying 
this now.
    Secretary Roth, the Secretary of Energy recently visited 
Taiwan; is that correct?
    Mr. Roth. Yes.
    The Chairman. Why does the State Department continue to 
limit the rank of military officers who can visit Taiwan?
    Mr. Roth. Well, it is not a question of the rank of 
military officers. There is a whole government-wide policy that 
includes the State Department.
    The Chairman. Well, I understand that. I am asking you why.
    Mr. Roth. The answer is that we approve those visits at any 
level that we believe are consistent with an unofficial 
relationship. President Clinton made the determination in his 
first term that since we had a robust economic relationship and 
that the PRC had a robust economic relationship with Taiwan, 
that it was appropriate for economic officials, up to the level 
of cabinet rank, as appropriate, to visit Taiwan. And so, under 
that policy, several economic officials, including Secretary 
Richardson, have done.
    At the same time, a decision was made to continue the 
policy of all the preceding administrations, that senior 
diplomatic officials, including my level and up at the State 
Department, and senior military officials, I believe above the 
level of O-6, would not, as that would be more indicative of an 
official relationship, which we do not have. That has been the 
rationale.
    The Chairman. You know, what you are saying to me in plain 
language? This Government is a bunch of nervous nellies, afraid 
that they will offend mainland China. That is what I get out of 
all of this. And I do not like it. And sure, Joe has referred 
to my working on this bill that is before us. But I think 
morality has got to enter this somehow, in terms of our 
attitudes toward governments.
    Here you have a nation which is cutthroat in its economic 
dealings with the rest of the world. You find out how much 
green they bought from us, and how they have done it on the 
basis of prices and so forth and so on. But a nation that 
treats its political prisoners the way Red China does, you 
know, they conduct a blood type to find out what kind of heart 
they have and so forth, and people with $45,000 U.S. dollars 
can go in there, and if they match the heart, they can pay the 
money and get the heart after the political prisoner has been 
taken out in the yard and shot in the head.
    Now, I would be just as hard on Taiwan or any other nation 
on that sort of thing. And there has been incident after 
incident. And I deal constantly with young Chinese students in 
this country. They are not Taiwanese people, they are from 
mainland China. But they are here and they are free, they feel, 
to say what they believe.
    Do you ever talk to them?
    Mr. Roth. Certainly I have met with----
    The Chairman. What do they tell you?
    Mr. Roth. Well, each individual generally tells me their 
saga of what their problem was with the Chinese Government, and 
they give me their assessment of the situation.
    The Chairman. I know that.
    Mr. Roth. They obviously are extremely critical of the 
human rights practices of China.
    The Chairman. But I am talking about these kids who are 
disgusted with their own country and its moral practices. And 
we stand back and we do not say a thing and do not smell a 
thing. And if Taiwan goes down the tube, well, that is just too 
bad.
    I will tell you, I am in a fix and I am going to miss a 
vote if I--let me do this. Let me declare a recess for just a 
minute or two. Paul Coverdell will come back and he will 
preside. I want the other members of the committee to have a 
chance to talk with you.
    Mr. Roth. And I would like to respond to some of your 
comments, too, once you are back.
    The Chairman. Pardon me?
    Mr. Roth. I would like to respond to some of your 
observations when you have returned.
    The Chairman. All right. That is fair enough.
    The committee will stand in recess momentarily.
    [Recess.]
    Senator Coverdell [presiding]. Let me bring the committee 
back to order.
    I apologize to the panelists, as has the chairman, for the 
unpredictable nature of the Senate.
    Both you, Mr. Secretary, and Mr. Campbell, referred to the 
opening statement of Senator Biden often and frequently, and in 
particular to the statement, ``If it ain't broke, don't fix 
it.'' It strikes me that there is at least the nature of 
incongruity here. If you have a Washington Post editorial this 
morning, the opening paragraph: ``In just the past few days, 
China has illegally seized a Taiwanese ship, sent jet fighters 
provocatively across the Taiwan Strait, repeatedly hurled 
threats at Taiwan and its elected President, and test fired a 
new ballistic missile built in part on stolen U.S. technology. 
It also has cracked down on a peaceful spiritual sect, rounding 
up hundreds of members for some old-fashioned communist 
reeducation, and has, on Monday, sentenced two pro-democracy 
activists to terms of 8 and 9 years in prison on charges of 
subverting state power.''
    The editorial goes on. It is substantially critical of the 
administration--and this comes to another one of your 
statements, Secretary Roth--implying, in general, that there is 
reinforcement of a world bully and turning a back on a world 
ally. That is the general nature of it.
    You protested that as an incorrect characterization of the 
administration's policy, but, nevertheless, for whatever 
reason, there seems to be a growing perception that this is 
reflective of the administration, because it is being read and 
said everywhere in the country. So I would like each of you, 
beginning with you, Secretary Roth, to begin with what do you 
think is at the base of this misperception, this inability to 
understand the administration's policy here?
    And then, if both of you would comment on the suggestion 
that everything is just fine--it ain't broke, don't mess with 
it. It strikes me that I know you are talking about TRA-
specific, nevertheless, we are here today because I think 
everybody is alarmed.
    Mr. Secretary.
    Mr. Roth. I welcome this opportunity, since I woke up with 
some dismay to this editorial, which I think was an 
intellectual hodge-podge. And so I would like to try to provide 
the administration's perspective.
    To say that the Taiwan Relations Act is working, in terms 
of promoting the interests of peace and stability in the Strait 
is not to say that all is well either with China's internal 
policies on human rights or on U.S.-China relations. They are 
distinct issues. And the notion that the administration simply 
accepts any Chinese behavior is ridiculous.
    If you look at our annual human rights report, which China 
believes is a scathing attack--and it is, because that is the 
situation--we call it as we see it. If you ask about our 
efforts to try to secure a resolution in the U.N. Commission on 
Human Rights in Geneva on an annual basis, despite strenuous 
PRC opposition, we do it. We do it because it is right, because 
the situation calls for it. And we regret that other countries 
have not chosen to support us. But we have gone ahead anyway.
    We have not been intimidated by the opposition of Beijing. 
We have tried to advance a human rights dialog with China. The 
President and the Secretary have pushed hard to try to get them 
not only to sign but ratify human rights covenants. We have 
publicly criticized the crackdown on dissidents. We have 
publicly criticized the crackdown on Falun Gong.
    So we have not been silent. And the notion that somehow we 
are accepting this behavior and linking it to Taiwan, I just do 
not see the relationship. There are lots of problems in our 
bilateral relationship with China that we seek to address in a 
lot of different venues. But that does not focus in on the 
narrow issue of whether or not this particular legislation 
makes sense and whether that will work. So I hope we can 
distinguish between the issues.
    I have been called to testify at numerous point, and 
undoubtedly will again in the future, about various aspects of 
China policy, whether it is human rights, nonproliferation, 
Tibet, and so forth. And we have positions on all of these 
issues. So this is not to say that if it ain't broke, don't fix 
it, that there are no problems with China. Nor is it to say--
coming to the narrow issue--that we are satisfied with the 
current situation in cross-Strait.
    I think it is very clear, by the high level of attention we 
have given from the President down, that we are concerned about 
the situation in the Strait. And what we are trying to do is 
make clear that both parties understand just how determined we 
are to insist on peaceful resolution through dialog. And that 
is why the President has made his comments.
    That is why I was dispatched to Beijing with Ken 
Liebenthal, why Richard Bush was dispatched to AIT, and why we 
continue to emphasize these points. It is precisely because 
things are not good that we are trying to play our role, which 
is as the stabilizer, to try to calm the situation down, to 
urge restraint on the parties, and to get this back in the 
channel of dialog. So that is the posture.
    Senator Coverdell. Dr. Campbell.
    Dr. Campbell. Senator, I think you ask a fundamental and 
extremely difficult question. And I was just reflecting on it. 
I will try not to give you an overly academic answer.
    But as I think about it, I believe that the heart of this 
is we are on the verge, as many have said, the Pacific century, 
which will likely be the Pacific being the most dynamic, 
important and potentially the most dangerous area for American 
foreign policy. And at the center of that is the character and 
nature of our relationship with China.
    And I think what you see in the United States are 
struggles, defining what our interests are, what kind of 
relationship we need to have with China. China, for us, 
encompasses almost every kind of challenge that a nation can 
face. It is both a rising power in the international system--
that is always hard for those powers that are status quo 
powers. It has a growing military. It is developing 
capabilities that we have to look at very carefully. It is not 
a threat militarily to the United States now, but it could be 
in the future.
    It plays an important role in human rights, as Secretary 
Roth has stated, in proliferation, and in all matter of 
regional diplomacy, in North Korea, South Asia. It can be the 
key to peace and stability. It has a system of government, as 
Chairman Helms has said, that is antithetical to our own. And 
of course, at the middle of this is this complex relationship 
vis-a-vis Taiwan.
    I would tell you that my own sense is that this is going to 
be one of those issues that will be debated within the context 
of the American polity for years to come. What is interesting, 
I think I would just note, is that the divisions do not break 
down along party lines. You have got divisions within parties. 
You have got debates on a whole host of issues.
    I think the administration has done what it can to 
articulate why it is in U.S. interests to have a relationship 
with Beijing. It is going to be difficult. It is going to be 
subject to tremendous criticism. But I think it is the right 
thing to do. It is the right thing to do not just because we 
have key security issues in preserving peace and stability in 
the Asia-Pacific region, but simply because we cannot ignore 
China. China is going to be with us in the next century, 
whether we like it or not. And we better adjust to that as soon 
as possible.
    Senator Coverdell. Will you acknowledge that on the balance 
of the public expressions made today that--I do not think all 
this national conclusion that this administration in these last 
several weeks have been weighted against, it has not been a 
balance. You said, well, we have sent both countries 
simultaneously.
    Mr. Roth. With the same message.
    Senator Coverdell. With the same message. Something has not 
worked, because there is too much international comment 
suggesting that it is not the same message. It does not have an 
equilibrium to it. Normally this does not happen, just falling 
out of a shoe. If you really believe--and I assume that you 
do--that it needs to be an equal message to both, do you think 
that there is any modification called for here, given the 
analysis that all of us are waking up, like you this morning, 
reading, not only in the Washington Post but across the 
country?
    Mr. Roth. If you are asking me do I think there needs to be 
a modification in administration policy, I would say no. If you 
are asking me do I think that the parties on either side of the 
Strait need to continue making efforts to come up with a 
mutually acceptable formulation that lets them get the dialog 
back on track, I would say the answer is yes. What has changed 
has not been U.S. policy. What has changed has been the policy 
of the parties out there on either side of the Strait.
    And so I think we have always taken the position, this 
administration and all our predecessors, that it is between the 
parties themselves to work out the precise formulas under which 
they conduct cross-Strait dialog and regulate their own 
relationships. But we do not get in the middle. We are not a 
mediator. We are not a negotiator. We do not propose language 
to them. We are not negotiating this for them.
    But what we have said is that it is important on both sides 
to get to the table and keep to the table and make progress on 
working these issues out peacefully. That is the effort that 
now is still underway out there. As I indicated just yesterday, 
you saw in Su Chi's statement to the Financial Times yet 
another effort from the Taiwan side to offer a formulation 
designed to be reassuring, since it again referenced the one-
China policy.
    So it is up to the parties to make these formulations and 
to work it out. And what we have urged them to do is to be 
flexible, but meanwhile, urge restraint.
    Senator Coverdell. Dr. Campbell, do you want to comment on 
that?
    Dr. Campbell. I think the message that I take from the 
Senate today, Senator, is described I think very accurately by 
Senator Biden. I think we have to listen very carefully to the 
message you are giving us today. And I accept it. And I think, 
in terms of consultation and discussion with the Senate, I take 
it on, for myself, to do a better job along those lines.
    Senator Coverdell. Within the appropriate discretion, what 
is your assessment of the risk level, where we sit right now? I 
would say that the incidents are not less heeded; they are 
more. What should we read from this? Is there a misreading of 
our intentions here? Are we being misjudged on either side, or 
both? Are we in a green situation, a yellow or red?
    Mr. Roth. Well, you are asking the right question. I am not 
sure if I can tell you the right answers, because this depends 
on the actions of others, and particularly in determinations 
made by two parties. We have been as clear and as unequivocal 
as we can be about our determination to see a peaceful 
resolution. And as I said earlier, we have a track record on 
this, so people know we are serious. And this message has been 
communicated privately, as well as publicly.
    But what you are asking me is, will this be sufficient? And 
that requires me to speak for other governments, which I cannot 
do. And so all I could say is that we have laid down every 
marker that we know how to lay down about the seriousness with 
which we take this issue. And, meanwhile, we continue, on 
specific terms, to call for restraint.
    You undoubtedly saw the press article yesterday about the 
flights, the sorties, that are being conducted by both sides, 
approaching the median line in the Strait. And we have made not 
one, not two, but six demarches in the past 48 hours, in 
Beijing, in Taipei, in Washington, on the civilian side and on 
the military side, again, with the same message to both: 
Exercise restraint. Do not push this to confrontation. The risk 
of an accident, much less a deliberate confrontation, is high. 
It is not in your interest, it is not in the other side's 
interest, and it is not in our interest, and do not do it.
    So we are trying very actively--this is not a passive 
administration policy--to push the idea of restraint. But I 
cannot give you an unequivocal guarantee, much as I would like 
to, that it is necessarily going to work.
    Senator Coverdell. Dr. Campbell.
    Dr. Campbell. Senator, I would put it at yellow. I think, 
as Assistant Secretary Roth has indicated, both sides tend to 
use military forces to signal. And I think one of the things 
that we have to be careful about is that I think both Taiwan 
and the PRC sometimes believe that they have an ability to 
signal in ways that the other side understands completely. And 
I think our experience certainly during the cold war and other 
experiences indicates that that kind of signalling is often 
very much misunderstood by the other side.
    And I think what we worry about are circumstances, again, 
like Secretary Roth has indicated, are when you have got forces 
in proximity, trying to signal the other side, look, we mean 
business, we are serious, on whatever particular issue, that 
there are potentials for accidents and miscalculation. And I 
would say that the greatest concern that we at the Department 
of Defense has, and I think the administration has, is for an 
inadvertent or an accidental act.
    Which, frankly, leads us back to where Secretary Roth began 
today. Which is that the most important thing that can happen 
is for lines of communication to be reestablished, without 
preconditions. And those lines of communications should be on a 
range of issues, not least of which, we think, issues designed 
to preclude the possibility of this kind of miscalculation or 
accident.
    Ultimately, however, it is not our choice. One of the six 
assurances that we provided to Taiwan--and in fact, we informed 
the PRC in the 1980's--is that we will not interfere in their 
complex diplomacy. And so while we can make suggestions that 
this kind of mechanism might be useful, we cannot insist on it 
and we cannot inject ourselves into it.
    I think one of the principles that is absolutely clear is 
that when we become more directly involved in this complex 
cross-Strait security dimension, the potential for instability 
probably grows, rather than is reduced.
    Senator Coverdell. Interesting.
    Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you very much.
    Obviously a topic of enormous consequence in so many 
different ways. I find myself exceedingly sympathetic to the 
chairman of the committee, Senator Helms, and the sentiment 
that he is expressing--the notion that there ought to be some 
clarity. But I obviously--maybe not obviously--find myself 
sharing the position of Senator Biden and others that the 
methodology is at least provocative and potentially dangerous.
    But there is a fine line, clearly, that needs to be walked 
here. And I wonder if we are walking it correctly, if there is 
not something short of what the chairman seeks to do in his 
legislation, but greater than what is on the table today.
    Reading your testimony, Mr. Secretary Roth, you say: ``Both 
missions had the same objective''--this in your trips to Taipei 
and Beijing--``to listen to senior leaders, to make sure they 
understood the United States' firm adherence to its 
longstanding policies, one-China, and our insistence on 
peaceful resolution of differences.''
    Well, the one-China part, we can all understand. What does 
it mean, ``insistence on peaceful resolution of differences''? 
Is not the ambiguity that has purposefully existed in that in 
fact potentially leading China, in the wake of other aspects of 
the U.S.-China relationship, to make some judgments that might 
push the limits, absent some greater clarity to that particular 
sentence? What is your reaction to that?
    Mr. Roth. Well, I think that sentence was chosen to try to 
reduce, not increase, ambiguity. The notion is that this is not 
a mere talking point, when we say, you know, if you use the 
standard rhetoric--and in cross-Strait issues, people tend to 
use the same rhetoric with almost theological significance--so 
you always say the United States has a abiding interest in the 
peaceful resolution of these issues.
    My goal in drafting this sentence was to get away from that 
diplomatic language and just make it clear that what we are 
saying to people is this matters to us, that we take this very 
seriously--what I have said earlier today. We have a track 
record about how seriously we take this. And understand that 
this has to be resolved peacefully.
    Senator Kerry. Well, speaking of the track record, Mr. 
Secretary--and I say this as the devil's advocate--but many 
people in the Congress today, and publicly, have written about 
and argued that the administration has not gotten very much for 
its constructive engagement policy with China. And the 
question, therefore, is being asked: Are they interpreting, 
therefore, the track record of the last years and where we 
currently are in a way that leads them to make some of these 
decisions, in a way that emboldens them, which then leads 
Senator Helms and others to believe we have to be more clear 
about what this means to us and what we might do?
    Could one follow from the other, logically?
    Mr. Roth. Well, perhaps I was being too diplomatic. When I 
was referring to the track record, I was talking about our 
actions in March 1996.
    Senator Kerry. You are talking about the up-scaling in the 
Strait?
    Mr. Roth. The deployment of the two carriers in response to 
what we felt were provocative actions by the PRC, that 
threatened the peace and stability of the region. And 
consequently, at that point, the administration acted, and 
acted decisively.
    Senator Kerry. So that is the message you want China to 
clearly understand?
    Mr. Roth. That we are serious about peaceful resolution.
    Senator Kerry. What would you say to those critics who 
suggest that--when you look at the crackdown on dissidents, 
when you look at--I do not want to have to run through the 
whole record, you know the litany--what is your response to 
that, that in fact you are not getting very much from China, 
and therefore, your saber rattling in response is hollow? 
Again, a devil's advocate question.
    Mr. Roth. I am not sure I understand the two linkages. If 
you are asking me about engagement policy in general with China 
and whether it has worked, we have always taken the position 
that this is designed to achieve results, and that the proof of 
the pudding is in the eating. That it is not engagement, full-
out engagement, but that it is engagement for the sake of 
making progress on issues. And if it does not succeed, then we 
will have to try something else.
    And we have argued, and I think with a pretty good case, 
that in some areas we have made considerable progress, in some 
areas we have made slight progress, and in some areas we have 
not made progress. So the record is open. But I certainly would 
not accept that engagement has failed across the board. I think 
there is a lot to show for it in some areas quite specifically, 
including on the nonproliferation side, including on some of 
our foreign policy areas where we work, on North Korea, South 
Asia and a few other areas.
    So I think it is a mixed record. But I do not see how the 
overall debate about the effectiveness of engagement policy 
relates to the credibility on cross-Strait, where I think there 
is a very specific track record of the administration's 
seriousness on this issue.
    Senator Kerry. And in your judgment, then, there can be no 
ambiguity in the leaders' of China's minds with respect to what 
that phrase means and what our position is?
    Mr. Roth. I hope not. I cannot speak for the leaders of 
China. But I think we have made our positions very clear.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman [presiding]. Are you through?
    Senator Biden. I just have one question, Mr. Chairman. And 
I know we have an important panel waiting.
    China has deployed a large number of short-range missiles 
opposite Taiwan, and may deploy more missiles over the next 5 
years. What can and should the U.S. do to increase Taiwan's 
ability to defend itself from this new threat?
    Mr. Roth. Well, I think the first point is, and a point the 
administration has emphasized particularly to the PRC, is that 
China's actions matter. And that if China is perceived as 
acquiring major new capabilities, that that is going to trigger 
reasonable demands for U.S. responses. And I have specifically 
testified here previously--and let me repeat again today--that 
the administration has not precluded the sale of TMD to Taiwan, 
because we are specifically going to have to see, once the 
systems mature, as Dr. Campbell indicated, whether it is an 
appropriate response to the threat.
    But what we said to the PRC is this is the moment for 
diplomacy. They are supposed to be having cross-Strait dialog. 
And one of the things that would make the most sense to be 
talking about with Taiwan would be the whole issue of missiles 
and TMD. You do not want them to get TMD; they do not want to 
be threatened by missiles. This is an obvious basis for 
discussion. And perhaps you two can work something out. If not, 
our options are open. So that is been the primary response that 
we have made.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Gentlemen, thank you very much.
    Dr. Campbell. I would say just very quickly that the key 
here in the short term is going to be restraint. And it is 
absolutely critical for the PRC, over the next year or two, to 
demonstrate restraint when it comes to the deployment and 
development of systems across the Taiwan Strait.
    The Chairman. But what are you going to do if they continue 
to thumb their noses at you and steal our secrets and make the 
big ``B'' out of them? I think we are just scared to death of 
them.
    Mr. Roth. Well, Mr. Chairman, maybe I can respond to that, 
because I had asked prior to the recess to respond to you. 
Because you have made this statement that this administration 
is scared to death of them and this administration does not 
deal with them on a government-to-government level because we 
are afraid of their response.
    And even though I know this argument is not going to 
persuade you, I think it is important for the record to 
indicate, first of all, every administration since 1979, 
including 12 years of Reagan and Bush, has had the policy of 
not having senior diplomats and military officials travel 
there. This is not a new policy.
    But, furthermore, every major country in the world, every 
major power on every continent, behaves in exactly the same 
fashion. And the notion that this is simply cowardice on the 
part of every country in the world and every administration in 
the U.S. for the last 20 years I think is not fair. I think 
this has been a pragmatic formulation that has worked to 
promote peace and stability and Taiwan's own interest. And so I 
think that is the basis for it.
    The Chairman. Well, I thank you, gentlemen. It is just a 
fact that Communist China has not been as belligerent in 
previous administrations. But I thank you for coming this 
morning. We have got the home team coming in on the panel now.
    We are honored to have some officials of previous 
administrations: The Hon. Richard V. Allen, one of Ronald 
Reagan's right-hand men, whom I have known ever since then, and 
very well. And then there is the Hon. Caspar Weinberger, who is 
a great patriot and a good friend. Dr. David M. Lampton, 
director of China Studies at Johns Hopkins University. And 
last, and certainly not least, Jim Woolsey, formerly of the 
CIA.
    Since we always begin on the left, and I do not know 
exactly why that is----
    Senator Biden. It is a good habit, Mr. Chairman. It is a 
good habit.
    The Chairman. Well, from the other view, it is on the 
right.
    Mr. Allen, if you will proceed, sir.

 STATEMENT OF RICHARD V. ALLEN, ALLEN & COMPANY, WASHINGTON, DC

    Mr. Allen. Thank you, Mr. Chairman, Senator Biden, Senator 
Coverdell, Senator Kerry, and other members of the committee 
who may come in. I am pleased to have an opportunity to share 
my views with you on this important legislation.
    The United States has longstanding and solemn 
responsibilities toward Taiwan. This bill is timely and 
necessary primarily because the future security of Taiwan has 
been jeopardized by the policies of the administration and by 
the words and actions of the President and Secretary of State. 
Unless the Congress acts promptly to do something, Taiwan's 
future as the only Chinese democracy may be threatened.
    The United States needs to have a straightforward, 
productive, positive, and normal relationship with the People's 
Republic of China. It has striven to do so. But a sound 
relationship with China does not mean that this country is 
obliged to respond to China's demands in a matter absolutely 
vital to our national security interests in the Pacific Basin 
and, more importantly, an obligation that is rooted in the law 
of the United States.
    When President Jimmy Carter announced, on December 15, 
1978, that he intended to establish formal diplomatic relations 
with the PRC, it came as a great surprise, and especially to 
Congress. On January 29, 1979, the President sent to Congress a 
draft bill. It was vague and feckless. The Congress immediately 
recognized the inherent risks in these Carter proposals, and 
set out to remedy them with tough, unambiguous and bipartisan 
language.
    The final version of the Taiwan Relations Act, completely 
and dramatically different from Mr. Carter's version, was 
approved on March 29, 2 months after its introduction, in the 
Senate by a vote of 90 to 6 and in the House by 345 to 55. As 
Senator Biden noted, both you and he were there to cast that 
vote.
    President Carter did not even try to resist, and signed 
that act on April 10, 1979. The clear intent of Congress was to 
assert its inherent constitutional powers to remedy a 
dangerously defective administration approach to a vital 
national security interest. As one expert put it, Congress, as 
an institution, brought all of its foreign affairs authorities 
to bear in enacting one of the most successful legislative 
initiatives of foreign policymaking in U.S. history.
    The fundamental changes imposed by Congress conferred great 
significance on the future of our relationship with Taiwan, 
especially in providing adequate weapons to Taiwan so that it 
might defend itself against the only source of future 
aggression: the People's Republic of China.
    The PRC insists that its version of the future of Taiwan is 
the only valid outcome. In its eyes, Taiwan is a renegade 
province, ruled by a nonexistent, illegal clique. And it has 
not renounced the use of force to reincorporate Taiwan.
    We are in a period now of rough sailing in our relations 
with the People's Republic of China. And there is no question 
that the bombing of the Chinese Embassy in Belgrade was a 
monumental blunder, even if it was an accident. It fanned 
nationalist sentiment, and allowed mobs to attack our Embassy 
in retaliation, in an ominous signal--not just petulant 
behavior that would pass by temporarily. Its vituperative 
attacks on the United States and those who insist that Taiwan's 
safety represents a vital American interest is unceasing.
    S. 693 makes 20 important findings, and then proceeds to 
direct the Departments of State and Defense to make available a 
variety of defensive weapons that are going to update and 
modernize Taiwan's ability to defend itself. The administration 
argues that the Taiwan Relations Act is working and does not 
require adjustment or amplification. The administration also 
considers S. 693 to be intrusive, by placing unwanted 
restrictions on the ability of the executive branch to conduct 
foreign affairs, and it is congressional micromanagement.
    These arguments are certainly not valid in the matter of 
Taiwan security. The Congress has a special ongoing 
responsibility to ensure that the law is upheld. If the Taiwan 
Relations Act were now being implemented fully or faithfully, 
there would be no need for Congress to exert its prerogatives 
and to draft S. 693 in the first place. In the 6\1/2\ years of 
the Clinton administration, the effectiveness of the TRA has 
been slowly eroded.
    And numbers do not tell the story alone. Notably eroded 
since the visit of President Clinton to China last June, when 
he inexplicably embraced Beijing's ``three noes'' regarding 
Taiwan. This indeed was an important tilt, a change in U.S. 
policy. It sent a message. And I believe it was the wrong one.
    From the outset, Beijing has simply rejected the Taiwan 
Relations Act as a gross interference in its internal affairs. 
China repeatedly declares the TRA to be null and void, of no 
significance whatever. It insists that the three communiques 
are the only basis for the Sino-American relationship. I have 
heard that argument for years, especially since Deng Tsiao Peng 
recited it to George Bush, then candidate for Vice President, 
and me in August 1980, in a pre-election trip that we took.
    This, Mr. Chairman, is the nub of the argument: Does the 
law of the land, the Taiwan Relations Act, take precedence over 
diplomatic communiques? The administration may think it does 
not. Finding 11 of S. 693 puts it clearly: ``As has been 
affirmed on several occasions by the executive branch of 
government, the provisions of the Taiwan Relations Act take 
legal precedence over any communique with the People's Republic 
of China.''
    The administration, I think, misleads the Congress and the 
American people when it insists that it has been just following 
the precedence of previous administrations. According to the 
legal advisor of the State Department in 1982: These 
communiques do not constitute a treaty or a legally binding 
international agreement, creating obligations and rights under 
international law, but, rather, are statements of future U.S. 
policy.
    I now come to the central point of S. 693, the provision of 
defensive armaments to Taiwan. The very first stated purpose of 
the Taiwan Relations Act is to help maintain peace, security 
and stability in the western Pacific. The law states that to 
accomplish this, ``the President and the Congress shall 
determine the nature and quantity of such defense articles and 
services based solely upon their judgment and the needs of 
Taiwan.''
    If the administration really believes that the defense of 
Taiwan's democracy is hinged to the continuity of its 
capability to deter war, why does it threaten to penalize 
Taiwan by withholding arms transfers and technical cooperation? 
Why did the Secretary of State make the incredible statement 
that Taiwanese elaboration of President Lee Teng-hui's July 9 
speech ``does not quite do it,'' as if to put Taiwan in the 
corner, and as if to pressure it to hurry up and sign some 
interim agreements, leading to the reunification with the PRC.
    Should President Lee Teng-hui issue a full mea culpa and 
petition Beijing for its understanding? Does not this policy 
stance actually put the United States on the side of a 
repressive and hostile PRC regime? The same folks who gave us 
Tiananmen Square, repress and jail democratic dissidents, who 
mobilized to crush spiritual movements like the Falun Gong and 
issue an arrest warrant for its leader who lives in the United 
States, who systematically violates every principle of human 
rights, who continue to subjugate Tibet.
    At what price can we finally achieve, or purchase, a decent 
and stable relationship with the People's Republic of China?
    Some specialists argue that China would be willing to fight 
the United States over Taiwan, either now or soon. And that 
this new possibility introduces a new dimension to our policy 
deliberations. It is the dimension of risk, which is inherent 
in every aspect of our foreign policy, and certainly was a 
characteristic of the cold war. Risk was the essence of our 
response to the Soviet Union.
    Given the pace of China's military power and its buildup 
far in excess of its defensive requirements, we must fairly 
conclude that China anticipates that it will need to project 
its power in the region, perhaps to displace eventually the 
United States as the principal determinant of what goes on in 
the western Pacific, or to demonstrate sufficient muscle to 
persuade its neighbors to go along and get along on China's 
terms. But the most ominous reason, Mr. Chairman, for the 
accumulation of military power appears to be the prospective 
subjugation of Taiwan, preferably by threat of force and, in 
extremis, the actual use of force, while being able to deter 
the United States from intervening.
    We need to look at our own capabilities and our long-term 
strategy. We cannot and should not proceed on the assumption 
that we will be drawn into conflict with China for any reason, 
yet neither can we afford to abandon our role or our 
capabilities in the region. Like all legislation, the Taiwan 
Relations Act is not frozen in time.
    S. 693 is consistent with the Taiwan Relations Act. It 
properly elaborates the TRA in strategic conditions that 
prevail today and into the next decade. It is a response to 
present needs and is but the continuation of an insurance 
policy wisely enacted through congressional initiative 20 years 
ago.
    Thank you.
    [The prepared statement of Mr. Allen follows:]

                 Prepared Statement of Richard V. Allen

 s.693, a bill to assist in the enhancement of the security of taiwan, 
                         and for other purposes
    Mr. Chairman, Senator Torricelli and Members of the Committee: I am 
pleased to have an opportunity to discuss this important joint 
initiative, to fulfill long-standing and solemn responsibilities of the 
United States toward Taiwan. This Bill is timely and necessary, 
primarily because the future security of Taiwan, the Republic of China, 
has been unfortunately jeopardized by the policies of the 
Administration and by the words and actions of the President and the 
Secretary of State. Unless the Congress acts promptly, Taiwan's future 
as the only Chinese democracy in the world may be threatened.
    The United States should have a productive, straightforward and 
normal relationship with the People's Republic of China. My views are 
not intended to antagonize or confront those who may disagree with 
them, least of all the Government of China. But in my view a sound 
relationship with China does not mean that this country should be 
obliged to respond to China's demands in a matter that is absolutely 
vital to our national security interests in the Pacific Basin, and, 
more important, an obligation that is rooted in law.
    Cross-Strait relations has been an issue of interest to me for 
decades, at least since the mid-1950s. In 1968 I served as foreign 
policy coordinator for Richard Nixon during his campaign for the 
presidency, and assisted in his now-famous October 1967 Foreign Affairs 
article, ``Asia After Vietnam,'' in which he signaled his intention for 
an ``opening'' to China. I was Deputy Assistant to the President when 
he announced his historic 1972 trip to China. From 1977-1980 I served 
as chief foreign policy advisor to Ronald Reagan, and between the 1980 
nominating convention and the formal start of the campaign, I initiated 
a trip to China with the George Bush, then the nominee for Vice 
President, to meet with Chinese leaders, including Deng Tsiao Peng, to 
explain what a Reagan-Bush administration China policy would be if the 
ticket were elected in November of that year. I worked directly with 
candidate and then President Reagan on every aspect of his policy 
toward China and Taiwan during the first year of his Administration.
    When President Jimmy Carter announced on December 15, 1978 that he 
intended to establish formal diplomatic relations with the People's 
Republic of China, it came as a great surprise, especially to Congress. 
On January 29, 1979, the President sent to Congress a draft Bill; it 
was vague and feckless. The Congress immediately recognized the 
inherent risks in the Carter proposals, and set out to remedy them with 
tough and unambiguous language. Within five weeks both Houses of 
Congress had finished hearings and reported amended versions of the 
Bill, which was further amended on the floor of the House and Senate. 
Additional strengthening came in a joint conference, and the final 
version, completely and dramatically different from Mr. Carter's 
version, was approved on March 29, 1979, precisely two months after 
being introduced. That final version was approved in the Senate by a 
vote of 90 to 6, and in the House by 345 to 55. Faced with such 
overwhelming Congressional sentiment, President Carter did not try to 
resist, and signed the act on April 10, 1979. That swift legislative 
path, especially on such a critically important piece of legislation, 
was remarkable. It faithfully reflected the strong feelings of the 
Congress and the American people.
    Perhaps more remarkable was the clear intent of Congress to assert 
its inherent constitutional powers in pursuit of a remedy for what it 
perceived to be a dangerously defective Administration approach to a 
vital national security interest. As one expert analyst so eloquently 
put it, ``Congress as an institution brought all of its foreign affairs 
authorities to bear in enacting one of the most successful legislative 
initiatives of foreign policy making in U.S. history. . . . this law 
stands as a model of decisive action by Congress with energy and 
dispatch to secure and advance the nation's foreign interests. By an 
unusual exercise of bicameral and bipartisan cooperation, Congress used 
the legislative power competently at a moment of dramatic change in 
U.S. policy to serve both the ends of the executive and the national 
interest.'' \1\
---------------------------------------------------------------------------
    \1\ Terry Emerson, ``The Taiwan Relations Act--Successful Foreign 
Policy Making By Congress,'' Address to The Asia Society, Los Angeles, 
April 22, 1988.
---------------------------------------------------------------------------
    Very significant is that the Congress responded to defective policy 
proposals of the President by making the best of what it clearly 
perceived to be an undesirable and, in the eyes of many, dangerous 
situation. Moreover, the fundamental changes imposed by Congress 
conferred great significance on the future of our relationship with 
Taiwan, especially in the sector of providing adequate weapons to 
Taiwan so that it might defend itself against the only real source of 
future aggression, the PRC, and it included specific language 
identifying boycotts and embargoes as a ``threat to peace'' and ``of 
grave concern'' to the United States.
    So, twenty years later the United States again finds itself in a 
state of relative confusion vis-a-vis China and the handling of 
Taiwan's future security. The PRC has adroitly played a waiting game, 
insisting that its version of the future of Taiwan is the only valid 
outcome; in its eyes, Taiwan is a ``renegade'' province ruled by a non-
existent, illegal clique, and it has not renounced the use of force to 
reincorporate Taiwan under Beijing's control. The issue of Hong Kong 
having been ``solved,'' China will reacquire control of Macao later 
this year, leaving only Taiwan as an outstanding ``issue.''
    I cite this important history because we have clearly entered a 
period of rough sailing in our relations with the People's Republic of 
China. There is no question that the bombing of the Chinese Embassy in 
Belgrade was a monumental blunder, whether an accident or not, and that 
China is incensed. But China's disproportionate reaction, fanning 
nationalistic sentiment and allowing mobs to attack our Embassy in 
retaliation is an ominous signal, not just petulant behavior. Its 
vituperative attacks on the United States and on those who insist that 
Taiwan's safety represent a vital American national security interest 
has been unceasing. Perhaps stung by the documented nuclear espionage 
revelations of the Cox Committee, as well as the disclosure of its 
brazen attempts to influence U.S. elections through illegal campaign 
contributions, not to mention the Administration's mishandling of its 
prospective entry into the WTO, China feels that the best defense is a 
vigorous offense, and that leverage over the United States can be found 
in the unremitting hostility of a victim.
    The Bill (S. 693) the Committee now considers makes twenty 
important findings and then proceeds to direct the Departments of State 
and Defense to make available a variety of defensive weapons that will 
update and modernize Taiwan's ability to defend itself. The 
Administration opposes the Bill, as we have heard today; it argues that 
the Taiwan Relations Act is working and does not require adjustment or 
amplification. Moreover, it is clear that the Administration entertains 
a real fear of further ``upsetting'' the PRC.
    It seems that the Administration also considers S. 693 to be 
intrusive, in that it would place unwanted restrictions on the ability 
of the Executive Branch to conduct foreign affairs and would amount to 
Congressional ``micromanagement.'' Perhaps these arguments could be 
considered in the context of other policy matters, but are certainly 
not valid in the matter of Taiwan's security. The Congress has a 
special, ongoing responsibility to insure that the law, reflecting both 
its legislative intent and the overwhelming support of the American 
people, is upheld.
    In my view, the Taiwan Relations Act is clearly not now being 
implemented fully or faithfully; if it were, there would have been no 
need for Congress to assert its prerogative, no need to draft S. 693 in 
the first place. During the twelve years of the Reagan and Bush 
Administration, the TRA was implemented to the satisfaction of the 
Congress, even though there were occasional disagreements on details. 
In the six and a half years of the Clinton Administration, the TRA has 
been slowly eroded, and notably since the visit of President Clinton to 
China last June, when he inexplicably embraced Beijing's ``three noes'' 
regarding Taiwan. This was an important tilt, a change in U.S. policy. 
The Taiwan Relations Act gives great latitude to the President, who 
implements the law on a day-to-day basis and conducts relations with 
Taiwan and the PRC.
    From the outset, Beijing has simply rejected the Taiwan Relations 
Act as a gross interference in its ``internal affairs.'' China 
repeatedly declares the TRA to be null and void, of no significance 
whatever. It insists that the three communiques are the only basis for 
the Sino-American relationship. I have heard that argument since Deng 
Tsiao Peng recited it to me in August 1980.
    This, Mr. Chairman, is the nub of the argument: does the law of the 
land, the Taiwan Relations Act, take precedence over diplomatic 
communiques? The Administration may think it does not, and in this 
respect it seems to lean toward agreement with the PRC interpretation. 
However, Finding (11) of S. 693 puts it clearly: ``As has been affirmed 
on several occasions by the Executive Branch of Government, the 
provisions of the Taiwan Relations Act take legal precedence over any 
communique with the People's Republic of China.'' It is clearly the 
prerogative of Congress to state this in an unambiguous way; in fact, 
it is necessary to do so because the Administration misleads the 
Congress and the American people when it insists it has just been 
following the precedents of previous Administrations. According to the 
Legal Adviser of the Department of State in 1982, none of these 
communiques constitutes a treaty or a ``legally binding international 
agreement creating obligations ands rights under international law'' 
but rather are statements of future U.S. policy.
    I come now to the central point of S. 693, the provision of 
defensive armaments to Taiwan. The very first stated purpose of the TRA 
is ``to help maintain peace, security and stability in the Western 
Pacific.'' To accomplish this, the law states clearly that ``the 
President and the Congress shall determine the nature and quantity of 
such defense articles and services based solely upon their judgment of 
the needs of Taiwan.'' Mr. Chairman, China continues arming and 
equipping its forces in a manner far in excess of its legitimate 
defensive requirements. It has not renounced the use of force against 
Taiwan, despite the fact that our communiques with Taiwan are 
predicated upon the peaceful resolution of differences between the two 
sides.
    Recently, China has announced that it has a neutron weapon; tested 
a new road mobile missile, the DF-31, and it People's Liberation Air 
Force has now initiated a sortie rate into the Taiwan Strait at a level 
not matched since the crisis of 1958, forty-one years ago. Many of 
these aggressive sorties, especially those involving the Russian SU-
27SK, equipped with highly effective missiles, are flying out to the 
mid-line of the Taiwan Strait. Thus far, the Republic of China Air 
Force has avoided any mid-line confrontation, but is prepared to 
respond to any attack. These heavy psychological and simulated assault 
tactics are provocative in the extreme, and may lend credence to the 
theory held by some that Beijing, anxious for something special to 
celebrate at its 50th anniversary of the founding of the PRC on October 
1 of this year, would countenance a round of preliminary combat with 
Taiwan under controlled conditions.
    If the Administration really believes that the defense of Taiwan's 
democracy is hinged to the continuity of its capability to deter war, 
why does it threaten to penalize Taiwan by withholding arms transfers 
and technical cooperation? Why did the Secretary of State make the 
incredible statement that Taiwanese elaboration of President Lee Teng 
Hui's July 9th speech ``doesn't quite do it'', as if to put Taiwan in 
the corner and pressure it to hurry up and sign ``interim agreements'' 
leading to reunification with the PRC? Should President Lee Teng Hui 
issue a full mea culpa and petition Beijing for its understanding? 
After all, for Taiwan, preservation of its freedom to choose is 
essentially a matter of life or death.
    Doesn't this policy stance actually put the United States on the 
side of the repressive and hostile PRC regime? The same folks who gave 
us Tienanmen Square; who repress and jail democratic dissidents; who 
mobilize to crush spiritual movements like the Falun Gong and issue an 
arrest warrant for its leader who lives in the U.S.; who systematically 
violate every principle of human rights; who continue to subjugate 
Tibet? At what price can we finally achieve, or purchase, a decent and 
stable relationship with the People's Republic of China?
    Last week The Economist put it correctly when it wrote: ``The 
threat of force has become almost a kneejerk reaction for China's 
leaders whenever Taiwan displeases them. They need to realize that this 
hinders rather than helps China's goal of reunification. Not only does 
it antagonize Taiwan's people; it also helps to build up other 
countries' support for Taiwan's right to decide its own future. . . . 
to draw Taiwan into reunion, China will need to win the support of 
Taiwan's people. Its current behavior is a demonstration of how not to 
do it.'' (July 24th 1999, p. 18).
    Some specialists argue that China would be willing to fight the 
United States over Taiwan, either now or soon, and that this new 
possibility introduces a new dimension to our policy deliberations. 
Given the pace of China's military power buildup, far in excess of its 
defensive requirements, we must fairly conclude that China anticipates 
that it will need to project its power in the region. One purpose of 
doing that would be to displace, eventually, the United States as the 
principal determinant of security in the Western Pacific; another would 
be to demonstrate sufficient muscle to persuade its neighbors to ``go 
along and get along,'' provided it will be on China's terms; but the 
most ominous reason for the accumulation of military power appears to 
be the subjugation of Taiwan, preferably by the threat of force, and in 
extremis the actual use of force, while being able to deter the United 
States from intervening.
    This evolving situation requires us to look again at our own 
capabilities and our long-term strategy. We cannot and should not 
proceed on the assumption that we will be drawn into conflict with 
China for any reason, yet neither can we afford to abandon our role in 
the region.
    Earlier this year the Department of Defense provided the Congress 
with it assessment of The Security Situation in the Taiwan Strait. It 
forecasts that ``by 2005 the PLA will possess the capability to attack 
Taiwan with air and missile strikes which would degrade key military 
facilities and damage the island's economic infrastructure . . . retain 
the ability to interdict and blockade the island's principal ports.'' 
In view of this increasing threat, the provisions of S.693 will be of 
major assistance to Taiwan in its effort to remain free, democratic and 
prosperous. That is what Taiwan wants, and it is what we ought to want 
as well.
    Like all legislation, the Taiwan Relations Act is not frozen in 
time. S. 693 is consistent with the Taiwan Relations Act; it properly 
elaborates the TRA in the strategic conditions that prevail today and 
into the next decade. It is a response to present needs, and is but the 
continuation of an insurance policy wisely enacted through 
Congressional initiative twenty years ago.

    The Chairman. Mr. Allen, thank you very much.
    Secretary Weinberger. And let me say that these two 
gentlemen happen to be on the program at a dinner I attended 
not long ago. And they were eloquent that night, as well. We 
welcome you, sir. You may proceed.

  STATEMENT OF CASPAR W. WEINBERGER, CHAIRMAN, FORBES, INC., 
                         WASHINGTON, DC

    Mr. Weinberger. Thank you very much, Mr. Chairman. I am 
honored, of course, to be called to testify before this 
committee on these very important questions and particularly 
this important legislation that you are considering. I thought 
I would just make a few brief remarks, rather than a long 
formal statement, and would be glad to try to respond to 
questions that you might ask.
    The Taiwan Security Enhancement Act does seem to me to be 
one that is vitally needed now. And I am going to look back to 
the August 17, 1982 communique, and then look forward to the 
act that you are considering.
    A great many people have taken the basic position, or seem 
to take the position, that Mr. Allen pointed out recently, that 
the communiques changed everything and constituted a binding 
promise on us not to carry out the terms of the Taiwan 
Relations Act to maintain Taiwan's defensive position, but to 
reduce the amount of support we were going to supply to Taiwan 
down till it got to zero.
    I think it should be clear, and one of the best things 
about the Senate bill you are considering, is that it makes it 
very clear that the communique did not override the statute, 
which should have been obvious to everyone, and that a 
communique cannot do anything other than do what it purports to 
do. Which is a summary of talks that can never supersede or 
change the meaning of the Taiwan Relations Act or our basic 
policy.
    The communique is basically somewhat ambiguous, but it 
certainly does require us to keep on helping Taiwan maintain 
some kind of defensive capabilities, although it does have the 
basic thrust of going down to the zero point on supplying 
those. As I think most people here particularly know, 
communiques are nearly always written before the meetings. 
Sometimes the meeting is basically simply so that the 
communique can be issued. And they do not purport to do 
anything other than summarize what people drafting the 
communique from both sides rather hope will come out of the 
meeting.
    To the best of my knowledge, there was no Defense 
Department participation in the preparation of that communique. 
And it seemed to be, to my knowledge--or at least it was 
promoted at the time--as being based on the assumption that the 
PRC itself would also greatly reduce its armaments and reduce 
its forces. And it of course has done neither, quite to the 
contrary. So I do not think that we should be hampered by, or 
felt that we are in any way bound by, what is said by the 
communique, nor should we accept the argument that the 
communique sets the policy of the United States.
    I think we also have to consider China's changed attitudes. 
When I was Secretary of Defense, I made two or three trips 
there at their request, and they came over here, and we had a 
very well-established, healthy, military-to-military 
relationship. It was because at that time what they most wanted 
was a defensive capability against the long, 1,800-mile border 
they had with the then-Soviet Union. And we worked with them to 
help them improve, in ways that they wanted, their defensive 
capabilities. And it was basically consistent with our policies 
at the time.
    What has changed now in the last 2 or 3 years--or more than 
that, I guess about the last 4 or 5 years--is their apparent 
desires and goals with respect to their defense. They no longer 
seem to be nearly as interested in getting a defensive 
capability since the collapse of the Soviet Union as they are 
to get an offensive capability, getting the kinds of weapons 
that would be primarily of use in offensive operations.
    They have been very aggressive in their foreign policy, 
particularly with respect to the Spratly Islands, and dropping 
their missiles in Taiwan's waters and various quite incendiary 
statements by their high officials. And they have been 
certainly acquiring nuclear and neutron bomb capabilities, some 
of which they had, and some of which they are acquiring with 
American technologies, acquired as detailed in the Cox report.
    They have also expressed vigorous anger at the renewal of 
the Japanese-U.S. security pact, which is a defensive pact. And 
it always leaves me a little suspicious when anybody is very 
angry about the renewal of a defensive pact, because it makes 
me suspect that they might possibly have offensive intentions 
in mind which the defensive pact would weaken.
    They have also expressed their fury at our working with 
Japan and Taiwan on missile defenses, despite the fact that 
they have a very large number of rockets aimed at Taiwan. And 
there has been a very heavy increase in both their arms and 
submarines facing Taiwan, as was pointed out in, I think, an 
extremely perceptive editorial in the Washington Post that was 
put into the record earlier today.
    So all of that I think emphasizes very strongly the need 
for the clarity and strength that is set out in the Helms bill. 
The Helms bill calls for lifting restrictions on arms sales. 
And I heard it criticized on that ground just a moment ago by 
the State Department representative. It calls for ending the 
ban on high-level military exchanges. And that would certainly 
be welcomed, because there is now an artificiality to that, 
that even goes to the extent of requiring any of the Taiwan 
military officials to meet with United States military 
officials in some kind of unofficial building instead of the 
Pentagon.
    And also the bill provides for providing Taiwan with key 
weapon systems, including theater missile defense. And I would 
hope that the early warning radar would be included in that. 
All of this would make it much harder for the Chinese military 
to use, or even to threaten, force against Taiwan.
    President Lee's statements have been cited on all sides of 
all kinds of arguments recently, but what they do is simply 
recognize the facts as they are--the fact that there are two 
separate states now, with a state-to-state relationship, and 
that the unification which was before emphasized, they repeated 
again in the statement of Mr. Koo, the head of their Trans-
Strait Negotiating Committee, that the unification might come 
when China itself, the mainland, changes, but that that has not 
been the case and it is not now the case.
    The forces that the PRC has created in China only 
emphasize, I think, China's aggressive intentions to win back 
Taiwan, and therefore Taiwan's need for support and 
clarification and help. And that is what I think the bill that 
is before you does and why I think that bill should be enacted 
in the form in which it is now.
    Thank you very much, sir.
    The Chairman. Mr. Secretary, thank you very much.
    Dr. Lampton.

    STATEMENT OF DAVID M. LAMPTON, PH.D., DIRECTOR, CHINESE 
 STUDIES, JOHNS HOPKINS-SAIS AND THE NIXON CENTER, WASHINGTON, 
                               DC

    Dr. Lampton. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to be with you and 
share my views. And I would ask that the full written testimony 
be included in the record.
    The Chairman. It will.
    Dr. Lampton. Thank you.
    The chairman of this committee played a major role in 
developing the Taiwan Relations Act 20 years ago. And as 
everybody here has said, this has been a very successful piece 
of legislation. I think it has served our country well, and the 
people of Taiwan well. Therefore, it is with considerable 
forethought that I say that the proposed legislation will undo 
the good work of the Taiwan Relations Act.
    My areas of concern with respect to S. 693 fall into six 
areas. And I would like to associate myself with the remarks at 
the start of this hearing by Senator Biden and Senator Baucus.
    My first concern is that the TRA, in conjunction with the 
three communiques and other statements and correspondence, has 
provided a very successful framework for managing a complicated 
and sensitive three-way relationship. The proposed legislation 
is therefore unnecessary. The 20 years since adoption of the 
TRA have witnessed enormous progress on Taiwan, and I will not 
bore you with it all.
    With respect to cross-Strait security, however, while there 
are worries--and these are legitimate worries, including 
China's naval and air force and missile modernization--there is 
also progress in cross-Strait security to report. Put bluntly, 
if security were perceived to be so tenuous on Taiwan, and 
cross-Strait ties so perilous, why is it that 40,000 Taiwan 
firms have contracted $40 billion of investment on the 
mainland? Why is it that one-third of Taiwan's total 
information industry output is produced in plants located on 
the mainland?
    The proposed legislation also is unnecessary because 
considerable authority proposed in S. 693 already exist in the 
TRA, particularly with respect to defensive weapon sales. 
Further, the premise that weapon sales have been inadequate is 
undermined by the figures on past and current arms sales and 
delivery to Taiwan, which I provide in my written testimony. 
These sales and deliveries have included F-16's, the Patriot 
missile, Perry- and Knox-class frigates, and, most recently, 
early warning radars and aircraft parts.
    Indeed, many of the analysts in our U.S. Defense Department 
and elsewhere in the security community in Washington argue 
that Taiwan's biggest problem is absorbing and maintaining 
weapons and training an adequate number of personnel to use the 
equipment already provided. Figures provided in my written 
testimony show that 1997 FMS, foreign military sales, 
deliveries were eight and a half times bigger than the 1981 
level in constant 1982 dollars.
    Second, as I mentioned to President Lee Teng-hui when I had 
the opportunity to meet with him on June 24 of this year, in 
order to achieve comprehensive security, we need to focus not 
simply on military prowess and hardware, as important as those 
are, but also on the incentives for Beijing to avoid employing 
coercion. Conceding that there is an important role for 
deterrence, we need to ask why Beijing has not, for the most 
part, exerted force against Taiwan during the last three 
decades? An important part of the answer lies in U.S. military 
power and credibility, as well as the limitations on Beijing's 
own power.
    But this is only part of the answer. The more comprehensive 
explanation is that there has been a balanced framework of 
three considerations in Beijing's calculus. First, the United 
States must be credible and constant. Beijing launched missiles 
in 1995 and 1996, in part, because Washington was not credible, 
either in terms of observing past agreements and understandings 
with the PRC or in terms of meeting military threats against 
Taiwan.
    Second, Beijing must believe that time is not working 
against eventual reunification. And, third, Beijing must have a 
stake in a positive framework of cooperation with America that 
makes coercion very expensive to its interests.
    Frankly, the proposed legislation, in my view, upsets this 
delicate balance among these three considerations, by giving 
the PRC less of a stake in good relations with the United 
States and by signalling to many in China that time is eroding 
any possibility of reunification. Most fundamentally, I believe 
Beijing will initiate conflict, even knowing it will lose, 
rather than acquiesce to an independent Taiwan.
    Third, the proposed legislation would amount to a 
substantial restoration of the 1954 Mutual Defense Treaty with 
Taiwan, and therefore be inconsistent with the cornerstone of 
the normalization agreements of December 1978. Further, at the 
same time that America must seek to deter the use of force by 
the PRC--and I do think we are all very concerned to do that--
the United States also must discourage Taipei from so taking 
U.S. military support for granted that various political forces 
on the island feel they can change the status quo with 
impunity, and drag the United States into conflict.
    The fourth concern, relates to the bill's provisions with 
respect to theater missile defense. To be talking about, quote, 
``authorizing,'' end quote, the provision of Upper-Tier, 
presumably, high-altitude systems, that have not yet gone 
beyond testing or the drawing board is both premature and it is 
unwise.
    It is premature because usually before encouraging weapon 
sales, we want to fully understand what we are proposing to 
transfer, both in terms of the level of technology and the 
obligations it might impose on the United States. The bill's 
provisions are unwise because, if enacted, those provisions 
would accelerate the already worrisome growth of short-range 
and other missiles in the PRC, and provide an incentive for a 
regional arms race.
    Fifth, the timing of this bill is particularly unfortunate 
given the convergence of the following developments: the uproar 
over President Lee Teng-hui's July 9 remarks, the already 
deteriorated state of U.S.-China relations in the wake of the 
mistaken bombing of the Belgrade Embassy, and the very 
unfortunate and I think reprehensible anti-American violence in 
the aftermath of that tragedy.
    Sixth, therefore, at this moment in U.S.-China-Taiwan 
relations, Washington ought to be pursuing available 
opportunities to enhance the security and welfare of all the 
people involved. Here I have in mind Beijing and Taipei's 
accession to the World Trade Organization. Once both the 
mainland and Taiwan are in the WTO, each will have obligations 
to conduct its economic relations with the other according to 
international norms and in more efficient ways than now 
possible.
    So my principal recommendation is just very simple. Let us 
concentrate our efforts in directions for the moment that 
foster positive interaction. There is plenty of time to 
consider other alternatives should they prove advisable.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lampton follows:]

                 Prepared Statement of David M. Lampton

 enhancing global, regional, and taiwan security for the twenty-first 
                                century
    Mr. Chairman and Committee Members, I appreciate the opportunity to 
testify before you and provide my views on ``S. 693, The Taiwan 
Security Enhancement Act.'' The Chairman of this Committee played a 
major role in developing the Taiwan Relations Act (TRA) twenty years 
ago. That legislation, as I testified before this Committee on March 
25th of this year, has contributed to stability in East Asia and 
fostered an environment that has allowed the people of Taiwan to make 
the stunning social, economic, and political progress over the last two 
decades that we all admire.
    Therefore, it is with considerable forethought that I say that the 
proposed legislation will undo the good work of the TRA. Were the 
proposed legislation to become law it would make unachievable the 
principal objective of the TRA, which was ``to help maintain peace, 
security, and stability in the Western Pacific.'' \1\ Were this bill to 
become law it would not enhance the security of Taiwan's people about 
which all Americans are concerned, it would not promote regional 
stability, none of our allies in the region would be reassured by its 
passage, and its passage would increase the chances that American 
fighting men and women will become embroiled in hostilities.
---------------------------------------------------------------------------
    \1\ ``Taiwan Relations Act,'' (April 10, 1979), in Richard Solomon, 
ed., The China Factor (Englewood Cliffs, NJ: Prentice-Hall, Inc., 
1981), p. 304.
---------------------------------------------------------------------------
    The Taiwan Strait, is one of three or four flashpoints in the world 
today that could rapidly explode to drag America into direct conflict 
involving significant powers--the Balkans, the Middle East, and the 
Korean Peninsula are surely three others. This suggests that America 
must manage its involvement in cross-Strait relations with the utmost 
care. And further, because the People's Republic of China (PRC) is an 
important player in all four potential flash points mentioned above, a 
productive relationship with Beijing is not a luxury, it is essential. 
We could simply forget Chinese cooperation either bilaterally or 
multilaterally in these hotspots if the proposed legislation is 
adopted.
    Mr. Chairman, my areas of concern with respect to the proposed 
legislation fall into six categories:
1. The TRA (in conjunction with the Three Communiques and other 
        statements and correspondence) has provided a very successful 
        framework for managing a complicated and sensitive three-way 
        relationship. The proposed legislation is therefore unnecessary
    The twenty years since adoption of the TRA have witnessed enormous 
progress on Taiwan as measured not only by per capita GNP growth (1978 
US$1,450 to 1997 US$13,467), but also in terms of political and 
personal freedom. This expansion of freedom is evidenced in the 1987 
abolition of martial law, the development of a competitive party system 
in the late-1980s and throughout the 1990s, the first direct, popular 
election of the president in 1996, and a second, even more competitive 
presidential election scheduled for March of next year.
    With respect to cross-Strait relations and security, the changes 
have been staggering over the last fifteen years as well. While there 
are worries (such as Beijing's emphasis on naval, air force, and 
missile modernization discussed below), there also is progress to 
report. Put bluntly, if security were perceived to be so tenuous on the 
island, and cross-Strait ties so perilous, 40,000 Taiwan firms would 
not have contracted to invest around US$40 billion on the mainland and 
Taiwan would not be sourcing a large chunk of its computer components 
in the PRC. Indeed, ``one-third of the Taiwan information industry's 
total output is produced in plants located in mainland China.'' \2\ And 
finally, in 1997, if one includes the approximately US$16 billion worth 
of goods exported [from Taiwan] to Hong Kong, China was Taiwan's 
largest market and Taiwan was China's first-ranking supplier.\3\
---------------------------------------------------------------------------
    \2\ Ralph N. Clough, Cooperation or Conflict in the Taiwan Strait? 
(Lanham: Rowman & Littlefield Publishers, Inc., 1999); pp-54-55.
    \3\ Mainland Affairs Council, Taiwan, Liang-An Economic Statistical 
Monthly, No. 74, October 1998.
---------------------------------------------------------------------------
    The proposed legislation not only is unnecessary because there is 
little evidence that Taiwan's security concerns have inhibited social, 
political, or economic progress, the legislation also is unnecessary 
because considerable legislative authority proposed in ``S. 693'' 
already exists in the TRA. With respect to the more specific provisions 
of ``S. 693,'' for example, many of the measures outlined in Sec. 5-f-
1-4 and 5-g-1-4, and elsewhere in the bill, merely ``authorize'' the 
president to approve sales for which the TRA already provides 
authority. Under the TRA, the U.S. Government has a mandate to provide 
Taiwan with ``arms of a defensive character'' (TRA, 2-b-5).
    Further, the TRA's stricture that weapons be of ``a defensive 
character'' is important. While some weapons systems mentioned in the 
proposed legislation would seem to fall pretty clearly into the 
``defensive'' category, there can be considerable debate about other 
proposed systems, such as submarines. In short, the proposed 
legislation ``authorizes'' much that already is permitted and, in some 
cases, suggests departures that do not adhere to the prudent intent of 
the TRA.
    Redundancy aside, there is an inaccurate premise underlying the 
Taiwan Security Enhancement Act which is stated in ``Finding (20)--The 
current defense relationship between the United States and Taiwan is 
deficient in terms of its capacity over the long term to counter and 
deter potential aggression against Taiwan by the People's Republic of 
China.'' This premise is undermined not only by U.S. behavior during 
the last twenty years, particularly in March 1996, and by Taiwan's 
progress over the two decades since the adoption of the TRA, it also is 
undermined by the figures on past and current arms sales and deliveries 
to Taiwan. These sales and/or deliveries have included F-16s, the 
Patriot missile, Perry- and Knox-class frigates, and most recently 
early-warning radars. Indeed, many analysts in our U.S. defense 
agencies argue that Taiwan's problem is absorbing weapons and training 
an adequate number of personnel to use the equipment already provided. 
Further, the idea that the August 1982 United States-China Joint 
Communique on U.S. Arms Sales to Taiwan has hamstrung transfers to the 
island is belied by the figures provided in Appendix A. If one looks at 
the constant dollar figures in the right-hand column, annual foreign 
military sales (FMS) deliveries have been much bigger in the 1990s than 
they were in the 1980s, much less the 1970s; this is true even if one 
does not attach undue importance to the 1997 deliveries that were about 
8.5 times the 1981 level because of the delivery of big ticket items, 
including the first F-16s. In fact, the PRC complains bitterly that 
U.S. sales have violated the 1982 solemn commitment of the United 
States.
    Further, in formulating its policies, the United States should 
attach great importance to the PRC's actual, demonstrated military 
capabilities, rather than simply extrapolating China's present research 
efforts (and mainland think tank ruminations about desirable future 
systems) into future capabilities. Judging by China's past history, 
Beijing has not found it easy to move systems from design, to 
production, to deployment, to the capacity to make complex systems 
operational, much less to employ complex systems in a combined forces 
mode.\4\ To take just a most recent example, with respect to the SU-27 
fighter aircraft purchased from Russia, the PRC has found it very 
difficult to establish domestic production, with Jane's Information 
Group reporting that, ``The first two locally assembled aircraft had to 
be hastily reassembled after their inaugural flights because of sub-
standard work . . .'' \5\ Further, the Chinese have to send the SU-27 
power plant back to Russia for repair. In short, we all should react 
more to what China does than to what some in its military say they want 
to do.
---------------------------------------------------------------------------
    \4\ Kenneth W. Allen, Glenn Krumel, and Jonathan D. Pollack, 
China's Air Force Enters the 21st Century (Santa Monica: RAND, 1995), 
pp. xiii-xxi.
    \5\ Jane's Information Group, Ltd., ``China-assembled Su-27s make 
their first flights,'' Asia-Pacific, Vol. 31, No. 8 (February 24, 
1999).
---------------------------------------------------------------------------
2. As an American group of which I was part mentioned to President Lee 
        Teng-hui when we met with him on June 24, 1999, in order to 
        achieve comprehensive security, we all need ``to focus not 
        simply on military prowess and hardware, but also on the 
        incentives for Beijing to avoid employing coercion.'' \6\ 
        Further, security is not simply a military concept, in this 
        globalized world it increasingly is an economic concept as well
---------------------------------------------------------------------------
    \6\ American Assembly, ``Taiwan and America: How to Contribute to 
Peace and Prosperity in Asia and the World,'' forthcoming American 
Assembly, summer 1999, p. 7 (draft).
---------------------------------------------------------------------------
    Hard facts are stubborn things and one immutable fact is that the 
22 million people of Taiwan are about 100 miles from 1.3 billion people 
whose economy has grown over the last decade by around ten percent 
annually. We do not want to put the people of Taiwan in the same 
position that Cuba found itself, namely very close to a continental 
power with which it has conflictual relations while its (former) 
security patron was thousands of miles away and subject to distraction 
and shifting priorities.
    Further, the people of Taiwan, not the least President Lee Teng-
hui, have defined the PRC as Taiwan's ``economic hinterland'' and 
economic growth as a decisive factor in their future security. 
Consequently, adopting a posture that makes cooperative cross-Strait 
economic and other relations impossible works against any reasonable 
notion of Taiwan's economic future, against any concept of 
comprehensive security, and is premised on the eternal and growing 
commitment of a distant power to the needs of a small society very near 
to the world's biggest state. As a joint working group of Taiwan and 
American citizens (``The Taiwan Assembly'' convened by the American 
Assembly and the Institute of International Relations in Taipei) just 
agreed in June in Taiwan, ``Without direct linkages to the PRC market, 
international business interest will remain limited and the Asia-
Pacific Regional Operations Center [which Taiwan would like to become] 
is unlikely to succeed.'' \7\
---------------------------------------------------------------------------
    \7\ American Assembly, ``Taiwan and America: How to Contribute to 
Peace and Prosperity in Asia and the World,'' forthcoming American 
Assembly, summer 1999, p. 15 (draft).
---------------------------------------------------------------------------
    Even if we limit our discussion to narrower and more conventional 
notions of security, and concede that there is an important role for 
``deterrence,'' we need to ask why Beijing has not, for the most part, 
exerted force against Taiwan during the last three decades. An 
important part of the answer lies in U.S. military power and the 
credibility of American implied and explicit commitments, as well as 
limitations on the PRC's own force projection abilities. But, this is 
only part of the answer. The more comprehensive explanation is that 
there has been a balanced framework of three considerations in 
Beijing's calculus. Only when all three considerations are in alignment 
will Beijing be most likely to refrain from coercion. Beijing, I 
believe, currently is willing to lose a conflict with the United States 
rather than idly sit by and watch its long-term aspirations regarding 
Taiwan be ignored or jettisoned:

  <bullet> First, the United States must be credible and constant. 
        Beijing launched missiles in 1995-96, in part, because 
        Washington wasn't credible either in terms of observing past 
        agreements and understandings with the PRC or in terms of 
        meeting military threats against Taiwan;
  <bullet> Second, Beijing must believe that time is not working 
        against eventual ``reunification.'' Concisely, there has to be 
        hope; and,
  <bullet> Third, Beijing must have a genuine stake in a positive 
        framework of cooperation with America and the West that makes 
        the use of coercion very expensive to its other interests.

Frankly, the proposed legislation upsets the delicate balance among 
these three considerations by giving the PRC less of a stake in good 
relations with the United States and by signaling to many in China that 
time is eroding any possibility of reunification.
    What is notable from the last two decades' experience is that 
Taiwan's security is most compromised when Washington and Beijing are 
unable to manage their own bilateral ties effectively. It is no 
accident that the 1982 Arms Sales Communique was signed at a point of 
stress in U.S.-China ties; that missiles were fired at another point of 
stress in the mid-1990s; and that the ``Three No's'' (to which I know 
the Chairman of this Committee is opposed) was promulgated publicly in 
the aftermath of the mid-1990s problems. In short, an unproductive and 
conflict-laden U.S.-China relationship is bad for Taiwan's security 
because it produces efforts to improve ties that do not always reassure 
residents of Taiwan. If I could convince my friends in Taiwan ofjust 
one thing, it would be that they do not have an interest in hostile 
U.S.-China ties.
    Further, the passage of ``S. 693'' would reinforce the erroneous 
but widely held belief in the PRC that the United States is 
affirmatively dedicated, per se, to Taiwan's permanent separation from 
the rest of China. We all should remember that the ``One China, 
Peacefully Achieved, Policy'' has not simply been the policy of six 
successive U.S. administrations, it was fundamental to the Cairo 
Declaration of 1943 and has been United States policy since at least 
that time. If Washington is perceived to be moving away from the ``One 
China, Peacefully Achieved, Policy,'' Beijing will be even less willing 
to renounce its threat to use force against Taiwan. In the end, 
Taiwan's comprehensive security can only be negotiated across the 
Strait, not assured by Washington. And, as the Hippocratic Oath 
suggests, ``First do no harm.''
3. The proposed legislation would amount to a substantial restoration 
        of the 1954 Mutual Defense Treaty and thereby be inconsistent 
        with a cornerstone of the normalization agreements of December 
        1978, namely the text of the ``Unilateral Statement by the 
        United States Government,'' in which the United States 
        terminated its Mutual Defense Treaty with Taipei in accord with 
        the Treaty's provisions
    What is referred to as ``The Plan'' in ``S. 693'' (5-b-1-3 and 5-c) 
and other portions of the bill, if adopted as law, would constitute a 
substantial functional reconstitution of the Defense Treaty with Taiwan 
and would remove a cornerstone from the edifice of normalization 
between the United States and the PRC. In particular, I have in mind 
such proposed activities as enhancement of programs and arrangements 
for operational training and exchanges of military personnel in areas 
such as doctrine, force planning, and operational methods ``between the 
armed forces of the United States and Taiwan.'' Also, the proposed 
``secure direct communications between the United States Pacific 
Command and the Taiwan Military Command'' move in the same direction.
    Beyond the risks that these provisions present to the architecture 
of normalization with the PRC, I have other reservations about moving 
in this direction. I noted with interest one of this bill's co-sponsors 
(Senator Torricelli) characterization (as reported by Taiwan's news 
service, CNA) of the July 9, 1999 interview by Taiwan President Lee 
Teng-hui \8\ as ``not helpful'' and the Senator's well-grounded worry 
that Taiwan is ``running the risk of isolating itself.'' \9\ More to 
the point in the context of the present discussion, however, is the 
fact that at the same time that America must seek to deter the use of 
force by the PRC against the people of Taiwan, Washington also must 
discourage Taiwan from so taking U.S. military support for granted that 
various political forces on the island feel they can seek to change the 
status quo with impunity and drag the United States into a conflict 
that is neither in our interests, in Taiwan's own interests, in the 
interests of regional peace and stability, nor is it necessary. To put 
it most starkly, in seeking to achieve only the most modest of 
improvements in a very good status quo, some in Taiwan are not only 
putting that status quo at risk, they also may be jeopardizing the 
regional stability that has served everyone in the Pacific Basin so 
well for the last quarter century. In my view, the increment of gain 
being sought by some in Taiwan is not worth the risk Americans are 
being asked to shoulder.
---------------------------------------------------------------------------
    \8\ Lee Teng-hui, ``Response to Questions Submitted by Deutsche 
Welle,'' July 9, 1999 (Document provided by TECRO).
    \9\ Central News Agency, Taipei, ``US Senator Says Taiwan Risking 
Isolation in Redefinition of Taipei-Beijing Ties,'' in BBC Summary of 
World Broadcasts, July 17, 1999, FE/D3589/F.
---------------------------------------------------------------------------
    To paraphrase a former U.S. Government official, it is unwise to 
write any external society a blank check to be filled out in American 
blood. Americans realize that they have obligations when unprovoked 
threats are made against the people of Taiwan, as evidenced in the 
March 1996 dispatch of two U.S. carrier battle groups to the waters off 
Taiwan. However, it is unnecessary and doubly provocative to provide 
guarantees beyond this. And finally, the degree to which Taiwan did not 
feel it necessary to consult with the United States before its latest 
moves indicates a troubling insensitivity to American concerns and 
interests.
4. Another area of concern relates to the bill's provisions with 
        respect to Theater Missile Defenses (TMD)--5-d-1-2. To be 
        talking about ``authorizing'' the provision of (presumably high 
        altitude) systems that have not yet gone beyond testing or the 
        drawing board is both premature and unwise
    It is premature because usually before encouraging the sale of 
weapons we want to fully understand what we are proposing to transfer, 
both in terms of its level of technology and the obligations it may 
impose on the United States. The bill's provisions are unwise because 
if enacted those provisions would accelerate the already worrisome 
growth of short-range missiles in the PRC. The People's Liberation Army 
(PLA) knows, or at least believes, that it can overcome any likely 
missile defense. In a perverse way, if adopted this bill would provide 
the PLA the domestic rationale it needs to further accelerate its 
buildup and modernization--namely that it needs more missiles now to 
overcome an imminent defense. In fact, such a defense is years away, if 
it comes to pass at all.
    There is a further consideration. If such high altitude missile 
defense systems are developed, they almost certainly will be very 
expensive. Just how big of a defense (tax) burden do we think a 
comparatively small society of 22 million people can sustain and remain 
economically productive and viable in a very economically competitive 
region? I am told that there are more cost-effective ways to protect 
the island from the effects of missile attack with measures such as 
hardening targets and putting doors on airplane hangars.
    Further, we don't know if sea-based systems with regional 
responsibility that remain under American control and ownership will 
prove to be a preferable option to possible direct sale and transfer. 
Now is no time to even express a preference in this regard, given that 
we don't yet know if we will have ground or sea-based systems.
    And finally, to the degree that the provisions of this bill would 
accelerate a cross-Strait arms buildup, it likely would increase the 
incentives for others in the region, Japan and Korea in particular, to 
augment their military forces. In short, at this time America should be 
looking for ways to constrain an arms race, not providing additional 
rhetorical fuel for one.
5. The timing of this bill is particularly unfortunate, given the 
        convergence of the following developments: the uproar over 
        President Lee Teng-hui's July 9, 1999 remarks; the already 
        deteriorated state of U.S.-China relations in the wake of the 
        May 8 Belgrade bombing error; and the anti-American violence in 
        the aftermath of that tragedy
    The proposed legislation will do nothing to restore confidence 
between Beijing and Washington (indeed it would produce a dramatic 
deterioration) and, as I said above, the less confidence Beijing has in 
its relationship with Washington, the more hostile it becomes to 
Taiwan. It is hard to imagine a less auspicious moment for the 
principal proposals embodied in this bill.
6. At this moment in U.S.-China-Taipei relations, Washington ought to 
        be pursuing available opportunities that truly will enhance the 
        security and welfare of all our people--here I have in mind 
        Beijing and Taipei's accession to the World Trade Organization
    With the prospect that cross-Strait dialogue will suffer an 
unfortunate setback because of Beijing's apparent unwillingness to 
continue the dialogue in light of recent events, it is important that 
as many avenues for positive cross-Strait interaction be nurtured as 
possible. It also is important that we not only integrate Beijing into 
the global free-trade regime under commercially sound conditions, but 
that we also find ways to constructively involve the people of Taiwan 
in the institutions of the world order as well. To be frank, Taiwan 
will in all probability be unable to enter the WTO unless Beijing does. 
But, once negotiations with Beijing reach a satisfactory conclusion, 
both can participate in the world trade body.
    Once both the mainland and Taiwan are in the WTO, each will have 
obligations to conduct its economic relations with the other according 
to international norms and in more efficient ways than now are 
possible. In an ironic way, as the prior cross-Strait dialogue channels 
seem to be breaking down, membership for both in an international body 
that encourages positive interaction would provide some important 
compensation.
    My principal recommendation is, therefore, very simple. Let's 
concentrate our efforts in directions that foster positive interaction. 
There is plenty of time to consider other alternatives should they 
prove advisable. The major provisions of this bill will neither enhance 
Taiwan's security or regional stability nor are they consistent with my 
understanding of American interests.

                               Appendix A


                                                                                              U.S. Military Sales to Taiwan (FY 1972-1997)
                                                                                               (All figures in thousands of U.S. dollars)
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            FMS Agreements                                                                                                 FMS Deliveries
  Fiscal   -----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
   Year                                     (current $)                                        (constant 1982$)                                            (current $)                                        (constant 1982$)

----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
1972                                         72,261                                                 166,730                                                 35,347                                                 81,557
1973                                        204,241                                                 443,741                                                 66,264                                                143,967
1974                                         72,826                                                 142,544                                                 92,763                                                181,568
1975                                        127,249                                                 228,293                                                113,017                                                202,760
1976                                        327,353                                                 555,097                                                134,269                                                227,682
1977                                        143,656                                                 228,732                                                139,397                                                221,951
1978                                        336,107                                                 497,357                                                134,178                                                198,551
1979                                        520,632                                                 692,192                                                180,752                                                240,314
1980                                        455,449                                                 533,507                                                209,059                                                244,889
1981                                        309,456                                                 328,642                                                373,427                                                396,579
1982                                        524,555                                                 524,555                                                386,487                                                386,487
1983                                        698,220                                                 676,570                                                388,335                                                376,294
1984                                        703,893                                                 653,947                                                298,327                                                277,159
1985                                        688,790                                                 617,679                                                337,531                                                302,684
1986                                        506,229                                                 445,501                                                243,515                                                214,303
1987                                        505,322                                                 429,250                                                357,276                                                303,491
1988                                        498,513                                                 406,788                                                503,106                                                410,536
1989                                        521,702                                                 406,212                                                393,499                                                306,390
1990                                        500,286                                                 369,580                                                454,777                                                335,960
1991                                        479,996                                                 340,298                                                549,381                                                389,489
1992                                        477,904                                                 328,947                                                711,405                                                489,668
1993                                      6,274,904                                               4,193,287                                                817,571                                                546,353
1994                                        360,891                                                 235,059                                                845,116                                                550,448
1995                                        208,003                                                 131,788                                              1,352,657                                                857,027
1996                                        459,865                                                 282,879                                                852,576                                                524,449
1997                                        353,737                                                 212,704                                              5,696,155                                              3,425,121
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Sources: Security Assistance Agency, ``Foreign Military Sales, Foreign Military Construction, and Military Assistance Facts'' (Washington: Department of Defense). This report is published annually and figures for previous years are
  frequently updated. The latest figure available for any given year is used here. 1972-1980 figures, which come from the same original source, were obtained from Harry Harding, ``A Fragile Relationship,'' (Washington: The Brookings
  Institution, 1992), p. 370.
Note: Current dollar figures converted to constant 1982 dollars based on U.S. Consumer Price Index.


    The Chairman. Thank you, sir.
    [The following statement was submitted by Senator Helms in 
response to Dr. Lampton's prepared statement.]

              Additional Statement of Senator Jesse Helms

    Dr. Lampton's use of statistics on defense sales to Taiwan is 
highly misleading. In his testimony, Dr. Lampton notes that inflation-
adjusted defense sale deliveries to Taiwan are much higher in the 
1990's than they were in the 1980's. What he failed to state, and what 
the statistics he himself provided to the committee display, is that 
inflation-adjusted defense sale agreements with Taiwan have been 
trending downward since fiscal 1983, the first full year after the 
signing of the 1982 Communique.
    The cuts in agreed defense sales have been particularly sharp 
during the Clinton administration. In the first four fiscal years of 
the Clinton administration (1994-1997), defense sale agreements with 
Taiwan averaged just $215 million (in 1982 constant dollars). This 
contrasts to the $350 million average level of the early 1990's and the 
$500-$600 million level of the early 1980's.
    This cut of more than 60 percent since the early 1980's will soon 
manifest itself in sharply lower defense deliveries to Taiwan. The 
multi-year lag time between defense agreements and deliveries (which 
alone accounts for the higher deliveries in the 1990's) is about to 
catch up with Taiwan, at precisely the time Red China's military 
buildup kicks into high gear. This trend, if not reversed quickly, will 
have profoundly negative consequences for Taiwan's, and America's, 
national security.

    The Chairman. Mr. Woolsey.

 STATEMENT OF R. JAMES WOOLSEY, SHEA & GARDNER, WASHINGTON, DC

    Mr. Woolsey. Thank you, Mr. Chairman. I am honored to be 
part of this distinguished panel. And I appreciate the 
chairman's and staff's indulgence, in view of the fact that I 
have just returned to town, in letting me testify 
extemporaneously from notes. I will be about the same length as 
the previous speakers, if that is all right.
    I support the Taiwan Security Enhancement Act, Mr. 
Chairman. I believe that under current circumstances, this 
package is a reasonable one: the increase in staff at the 
American Institute in Taiwan, the required Presidential report 
on Taiwan, defense requests, the reassertion of the primacy of 
the Taiwan Relations Act over the 1982 communique about arms 
sales, the enhancement of operational training and exercises, 
the establishment of secure communications channels between the 
U.S. and Taiwan military commands, and the authorization--not 
the mandating--of certain arms sales.
    It gives me some pause, I must admit, that this list is 
somewhat detailed. I served as general counsel to the Senate 
Armed Services Committee, under Senator Stennis, and have 
served three times as a Presidential appointee, in the Defense 
Department, the State Department and the intelligence 
community, in both Republican and Democratic administrations. 
And, frankly, I can teach this issue of executive versus 
congressional prerogatives in the foreign policy arena either 
round or flat.
    But I am generally of the view that detailed implementation 
is best left to the executive. There may be one or two aspects 
of this bill that it would be wise to compromise on, as the 
committee deliberates and the process moves forward.
    But I am also quite aware that Lord Bryce said that in this 
arena of foreign policy, the United States Constitution is 
essentially an invitation to struggle. And in my judgment, 
where, as here, the executive branch's policy is both wrong-
headed and dangerous, Congress has a duty to the country to try 
to correct it. And I believe that is what you are trying to do 
with this bill.
    The current situation is, I believe, dangerous. There has 
been much commentary about the Washington Post editorial this 
morning. I, too, would endorse it. The PRC has been sending 
modern fighter aircraft into the Strait. It recently seized a 
Taiwanese ship. It fired its new ballistic missile, the DF-31, 
on which, as someone put it, U.S. taxpayers should perhaps be 
receiving licensing fees.
    This has followed the stage-managed damage by bussed-in 
crowds to attack the United States Embassy in Beijing, a 
massive crackdown on the threat posed, as Beijing sees it, by 
middle-aged people who like to do breathing exercises, and the 
brutal sentencing of those who seek to organize true democracy 
for China.
    I would suggest that although the triggering incidents 
leading to this series of events seem diverse--our tragic 
mistake in bombing the Chinese Embassy in Belgrade, President 
Lee Teng-hui's comment about state-to-state relations being the 
proper basis for PRC-Taiwan negotiations, and the silent 
demonstration in Beijing by the Falun Gong sect--the underlying 
sources of the PRC's behavior are, I believe, essentially two. 
One, fear of potential political unrest stemming from economic 
change in China; and, two, U.S. policy itself.
    First, the disestablishment of the large state-owned 
enterprises in China over the long run will bring some economic 
freedoms, I believe, that will quite possibly help change China 
and Chinese society and make it more conducive, over time, to 
political freedoms as well. But in the short run, the 
unemployment from the disestablishment of those enterprises can 
lead to substantial instability. And the temptation for any 
autocracy or dictatorship, in the event of fearing instability, 
is often to play the card of nationalism. Nationalism is most 
conveniently, by Beijing, directed against Taiwan.
    I believe that it would be excellent if we could see normal 
trade relations between the United States and China. I was 
sorry to see the administration delay some months ago the 
negotiations over the WTO, especially in light of Zhu Rongji's 
efforts to compromise. In light of some of the criticisms that 
I am making of the administration for being too lenient with 
the PRC, I want to say that I believe that with respect to the 
WTO negotiations, it has been too rigid. It is almost as if the 
administration were taking a leaf from the Book of Common 
Prayer: We have left undone those things we ought to have done 
and we have done those things which we ought not to have done.
    Second, although in the above instance I think the 
administration offered insufficient encouragement to Zhu Rongji 
and other reformers by its negotiating tactics, in many steps, 
particularly regarding Taiwan, the administration has 
essentially appeased the PRC. There really is no other word for 
it. And thus, in effect, I believe it has encouraged policies 
of hard-line factions in the PRC, particularly with respect to 
Taiwan.
    I think the administration has done this by reversing its 
campaign criticism of the Bush administration for being too 
accommodating to the, quote, ``butchers of Tiananmen.'' It has 
declared a strategic partnership with Beijing, a phrase that, 
given the military source and meaning of the word strategic, 
the vast majority of people would interpret as meaning a de 
facto military alliance. The President has echoed, in his 
statement in China, Beijing's formulation of the ``three 
noes,'' without clearly, at the same time, spelling out that it 
would be unacceptable for the PRC to use force in the Taiwan 
Strait.
    The administration has subordinated relations with the 
region's democracies--Japan, South Korea and Taiwan--by 
acquiescing to PRC pressure, for example, that the President 
not even visit Japan on his trip last year to the PRC. The 
President has spoken favorably of the PRC takeover of Hong Kong 
as a model for relations between the PRC and Taiwan. The 
administration has severely restricted arms sales, even I think 
of clearly defensive systems, to Taiwan. And it has, instead of 
apologizing once, clearly, for the tragic bombing of the PRC 
Embassy in Belgrade, apologized so many times at so many levels 
and so effusively that it has demeaned the currency of 
diplomatic communications on such a subject.
    I believe that the administration also, in some ways most 
tragically, has maintained a strategic ambiguity about whether 
or not the United States would protect Taiwan if it were 
attacked by the PRC. And a number of these steps--somewhat 
recent ones--have undercut the laudable, if somewhat delayed, 
dispatch of the two aircraft carriers to the waters near Taiwan 
in 1996, at the time of the last crisis.
    Mr. Chairman, I believe this is a very dangerous stance by 
the President and the administration, potentially even a tragic 
stance. When dictatorships see prey such as, for example, 
Germany viewed Czechoslovakia in 1938, they need to be deterred 
in order for peace to be protected. The sort of ambiguity the 
administration espouses was the heart of Britain's and France's 
position with respect to Germany's eastern neighbors in the 
1930's. Needless to say, that policy of ambiguity did not work 
well.
    Probably no one was more surprised than Hitler when the 
indecisive Western governments that abandoned Czechoslovakia 
stood by Poland in 1939, and World War II began. And the 
ambiguity of a number of European powers' guarantees to one 
another in 1915 famously contributed to the outbreak of World 
War I.
    Taiwan's status as prey has sharpened in the PRC's eyes 
because of the island's democratic reforms of recent years. As 
a vibrant and prosperous democracy with political and economic 
freedom, Taiwan constitutes an affront to Beijing. It is 
living, breathing proof that the self-serving nonsense put out 
by some autocratic and dictatorial leaders that Asian values 
are inconsistent with democracy is quite false. Taiwan is an 
affront to the PRC in the same way that Solidarity Poland was 
an affront to the USSR.
    I take the administration's points--in conclusion, Mr. 
Chairman--that military, U.S.-PRC relations redound to Taiwan's 
benefit. And I also acknowledge that President Lee Teng-hui's 
recent remarks, departing from the fictitious, but 
diplomatically useful one-China formulation, have given Beijing 
an excuse for saber rattling.
    It is worth noting that one of the most skillful and 
successful diplomats in history, Tallyrand, once said that 
language was given to man to conceal thought. And however 
understandable President Lee's comments were in the light of 
Taiwan's vigorous and free political debate, I would advance 
the somewhat old-fashioned notion that there are some things 
best left unsaid by those at the top of government. And I 
believe that was one of them.
    He even exceeded what most of the leaders of the opposition 
party, whose platform supports independence, have been saying 
in recent years: that since independence is a reality, one does 
not need to speak of it. But the key point, Mr. Chairman, came 
up in your questioning of Assistant Secretary Roth. The best 
way, in my view, to have sound relations with a nation like 
China, the PRC today, is not to be, as you put it, a nervous 
nelly. We need to be polite and diplomatic, I believe. We need 
to acknowledge and reward efforts to work with us, such as 
those that Zhu Rongji made on the WTO negotiations.
    But, over the long run, it is very dangerous to meet the 
aggressive moves of dictatorships against their potential prey 
with appeasement. Appeasement may buy you some time in the 
short run. Chamberlain was sure that the sellout of 
Czechoslovakia at Munich in 1938 would bring peace in our time. 
It did. But his time only lasted 1 year.
    I believe that clear, not ambiguous, American support for 
Taiwan's right to be protected from the use of force by Beijing 
is an essential part of maintaining peace in the Taiwan Strait. 
The administration has turned instead to appeasement and 
ambiguity. In the interest of peace, the executive branch needs 
to be brought up short and forced to change what is, I believe, 
its very short-sighted policy.
    This bill can help bring that about, and I would urge that 
Congress move forward with it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Four very interesting witnesses. Very colorful. We have 
another vote in about 15 minutes. I am going to ask one 
question and one question only, and I would like for any of you 
to answer it. I have had several of my friends signal me that 
they like my bill, our bill, Mr. Torricelli's and mine. But 
they say: ``Do not you think that you are provoking the ire of 
Beijing?'' And my retort was that I will be astonished if it 
did not. I did not want to send them a love letter. I want them 
to understand that at least there is one Senator who feels that 
they have gone far enough in kicking around a very fine, 
independent, free enterprise government.
    Now, I do not dispute anything about Beijing's frowning 
upon it. But my question is, how would you propose that we 
manage the predictable verbal outrage that will come from 
Beijing if and when this bill is passed and we have implemented 
its provisions?
    Mr. Allen, Mr. Weinberger? I do not know whether Dr. 
Lampton will want to part, but he may.
    Mr. Allen. Mr. Chairman, if I may respond briefly. I have 
had some experience at being shouted at by Deng Xiaoping in the 
Great Hall of the People in 1980, when George Bush and I went 
there. I would say that we have had an unending torrent of 
abuse, threats and implications imprecations from the People's 
Republic of China over many years. And we simply listen to 
that, we reject that which is absolutely outrageous, and we 
simply do not respond in kind.
    Of course there will be a torrent of abuse. There always 
is. But the torrent of abuse, in terms of the future 
mistreatment of Taiwan will be infinitely worse if we do not 
take some action to shore up the administration's dangerously 
deficient policies.
    The Chairman. Mr. Weinberger.
    Mr. Weinberger. Well, there are many ways we could respond 
to the torrent of abuse that is undoubtedly going to flow. We 
did, I think, the proper thing with that in connection with the 
Japan-U.S. security agreement, Senator. We ignored it. We paid 
no attention to the fact that they objected to our renewing 
that defense agreement. I hope we will continue that policy of 
ignoring their objections to our working with Taiwan and Japan 
on missile defense, which I think we need urgently.
    There is one third course, which I took, which may not be 
recommended. I was being given, when I was over there at their 
request, working with them to improve their defenses, I was 
given the standard Taiwan lecture, which is about 45 minutes. 
And they said I made the most effective response they had ever 
seen to it. I fell asleep.
    So that I think that you are going to have to expect this 
torrent of abuse. And I think we have to ignore it, because we 
cannot allow our policy to be dictated or formed by objections 
that will come from, I think in a totally unfounded way, from 
this kind of regime.
    The Chairman. Thank you.
    Dr. Lampton.
    Dr. Lampton. I think we not only have to be prepared to 
respond, but we have to think what response we are going to ask 
the Taiwan people to have to make. And I think, just 
objectively speaking, we are going to see capital flight. We 
are going to see less investment and economic growth in Taiwan. 
We are going to see higher taxes.
    And as much as I am worried about our response, it is, in 
the end, the people of Taiwan that are 95 miles to 100 miles 
off the shore of China. And I am more worried about their 
response and what they can do than us. We have lots of options.
    My concern about this bill is the people of Taiwan. And it 
is their response and their options that I think are going to 
be jeopardized. Thank you.
    The Chairman. Mr. Woolsey.
    Mr. Woolsey. I would smile, be friendly and businesslike, 
work as closely as they are willing to with them on WTO 
membership and trade matters, and go right about our business. 
I would not shift as a result of the invective that is sure to 
come. The invective is worse, and will be worse, because of a 
number of the indirect encouragements that they have been given 
over the course of the last several years, I think, by the 
administration's behavior. But one has to stop some time or it 
is a continued downhill slope.
    So I think we just have to sort of take it and proceed, and 
try to work with them on whatever we can work with them on.
    The Chairman. Very well. Thank you, gentlemen.
    Senator Biden.
    Senator Biden. Thank you.
    Mr. Allen and Secretary Weinberger, do you think that Mr. 
Woolsey is correct in that we should move forward with WTO with 
the Chinese, for the PRC?
    Mr. Allen. I do.
    Senator Biden. Do you, Mr. Secretary?
    Mr. Weinberger. I think that when the necessary conditions 
have been established in mainland China that we have been 
talking about, it would be acceptable to do that, yes.
    Senator Biden. But they do not exist now, do they?
    Mr. Weinberger. They do not exist now.
    Senator Biden. So right now, you would not--in other words, 
you do not think the President made a mistake in not going 
forward with the----
    Mr. Weinberger. Well, I do not want to go that far, 
Senator. I think he made a mistake in leading them right up to 
the well, and thinking he was going to let them drink from it. 
And then he backed away at the very last minute, after they had 
made some concessions, which of course now they have completely 
withdrawn. It may have been that if those concessions had been 
accepted that the conditions would have changed sufficiently so 
that we could go ahead with it. But I think the fault was 
twofold.
    It was the fact that they did not change the conditions, 
but also the fact that we gave, through President Clinton, gave 
them every reason to believe that they would have the 
opportunity to enter.
    Senator Biden. I do not know of three people who know this 
town and Congress better than the three of you. And I do not 
know where you all were when this was going on. If any of you 
think that the President of the United States could have 
successfully concluded WTO negotiations, no matter what the 
Chinese said, in the light of the, quote, ``stealing of all of 
our secrets,'' unquote, you all are, with due respect, rookies 
and not the pros I think you are.
    I remember getting a phone call from a high administration 
official, saying they think they can move this deal and close 
it; what did I think the Congress would do if they did? And I 
said I thought that Congress would crucify them, and there 
would be such a backlash that you would see relations pushed 
back.
    I do not know where you guys have been. You might have been 
out of town during that period. But anyone who wants to go on 
record as saying you think, if you were heading the 
administration, that you could have pushed through a WTO that 
could be purchased up here and bought, I would like you to go 
on record and tell me.
    Mr. Weinberger. Well, Senator, let me suggest to you that 
the Chinese offered a number of concessions only because they 
had been encouraged by Mr. Clinton to believe that they were 
going to be admitted to the WTO.
    Senator Biden. That is correct.
    Mr. Weinberger. And so, under those circumstances, you 
certainly would not want to go ahead with it if they were not 
going to keep those concessions. And no one knew whether they 
were or not. So, I was in town, if you asked where I was.
    Senator Biden. In the meantime, there was a little bit of a 
flap that occurred in town here. I do not think you guys are 
being fair about that part of it. I respect your position on 
your disagreement with this administration's relationship with 
the PRC as it relates to Taiwan. I respect that. And I think 
you make some valid points.
    The only thing you did not bring out was the umbrella. And 
you are a very colorful fellow, Mr. Woolsey. You are to foreign 
policy what Griffin Bell has become to constitutional policy. 
And that is a high compliment. But I do not disagree with--I do 
not take issue with your grave concern about where this 
administration is listing, limping, moving, however you want to 
characterize it. But I think it is a little exaggerated to 
suggest that there could have been the possibility of WTO--but, 
at any rate, I have a number of questions. I will not take the 
time now.
    Mr. Woolsey. Senator Biden, you have a point about the 
confluence of the issuance of the Cox Committee report and the 
strong public and congressional feeling about the WTO. But that 
very confluence was a result of some 4 or 5 months of delay 
within the administration in declassifying the Cox Committee 
report. If that had been done promptly, one would have had a 4- 
or 5-month period before Zhu Rongji came here.
    So I think there is more in the control of the 
administration than that. But I think you do have a point with 
respect to the timing, the way it worked out with the Cox 
Committee report and the WTO negotiations. It would have been a 
very bold move, indeed, given all that had happened at that 
point. But I still rest my case.
    Mr. Allen. Which may have succeeded, with political courage 
and the ability to persuade.
    Senator Biden. You all know Jesse Helms.
    Mr. Allen. Yes, sir.
    Senator Biden. I have no further questions.
    Mr. Weinberger. Senator, I am tempted to point out to you 
that admission to the WTO could be considered in some quarters 
as suitable punishment for China.
    Senator Biden. By the way, I do not disagree with you. I do 
not disagree with you.
    Thank you for your testimony.
    The Chairman. Senator Coverdell.
    Senator Coverdell. Mr. Chairman, I have no questions. I 
compliment the panel for their remarks. They are very 
insightful. The entire day has been.
    I think this panel has probably more accurately reflected 
the level of risk than some of the previous panelists have, and 
have underscored the severe complexity and danger that we are 
confronted with right now.
    I appreciate the chairman having called this group 
together. I appreciate the panelists. And there is the vote, so 
I did it exactly right.
    The Chairman. Gentlemen, there goes the voting light.
    Senator Kerry, I did not see you come back in.
    Senator Kerry. I apologize.
    The Chairman. Proceed.
    Senator Kerry. Thank you very much, Mr. Chairman. You were 
not here when I praised your concern, and expressed my sincere 
sympathy for the feelings and concerns that I think motivate 
you to bring this legislation. I did not embrace it in its 
entirety, but I think something short of it might conceivably 
be of interest.
    And I just wanted to sort that out a little bit with this 
very distinguished panel. And I welcome all of you back here. I 
appreciate your input on this very, very much.
    One point of view is obviously that we can go ahead and do 
this, create this relationship that, in a sense, would codify 
what most people express, both privately and in their ambiguity 
language, the reality of our relationship is--which is anything 
less than a peaceful transition is unacceptable. That is the 
policy.
    If that is true, this would, in effect, state that in a 
more clear way. Which is what the Washington Post, in effect, 
said we should do somehow.
    The question is, obviously, what are the implications of 
that? Do we trigger something that we then regret? Do we create 
greater instability, which is what Dr. Lampton has been 
suggesting we might create? And is there something short of 
that which might accomplish the goals without the down sides, 
if there are any?
    Address, if you would, perhaps each of you, the sort of 
``if it ain't broke, don't fix it'' comment we have heard 
several times today. Now, I agree with all of you. I think the 
administration is coming--not all of you, because not everybody 
has expressed--there are three of you that--they are coming up 
a little short in this relationship right now. And anybody who 
does not acknowledge that is glossing over some realities that 
are dangerous.
    But, at the same time, we have gone through three decades 
of a balance between Taiwan and the PRC that seems to have, in 
effect, worked, although it is now entering a more complicated 
stage. Why not find less--and maybe the word provocative is too 
strong--but why not find less ``in your face'' ways of perhaps 
clarifying and strengthening without necessarily upsetting that 
balance of 30 years? Does that concern you at all, Mr. 
Secretary Weinberger? And then I will come to Mr. Allen and Mr. 
Woolsey.
    Mr. Weinberger. Senator, I think that is a very good 
question. And I would put to you the fact that I think an act 
of this kind is needed, because the President of the United 
States, in June 1998, went to China, went to Beijing, as Mr. 
Woolsey correctly pointed, did not even bother to stop at Japan 
on the way. He spent 9 or 10 days there. And during the course 
of that, he upset the very carefully constructed--artificial, 
if you like--formulas in the Taiwan Relations Act. The Taiwan 
Relations Act said that we do not challenge the fact that all 
Chinese on either side of the Taiwan Strait maintain there is 
but one China, and that Taiwan is part of China. We understand 
that. We understand that all parties argue that.
    In Beijing, in June 1998, Mr. Clinton said that we do not 
support independence for Taiwan. We do not support the idea 
that there are two China's, or one Taiwan and one China. And he 
went further and said we do not believe that Taiwan should be a 
member in any organization for which statehood is a 
requirement. So he adopted all of the PRC's demands, gave up 
our very carefully constructed mechanisms and ideas that we 
understood both their claims, but we were not associating 
ourselves with either one, and did it in a single speech for 
which we got absolutely nothing over there.
    It was, I think, a performance that the Washington Post 
characterized quite correctly--I keep noting with great 
approval the Washington Post today--they said ``that in classic 
Clinton fashion, the White House tries to have things both 
ways, denying that U.S. policy has changed when in fact it has, 
and not for the better.'' And they concluded: ``Mr. Clinton has 
sided with the dictators against the democrats. To pretend that 
this is no change would only heighten its effect.''
    When you have that kind of a sea change, Senator Kerry, I 
think you need a clarification, a clearing up, that is provided 
for in this act, to make it very clear that we are going to 
continue doing what was done under the TRA, before the 
communique and after the communique, and that we are going to 
do it on a much more specific basis, because the People's 
Republic of China's armaments and threatening posture make it 
necessary to be more specific.
    So that is why I think we need the bill.
    Senator Kerry. Mr. Allen.
    Mr. Allen. Very briefly, Senator, you mentioned the 
delicate balance.
    Senator Kerry. Can I ask you both, maybe you would address 
this, because I think it would be helpful for the record. In 
the joint communique of August 17, 1982, section 5 says: ``The 
U.S. Government attaches great importance to its relations with 
China, and reiterates it has no intention of infringing on 
Chinese sovereignty and territorial integrity or interfering in 
China's internal affairs, or pursuing a policy of two China's, 
or one China, one Taiwan.''
    I am having trouble understanding why what the President 
did--with the exception of the ``three noes''--the ``three 
noes'' might go further--but other than that, are not they one 
in the same?
    Mr. Weinberger. He accepted not only the ``three noes,'' 
but he also accepted the fact that a communique could override 
a statute. And that is what I find particularly troublesome.
    Senator Kerry. Yes, Mr. Allen.
    Mr. Allen. My answer is the same, Senator, essentially. But 
you mentioned the word balance. And my concern is that we are 
about to become imbalanced. The dynamics have changed.
    In that connection, Mr. Chairman, with your permission, I 
would like to have introduced into the record a recent study by 
Richard Fisher, entitled ``Dynamic Elements in the Cross-
Straits Military Balance,'' if that would be acceptable.
    The Chairman. It will be done by unanimous consent.
    [The study, with related documents, referred to is in the 
appendix on page 63.]

    Mr. Allen. The second thing I would like to point out very 
briefly is that I read, to my great consternation, just 
yesterday--I was out of the country, along with Secretary 
Weinberger, as a matter of fact--a report in the Washington 
Times, in which Admiral Dennis Blair, U.S. Pacific Commander in 
Chief, who was on my staff in the Reagan administration as a 
young naval officer, said that we should not defend Taiwan if 
it should declare its independence. He said that Taiwan was, 
quote, ``the t-u-r-d in the punch bowl of U.S.-China relations. 
And that if Taiwan were to declare independence, I do not think 
we should support them at all.''
    Now, this is not administration talk. But it is the kind of 
thing that upsets people, and certainly would give the 
Taiwanese great pause. If this is an accurate remark, it is an 
inflammatory remark. And it just heightens the sensitivity of 
the Congress, the Senate and the House, and demonstrates that 
the administration is simply not clear in its policies.
    Senator Kerry. Understood. You are raising your hand, Dr. 
Lampton.
    Dr. Lampton. I just wanted to address--you were asking what 
could be done to clarify things without necessarily pursuing 
this legislation. I would make three very clear statements. I 
think some clarification is needed. I would, first of all, say, 
as Speaker Gingrich said when he went to the PRC and Taiwan, no 
force, period. That would be the end of that statement.
    Second, no unilateral independence with U.S. support. I 
would be equally clear in stating that. And, finally, get 
talking and start confidence-building measures. And that would 
be the clarification I would be looking for.
    Senator Kerry. We are on the back end of a vote, and I do 
not want to abuse the process. Let me just say, Mr. Chairman, 
that I think this is timely, obviously, but it is very 
important to have this contribution.
    The Chairman. Yes.
    Senator Kerry. And I think we really need to think hard 
about how we are going to pursue a different course from the 
one we are on now, which I think is adding to the ambiguities 
and, frankly, ultimately, the instabilities.
    Mr. Woolsey. Senator, just a couple of sentences.
    The Chairman. Go right ahead.
    Mr. Woolsey. I was just going to respond to the 30 years 
balance, and ``it ain't broke, don't fix it.'' The 30 years, 
most of the 30 years, we had one Communist dictatorship and one 
autocracy. And in that circumstance, things could be more or 
less stable, at least after 1969. The changes in the PRC, the 
economic changes which I describe, and democratization in 
Taiwan, leading indirectly to statements such as President Lee 
Teng-hui's, has changed the situation. And it makes it harder 
for Taiwan and it makes it harder for China, and it makes it 
harder for us, because our foreign policy is always a mixture 
of realpolitik and Wilsonianism, and this is now a democracy. 
These are our folks. And that makes it harder.
    Senator Kerry. A very good point. But is not part of the 
realpolitik also that if you overly link and overly raise 
expectations, you create a capacity for some, conceivably, in 
Taiwan to then say, OK, they are so close to us now and so tied 
in, we are declaring our independence because they cannot do 
anything about it, and you have in fact invited a greater 
potential for that confrontation and viability? It is exactly 
that very dicey balance that we have walked to avoid.
    Mr. Woolsey. It is exactly that tightrope.
    Senator Kerry. And we create an umbrella that we do not 
mean to create.
    Mr. Woolsey. That tightrope we were on for a while. And my 
fear is that the administration has tilted rather hard to 
falling off the tightrope in one direction.
    The Chairman. Secretary Weinberger, you have the last word.
    Mr. Weinberger. Yes, Mr. Chairman, I know you are properly 
trying to get back to a vote. But let me just make one point 
that I think is critical here. If there is the slightest 
feeling on the part of the PRC that we would not support 
Taiwan, that all of this mixing words and metaphors and going 
back and forth in communiques and all the rest would lead them 
to believe that we would not support Taiwan if Taiwan were 
attacked, is the most dangerous thing that we could be doing. 
And that is why I think it is essential to have a bill like 
this passed, that would make it very clear that we would not 
only never put Taiwan in that position, but that China should 
never be under the slightest misapprehension that that might 
occur.
    That is why I think it is so vital that this kind of debate 
be held, which I compliment the committee for having.
    Senator Kerry. Could I ask one question in followup? I 
think it is a very important one.
    The Chairman. Go ahead.
    Senator Kerry. Let us assume we go the road you say. And I 
agree we have got to change the balance a little. But if we did 
that, would you be willing to accept the notion that you say we 
will defend you if you are attacked, but if you declare 
independence unilaterally, do not count on us; can that be 
done?
    Mr. Weinberger. No, I do not think so, Senator.
    Senator Kerry. Well, that is the danger.
    Mr. Weinberger. Because I do not think we are in any 
position to dictate to a country such as Taiwan, that has been 
a very good friend of ours and is independent in almost every 
sense, what they can or cannot do. We cannot decide for them 
whether they will go for independence.
    Senator Kerry. We can decide whether or not young Americans 
are going to be sucked into something, though.
    Mr. Weinberger. The independent thing strategically is not 
to have Taiwan overrun by the People's Republic, and the world 
know that the United States does not stand by its allies.
    Senator Kerry. That was a good discussion.
    Thank you, Mr. Chairman.
    The Chairman. We have got to stop sometime.
    Thank you, gentlemen, so much for coming. I wish we could 
go 2 more hours. Maybe we can do that sometime.
    There being no business to come before the committee, we 
stand adjourned.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


Responses of Assistant Secretary Stanley O. Roth to Question Submitted 
                             for the Record

    Question 1. The Pentagon report issued earlier this year on the 
military balance in the Taiwan Strait makes the case that Taiwan has a 
legitimate need to counter Chinese submarines, has lost its air 
superiority vis-a-vis China and could thus use help in the air-to-air 
arena, and has a clear need for missile defense. Why should we not 
interpret the Administration's opposition to the sale of submarines and 
AIM-120's to Taiwan, and its reluctance to move quickly on missile 
defense, as a violation of the Taiwan Relations Act?

    Answer. The Administration has steadfastly fulfilled the provisions 
of the Taiwan Relations Act and has helped ensure the security of 
Taiwan. In accordance with the act, we have made available to Taiwan 
those defense articles and defense services necessary to enable Taiwan 
to maintain a sufficient self-defense capability, in accordance with 
our judgment of their needs. We have successfully helped Taiwan to 
satisfy its legitimate defense needs in accordance with the TRA and we 
will continue to do so.
    In making our judgment of which defense articles to sell to Taiwan 
to meet its legitimate self-defense needs, we consider such factors as 
the nature of the technology, its impact on Taiwan's security, and the 
impact of the proposed transfer on U.S. capabilities and technological 
advantage.
    On the question of missile defense, I would note that we have 
helped Taiwan meet its air defense needs, for example, by selling the 
Modified Air Defense System (MADS). As I said in my prepared statement, 
the Administration does not preclude the possible sale of TMD systems 
to Taiwan in the future. But, making this determination now, when the 
systems are still under development, and not yet even available to U.S. 
forces, is certainly premature.
    In addition to providing defense systems to Taiwan, we promote 
peace and security in the region through our forward deployed forces. 
We have also made it abundantly clear that the United States has an 
abiding interest in the peaceful resolution of cross-Strait 
differences. It is clear that Taiwan's security will depend on more 
than just military factors alone. Peaceful interaction, including 
dialogue, between Taiwan and the PRC is needed if we are to see 
tensions reduced.

    Question 2. In your testimony, you allude to the fact that the 
administration has denied certain systems to Taiwan because they are 
not strictly defensive. Please inform the committee as to how the 
administration thinks Taiwan might use diesel submarines, AIM-120 
missiles, and Aegis systems in an offensive manner.

    Answer. Consistent with our policy and the Taiwan Relations Act, we 
have not approved the release of weapons we believe to be inherently 
offensive. For example, submarines, because of their capacity for power 
projection and stealth attack on surface vessels in international 
shipping lanes, are inherently offensive in character. Instead, we have 
made available a variety of defensive systems to help Taiwan fulfill 
its ASW and other mission requirements. We are prepared to discuss this 
issue with committee staff in conjunction with our assessment of 
Taiwan's self-defense missions and needs.

    Question 3. In your testimony, you raise constitutional concerns 
over section 4(b) of the S. 693, which requires an annual Report on 
Taiwan arms sales. Please cite the constitutional clause on which you 
base this assertion. Please inform the committee as to how section 4(b) 
is inconsistent with section 3(b) of the Taiwan Relations Act.

    Answer. The expression of constitutional concern about section 4(b) 
of S. 693 reflects the legal conclusion that has been adopted by the 
Department of Justice as the Administration position. Justice's concern 
is that the provision will be unconstitutional in certain applications. 
The basis of this concern is the need to protect the confidentiality 
that is essential to the Executive's conduct of international 
negotiations and to avoid improper intrusions upon the President's 
broad authority to control the disclosure of national security and 
foreign relations information. The authority to protect military and 
diplomatic secrets flows from the President's constitutional duties 
``both as Commander-in-Chief and as the Nation's organ for foreign 
affairs.'' United States v. Nixon, 418 U.S. 683, 710 (1974) (quoting C. 
& S. Air Lines v. Waterman S.S. Corp., 333 U.S. 103, 111, (1948). 
Furthermore, the Supreme Court has recognized that because ``[the 
President's] authority to classify and control access to information 
bearing on national security . . . flows primarily from this 
constitutional investment of power in the President [as Commander-in-
Chief],'' it ``exists quite apart from any explicit congressional 
grant.'' Department of Navy v. Egan, 484 U.S. 518, 527 (1988). 
Accordingly, Justice has long believed it ``clear that the President 
has the constitutional authority to control the disclosure of the 
content of [international] negotiations to Congress.'' Issue Raised by 
Foreign Relations Authorization Bill, 14 Op. O.L.C. 37, 44, (1990); see 
also, e.g., The Disclosure of Documents to the House Committee on 
Government Operations--Boycotts--Export Administration Act, 1 Op. 
O.L.C. 269, 270 (1977). We respectfully request that you direct any 
further questions about the constitutionality of section 4(b) to the 
Department of Justice.
    The requirement for annual reports in Section 4(b) is also 
unnecessary and redundant. Throughout the year, the Administration 
briefs the relevant committees on Taiwan's broad defense requirements 
and on our decisions after the annual talks with Taiwan. We also notify 
Congress of our decisions to sell major systems in accordance with the 
relevant provisions of law.
    We are ready to discuss ways to improve consultations with Congress 
on assessments of security factors in the area and Taiwan's self 
defense missions and needs.

    Question 4. The Pentagon informs the committee that it interprets 
the April agreement ``in principle'' concerning an early warning radar 
system for Taiwan as a commitment to sell a radar system, once 
technical issues are worked out. Does the State Department concur with 
the Pentagon's interpretation? Does the NSC concur?

    Answer. Our policy is to not discuss particular weapons systems 
being considered for sale to Taiwan. On April 29, A/S Barbara Larkin 
advised Sen. Helms (as well as Rep. Gilman), in a classified letter, of 
the Administration's position regarding early warning radar for Taiwan. 
We have nothing further to add.

    Question 5. Is it true that as part of the National Defense 
University's ``Capstone'' program that every new American general and 
admiral has the opportunity to visit China? Is it true that none of 
these same officers have the opportunity to visit Taiwan?

    Answer. No. All flag rank officers attend Capstone, but not all are 
offered the opportunity to visit China. The program offers officers the 
chance for international travel to various parts of the world. A few, 
but not all, go to China. Visits of U.S. flag rank officers to Taiwan 
would be inconsistent with the unofficial nature of our relationship 
with Taiwan.

    Question 5a. Notwithstanding our unofficial relationship with 
Taiwan, why should the committee not view it as a contradiction, and 
perhaps strategically unsound, that our generals cannot visit Taiwan, 
considering that they may one day have to help defend Taiwan?

    Answer. U.S. policy has been effective in ensuring Taiwan security 
for the last 20 years. The Administration policy regarding high level 
visits to Taiwan is governed by the 1994 Taiwan Policy Review. Senior 
DoD officials interact with their Taiwan military counterparts on a 
regular basis during unofficial visits to the United States.

    Question 6. While you were in the PRC recently, did you and/or Mr. 
Lieberthal remind the Chinese of our precise defense obligations to 
Taiwan under the Taiwan Relations Act? Did you demarche the Chinese for 
beginning the latest flare up in air activity over the Taiwan Strait? 
Also, did you demarche the Chinese over the Falun Gong come up? Please 
provide the committee with a synopsis of your July meetings in the PRC.

    Answer. Senior Director Kenneth Lieberthal and I traveled to China 
July 22-24 to meet with senior Chinese officials to discuss a variety 
of subjects. Our talks focused mainly on the current status of cross-
Strait relations, our bilateral relationship, and preparations for the 
scheduled meeting between Secretary Albright and Foreign Minister Tang 
at the ASEAN Regional Forum (ARF) meeting in Singapore. We met with 
Foreign Minister Tang Jiaxuan, Vice Foreign Minister Yang Jiechi and 
Assistant Foreign Minster Wang Yi, among others.
    In discussing Taiwan, Mr. Lieberthal and I echoed comments made by 
President Clinton and Secretary Albright and reiterated our long-
standing policy, as embodied in the Taiwan Relations Act and the three 
Communiques. We stressed that the U.S. has an abiding interest in 
seeing that the issue is addressed through dialogue and is resolved 
through peaceful means only. The United States would look with grave 
concern upon any attempt to settle this issue by force. Going beyond 
the narrow legal language of the Taiwan Relations Act, we made clear 
that any use of force would have a severe impact on U.S.-China 
relations and would prompt a reaction by the United States.
    Since the accidental bombing of the Chinese embassy in Belgrade on 
May 8, we have worked hard to resolve a number of crucial issues in the 
bilateral relationship with China--cross-Strait issues, human rights, 
China's accession to the WTO being among the most pressing. We visited 
Beijing to address these issues and attempt to engage the Chinese in a 
dialogue that had been abruptly halted following NATO actions in the 
Balkans. It was also important for us on this trip to gauge Chinese 
thinking immediately prior to a planned meeting between the Secretary 
and her Chinese counterpart at the ARF meetings.
    With respect to the recent crackdown on the Falun Gong group in 
China, the Chinese sought to justify their actions. While taking note 
of their views about cults, we expressed our serious concern with the 
steps they had taken. We encouraged tolerance by their government 
towards peaceful expression of views, both political and non-political.

    Question 7. In your testimony, you stated that we have demarched 
both Taiwan and Beijing over the latest air sorties over the Taiwan 
Strait. In addition, throughout your testimony, you repeatedly refer to 
urging ``the parties'' or ``both sides'' to adhere to a peaceful 
resolution. Does the administration truly believe that Taiwan could be 
responsible for a non-peaceful resolution of this dispute? Why should 
the committee not view the administration's policy, as do many 
observers, as one of moral equivalence?

    Answer. Such a view would be inaccurate. We demarched both sides of 
the Strait, stressing that air activity on both sides carried with it 
increased chance of miscalculation or accident, and urged both sides to 
exercise restraint and to begin dialogue. The administration believes 
that both sides have a contribution to make in ensuring peace and 
stability in the cross-Strait region.
                                 ______
                                 

  Responses of Deputy Assistant Secretary Kurt Campbell to Questions 
                        Submitted for the Record

    Question 1. Since July 9 has there been an increase in activity by 
the Chinese and Taiwan Air Forces in the Taiwan Strait? Who started 
this activity, and when? If the answer is China, then why are we 
insisting on demarching ``both sides'' and why did you say in your 
testimony that your greatest concern over these sorties is fear of an 
inadvertent act. Shouldn't our greatest fear be over China's 
willingness, now amply demonstrated over the past few years, to use 
military threats against Taiwan?

    Answer. We are aware that there has been an increase in the number 
of air sorties flown by the People's Liberation Army Air Force and the 
Taiwan Air Force. China initiated this new round of air activity in 
response to Taiwan President Lee Teng-hui's 9 July 1999 remarks 
redefining the formula for cross-Strait ties as ``special state-to-
state.'' We urged both sides to exercise restraint, avoid actions that 
risk accidents, not to take actions that make meaningful and 
substantive dialogue more difficult, and to resolve their differences 
in a peaceful manner.

    Question 2. Does this air activity pose a threat to Taiwan? What 
has the United States done militarily, or does it plan to do 
militarily, to counter this threat if necessary?

    Answer. In evaluating the threat to Taiwan, one must examine both 
the capability and intentions of the Chinese People's Liberation Army 
(PLA). PLA Air Force capabilities likely will grow over time. PRC 
intentions with regard to the use of force against Taiwan are not 
clear. The PRC and Taiwan emphasize peaceful approaches to the 
resolution of their differences. Beijing, however, has not abandoned 
the possible use of force under certain conditions. The United States 
expects Beijing to continue its commitment to a peaceful resolution of 
their differences with Taiwan, and considers such commitments in the 
interests of the PRC, Taiwan, and all of the nations of the Asia 
Pacific region. The United States remains committed to the provisions 
of the Taiwan Relations Act.

    Question 3. What is the total Chinese sortie count to date? What is 
the average daily sortie rate since 9 July?

    Answer. [Deleted].

    Question 4. Did the Chinese Air Force fly up to the mid-line of the 
Taiwan Strait in 1995 and 1996? Are current flights up to the mid-line 
of the Taiwan Strait unprecedented in the last year, the last decade, 
or the last three decades?

    Answer. [Deleted].

    Question 5. Does China's detaining a Taiwanese merchant ship on its 
way to one of Taiwan's offshore islands portend any possible hostile 
Chinese intent toward any of the offshore islands? Is it possible that 
China could attack these islands?

    Answer. [Deleted].

    Question 6. When will the recently postponed air defense delegation 
be sent to Taiwan?

    Answer. [Deleted].

    Question 7. Could you please inform me how many Chinese short range 
ballistic missiles the People's Liberation Army maintains in areas near 
Taiwan? How many land-attack cruise missiles do you expect the PLA to 
have by 2005? By 2010?

    Answer. [Deleted].

    Question 8. When do you expect the Chinese Air Force to take 
delivery of the Russian Su-30 attack fighter?

    Answer. [Deleted].

    Question 9. When do you expect the Chinese Navy to take delivery of 
the Russian Sunburn supersonic anti-ship missile? Does the Taiwan Navy 
have the means to defend against the Sunburn?

    Answer. [Deleted].

    Question 10. Does the Taiwan Air Force have the means to interdict 
Chinese long-range surface-to-air missiles that could be moved near the 
Taiwan Strait?

    Answer. [Deleted].

    Question 11. Is China developing a terminally guided warhead for 
the DF-21 missile or for any ballistic missile? If yes, and such a 
warhead were to be armed with a radio frequency or EMP warhead, could 
such a missile disable the U.S. 7th Fleet? If there is now, or if there 
were to be such a Chinese missile program, would that increase the U.S. 
requirement for Theater Missile Defense in Asia?

    Answer. [Deleted].

    Question 12. Does the Taiwan Air Force have a helmet sighted air-
to-air missile like the Chinese Air Force has for its Su-27 fighters? 
If not, how does this lack of capability effect Taiwan's air defense 
capabilities? When will the United States have a helmet sighted missile 
to sell Taiwan?

    Answer. [Deleted].

    Question 13. In March, our Commander of U.S. Forces Pacific, 
Admiral Blair, was quoted as saying that China does not represent a 
military threat to U.S. interests. This implies either that China 
represents no threat to Taiwan or that Taiwan is not a U.S. interest. 
Does the rest of the Pentagon concur with Admiral Blair's view?

    Answer. Our fundamental interest in the Taiwan Strait is stability 
and peaceful resolution of differences. It is understood that as long 
as Taiwan has a capable defense, the environment will be more conducive 
to peaceful dialogue, and thus the whole region will be more stable. 
The Department of Defense is serious about its responsibilities under 
the Taiwan Relations Act. We provide for Taiwan's defense not only 
because it is mandated by U.S. law in the TRA, but also because it is 
in our own national interest.

    Question 14. Please provide for the committee a list of planned 
military exchanges with Taiwan for 1999, or a list of actual exchanges 
from 1998, in classified form if necessary. Please provide this list in 
a format similar to that of the Pentagon's ``Game Plan for Sino-U.S. 
Defense Exchanges'' that was provided to the committee in February 
1999.

    Answer. We would be pleased to brief you and members of your staff 
on past and anticipated future activities with Taiwan's defense 
establishment.

    Question 15. On August 2 Wen Wei Po listed the DF-25 as a missile 
in the Chinese inventory. Most analysts had considered this missile 
program terminated and it is generally not listed in the Chinese order 
of battle. Does China have the DF-25? If so, how many? What are its 
characteristics and capabilities? Can this missile be used against 
Taiwan? Why has this missile been assumed not to be in the Chinese 
arsenal?

    Answer. [Deleted].
                                 ______
                                 

         Dynamic Elements in the Cross-Straits Military Balance

(Prepared for the International Forum on The Peace and Security of the 
                             Taiwan Strait)

                      (By Richard D. Fisher, Jr.)

                                summary
    Continuous evaluation of the military balance between China and 
Taiwan remains a vital exercise undertaken by all parties with an 
interest in either preserving or changing the status quo. This process 
has been assisted by recent reports to the Congress by the U.S. 
Department of Defense. This paper examines five dynamic elements in 
determining the future military balance between China and Taiwan.
    First, it is necessary to note that China's developing missile-
based reconnaissance-strike complex poses perhaps the most profound 
threat to the military balance on the Taiwan Strait and in Asia 
generally. China is quickly gathering large numbers of very accurate 
short-range ballistic and cruise missiles. An information network of 
new imaging and radar satellites, AWACS and ELINT aircraft will support 
the rapid targeting of missiles. For Taiwan, this places a growing 
priority on obtaining an effective missile defense or quickly building 
a deterrent. Laser-based defenses hold the best long-term prospects for 
an assured defense against Chinese missiles. China is also making 
progress in assembling information and electronic warfare assets. 
Particularly troubling is China's interest in radio frequency weapons. 
While Taiwan is credited with a large civilian computer and software 
infrastructure it is not clear that Taiwan has developed as serious an 
information warfare effort as China's.
    China's air force is growing at a sustained pace, with the eventual 
goal of creating an all-weather strike force. The acquisition of 
Russian Sukhoi fighters is to be followed by fighter-bombers. These 
will be armed with modern anti-air and precision attack munitions, and 
supported by AWACS, ELINT and electronic warfare aircraft. Taiwan faces 
a real challenge to maintain it technical edge in the air. It requires 
more and defendable AWACS, active-guided air-to-air missiles, and 
helmet-sighted missiles. ROC air bases also need greater protection as 
Taiwan considers the future purchase of V/STOL aircraft to better 
assure survivability.
    The naval balance on the Taiwan Strait is most affected by China's 
steady acquisition of new Russian and domestic submarines. Russian 
technology is assisting the development of a new generation of Chinese 
nuclear attack submarines. China is demonstrating greater competence in 
modem large surface combatant design. China's near imminent acquisition 
of the Russian Moskit Anti-ship missile presents a threat that Taiwan 
cannot defeat. Taiwan's navy has an urgent need for its own submarines 
and for Aegis radar to help defend against the Moskit and China's 
ballistic missiles targeted on navy bases.
    A final dynamic is the future role of the United States. Will 
Washington curtail it support for Taipei as its democratic politics 
increasingly prove the inadequacy of the ``One China'' policy, or will 
the U.S. instead continue to support and arm a democratic polity 
exercising self-determination? The Clinton Administration clearly 
supports the ``One China'' formulation, while powerful Congressmen are 
beginning the debate over selling Taiwan a future generation of 
weapons. To sustain deterrence on the Taiwan Strait, and to reduce the 
threat of war, it is critical that the U.S. sell Taiwan anti-missile, 
submarine, and air combat systems that it needs to respond to China's 
military modernization. In addition, the U.S. needs to formulate a 
better military-to-military relationship with Taiwan. And Washington 
must invest in future-generation military technologies and build 
sufficient modern weapon systems to deter Chinese attack against 
Taiwan.
                              introduction
    Continuous evaluation of the military balance between the Republic 
of China and the People's Republic of China remains a vital exercise 
undertaken by all parties with an interest in either preserving or 
changing the status quo. This interest is reflected in the very rich 
open-source literature that constantly evaluates both broad and 
specific elements in this evolving military balance.\1\ But in recent 
months, largely in reaction to U.S. Congressional mandates, the U.S. 
Government has made an unusually detailed contribution to this 
literature in the form of three reports to the Congress.\2\ To these 
largely value-free analyses, the report of the Cox Commission released 
on May 25 added a clear message that China's military build-up posed a 
challenge to the United States and its Asian friends and allies.
---------------------------------------------------------------------------
    \1\ Though by no means an exhaustive list, recent literature 
includes: Richard A. Bitzinger and Bates Gill, Gearing Up For High-Tech 
Warfare? Chinese and Taiwanese Defense Modernization and Implications 
For Military Confrontation Across the Taiwan Strait, 1995-2005, Center 
For Strategic and Budgetary Assessments, February, 1996; Chong-Pin Lin, 
``The Military Balance In The Taiwan Straits,'' in David Shambaugh and 
Richard H. Yang, eds., China's Military In Transition, Oxford: 
Clarendon Press, 1997, pp. 313-331; Alexander Chieh-cheng Huang, 
``Taiwan's View of Military Balance and the Challenge It Presents,'' in 
James Lilley and Chuck Downs, eds., Crisis In The Taiwan Strait, 
Washington., D.C.: National Defense University and The American 
Enterprise Institute, 1997, pp. 279-302; Richard Fisher, ``China's Arms 
Require Better U.S. Military Ties With Taiwan,'' Heritage Foundation 
Backgrounder No. 1163, March 11, 1998; Robert Karniol, ``Strong and 
Self-Reliant,'' Jane's Defence Review, July 8, 1998, pp. 22-27; ``The 
changing face of China,'' Jane's Defence Review, December 16, 1998, pp. 
22-28; Anthony Leung, ``The Fortress Revisited,'' Military Technology, 
March, 1999, pp. 71-80; Mark Daly, ``Democracy is Taiwan's best shield 
against China's threat,'' Jane's International Defense Review, April, 
1999, pp. 24-29.
    \2\ Department of Defense, ``Future Military Capabilities And 
Strategies Of The People's Republic Of China,'' Report to Congress 
Pursuant to Section 1226 or the FY98 National Defense Authorization 
Act, September 1998; ``The Security Situation In The Taiwan Strait,'' 
Report to Congress Pursuant to the FY99 Appropriations Bill, February 
1999; Report To Congress On Theater Missile Defense Architecture 
Options In The Asia-Pacific Region, April 1999.
---------------------------------------------------------------------------
    These U.S. reports, plus numerous other information sources, 
suggest that China's People's Liberation Army (PLA) is making steady 
progress in acquiring the space, missile, air and naval forces 
necessary to pose a credible military threat to Taiwan. By the middle 
of the next decade the PLA could make substantial progress in acquiring 
new forces that could immobilize and even temporarily isolate Taiwan. 
Furthermore, these same new PLA forces could deter the United States 
from coming to Taiwan's assistance as envisioned in the 1979 Taiwan 
Relations Act. Avoiding this prospect requires that Taiwan obtain a 
credible missile defense, advanced information systems, submarines, 
advanced tactical missiles, and perhaps even an offensive strike 
capability. It also requires that the U.S. make very rapid progress in 
establishing an Asian missile defense network, creating defensible 
information assets, upgrading its air combat forces, augmenting its 
Asian naval power and greatly improving military-to-military contacts 
with Taiwan.
    These requirements create dilemmas in both Taipei and Washington. 
For the U.S., these measures may further strain already poor relations 
with Beijing and it is not clear Washington will receive regional 
support. But absent such U.S. arms sales, Taiwan may be forced to 
consider acquiring deterrence based on ballistic missiles or other 
weapons--itself a destabilizing prospect. The balance of this paper is 
a brief and blunt examination of specific dynamic military elements in 
which the PLA is improving its ability to threaten Taiwan, the manner 
in which Taipei is responding to these threats, and how the U.S. can 
better assist Taiwan.
                 dynamic element #1: missiles and space
    Unlike its air and naval weapon sectors, China's missile and space 
sector exhibits growing technical competence and receives generous 
funding support.\3\ China's most profound challenge to the balance of 
power on the Taiwan Strait, or in Asia generally, is the PLA's 
developing ``reconnaissance-strike complex'' of highly accurate 
ballistic and cruise missiles, combined with multiple layers of long-
range sensors. By 2005, China's developing missile forces will pose a 
grave threat to Taiwan. Future Chinese satellites and AWACS aircraft 
likely will be able to provide constant targeting data for missile 
strikes by GPS-guided short-range ballistic missiles and new cruise 
missiles to attack airfields, secondary airfields, ports, military 
command posts, and major government buildings. Missiles and cruise 
missiles armed with Radio Frequency warheads could attack communication 
and power grids to sow chaos among the population. American military 
facilities in Japan and Okinawa--the likely redoubt of forces first to 
assist Taiwan--also would be vulnerable to new medium-range ballistic 
missiles armed with terminally guided warheads and future long-range 
cruise missiles.
---------------------------------------------------------------------------
    \3\ For a comprehensive analysis of China's missile and space 
ambitions, its current projects, and the structure of the missile and 
space industries, see Major Mark A. Stokes, ``China's Strategic 
Modernization: Implications For U.S. National Security,'' FY97 Research 
Project Under Auspices of USAF Institute For National Security Studies, 
October 1997 (revised July 1998). An updated version of this paper is 
to be published by the U.S. Army War College.
---------------------------------------------------------------------------
New PLA Ballistic and Cruise Missiles
    A media sensation was created in February when it was leaked from 
the classified version of the February U.S. Department of Defense 
Taiwan Straits report that China intended to build 650 of the DF-15 and 
M-11 short-range ballistic missiles for use against Taiwan.\4\ Taiwan's 
Ministry of Defense has stated that China currently has 100 M-series 
missiles. The DF-15 is a sophisticated missile that uses warhead 
shaping to make radar detection more difficult and a second stage to 
confuse anti-missile radar. But it may soon get better. At the 1996 
Zhuhai show, the author was told that GPS technology was being used to 
improve the accuracy of the short-range DF-15 missile, and the Pentagon 
now notes that the DF-15 and M-11 ``are expected to incorporate 
satellite-assisted navigation technology to improve their accuracy.'' 
\5\ One Chinese article says a combined GPS/inertial guidance system 
``can raise impact accuracy by an order of magnitude.'' \6\ For the DF-
15 this could mean improved accuracy from a 300-meter radius to a 30-
meter radius. Similar guidance upgrades could also be used to improve 
the M-11, which sources in Taiwan believe will go to Army units, 
whereas the DF-15 is controlled by the Second Artillery. Currently, the 
Second Artillery has one Battalion of DF-15s in the Nanjing Military 
Region opposite Taiwan, and is thought to be building another. A 
Battalion of M-11s is thought to be building up for the Army. One 
Battalion is thought to be able to salvo-launch 36 to 48 missiles 
simultaneously.
---------------------------------------------------------------------------
    \4\ These numbers were first revealed in Tony Walker and Stephen 
Fidler, ``US fears on China missile build-up,'' The Financial Times, 
February 10, 1999, p. 1. Informed sources have told the author that 
these numbers are indeed in the classified version of ``The Security 
Situation In The Taiwan Strait.''
    \5\ ``The Security Situation In The Taiwan Strait,'' p. 5.
    \6\ Wang Yonggang and Yuan Jianping of Northwestern Polytechnical 
University, Xian, and Wang Minghai of the Second Artillery Engineering 
College, ``Preliminary Investigation of GPS/INS Integrated Scheme for 
Ballistic Missiles,'' Hangtian Kongzhi (Aerospace Control), June 1996, 
pp. 25-28.
---------------------------------------------------------------------------
    Though less noted, China is improving the 1,125-mile range DF-21 
ballistic missile, whose high speed makes it very difficult to 
intercept. The Second Artillery may have more than 80 of this solid-
fueled missile, which is both road- and rail-mobile.\7\ Jane's Defence 
Weekly, citing Japanese military sources, reports that China recently 
fielded an advanced version of the DF-21, known as the DF-21X.\8\ This 
new DF-21 may have a new highly accurate warhead that uses navigation 
satellite data like the U.S. GPS network or radar guidance 
technology.\9\
---------------------------------------------------------------------------
    \7\ ``Army General Comments on PRC Simulated Missile Exercise,'' 
Tzu-Li Wan-Pao, January 27, 1999, p. 2, in FBIS-CHI-99-027.
    \8\ Paul Beaver, ``China Prepares to Field New Missile,'' Jane's 
Defence Weekly, February 24, 1999, p. 3.
    \9\ That China was working on a new, possibly terminally guided 
warhead for the DF-21 was first revealed to the author at the 1996 
Thuhai Airshow by an engineer from the Beijing Research Institute for 
Telemetry, which develops advanced guidance systems. See Richard D. 
Fisher, Jr., ``China's Missile Threat,'' The Wall Street Journal, 
December 30, 1996, p. A8. Chinese interest in a missile with a Pershing 
II capability can also be inferred from Chinese literature, see, Zhu 
Bao, ``Developmental Prospects for Surface to Surface Missiles,'' in Xu 
Daxhe, ed., Review On Ballistic Missile Technology, China Aerospace 
Corporation, Science and Technology Bureau, 1998, pp. 9-19.
---------------------------------------------------------------------------
    As seen in the case of SRBMs, the Second Artillery and other PLA 
services are likely to have their own land attack cruise missiles now 
in development. The Pentagon has noted that development of land-attack 
cruise missiles for theater and strategic missions has a ``relatively 
high development priority'' for China and that initial versions 
``should be ready early in the next century.'' \10\ China's first new 
land-attack cruise missile is reported by one source to be the 240-mile 
range YJ-22,\11\ an advanced development of the C-802 anti-ship cruise 
missile but with a straight wing and likely a better engine. A long-
range strategic version of this cruise missile, similar in capability 
to early U.S. Tomahawk cruise missiles, will likely enter service after 
2005.
---------------------------------------------------------------------------
    \10\ Future Military Capabilities, p. 4.
    \11\ ``CHINA: Ying Ji-2 (C-802),'' Jane's Defence Weekly, September 
9, 1998, p. 75.
---------------------------------------------------------------------------
    Although many new Chinese ballistic and cruise missiles have the 
option of carrying a small nuclear warhead, China is placing great 
emphasis on developing powerful non-nuclear warheads. Mounted on new, 
much more accurate ballistic and cruise missiles, such warheads make 
possible long-range precision strike missions without recourse to 
nuclear weapons, thus reducing the prospect of nuclear retaliation. 
China is developing Radio Frequency (RF) weapons \12\ that simulate the 
electromagnetic pulse created by nuclear explosion, which has the 
effect of wiping out computer and electronic systems. A RF-armed 
missile might be able to disable a communication grid or a warship 
without causing great casualties. China is also interested in building 
cluster munitions for ballistic or cruise missiles that could disable 
airbase runways. Such cluster warheads eventually could arm medium and 
short-range ballistic missile or future land-attack cruise missiles.
---------------------------------------------------------------------------
    \12\ Future Military Capabilities, p. 6.
---------------------------------------------------------------------------
Anti-Missile, Anti-Satellite, and Space Information Systems
    China's government loudly protests U.S. anti-missile plans but says 
almost nothing about its own anti-missile or anti-satellite programs, 
or its space warfare plans. The PLA is aware of the need to defend 
against opposing missiles and of the need to exploit the U.S. 
military's high dependence on reconnaissance and communication 
satellites.\13\ PLA literature on future warfare acknowledges the need 
for a range of systems to deny the enemy's use of space.\14\ 
Engineering reports thought to be co-authored by the head of the China 
Aero Space Corporation's 2nd Academy, which manufactures surface-to-air 
missiles, indicate that China may be developing antimissile or anti-
satellite systems.\15\
---------------------------------------------------------------------------
    \13\ A U.S. Army war game was said to demonstrate the high 
vulnerability of U.S. forces in the event of any loss of satellite 
capabilities. See Sean D. Naylor, ``U.S. Army War Game Reveals 
Satellite Vulnerability,'' Defense News, March 10-16, 1997, p. 50.
    \14\ See Ch'en Huan, ``The Third Military Revolution,'' 
Contemporary Military Affairs, March 11, 1996, in Michael Pillsbury, 
ed., Chinese Views Of Future Warfare (Washington, D.C.: National 
Defense University Press, 1997), p. 394; and Major General Zheng 
Shenxia and Senior Colonel Thang Changzhi, ``The Military Revolution In 
Air Power,'' China Military Science, Spring 1996, in Pillsbury, ed., p. 
299.
    \15\ Yin Xingliang and Chen Dingchang, ``Guidance and Control in 
Terminal Homing Phase of a Space Interceptor,'' Systems Engineering and 
Electronics, Vol. 17, No. 6 (1995); Yin Xingliang, Chen Dingchang, and 
Kong Wei, ``Tesoc Method Based on Estimated Value Theory for a Space 
Interceptor in Terminal Homing,'' Systems Engineering and Electronics, 
Vol. 17, No. 8 (1995), abstracted in Chinese Aerospace Abstracts, Vol. 
9, No. 1 (1996), p. 49. Chen is thought to be the head of the SASC 2nd 
Academy.
---------------------------------------------------------------------------
    According to Chinese officials interviewed at the 1998 Zhuhai 
Airshow, China will complete in two years a new version of the FT-2000 
surface-to-air missile that could have an anti-tactical ballistic 
missile (ATBM) capability. The FT-2000 utilizes a passive guidance 
system designed to home in on electronic warfare aircraft like the U.S. 
EA-6B Prowler. The next version of the FT-2000 will use active-guided 
radar and be similar in performance to the Russian Fakel S-300PMU, 
which China purchased in 1991. These missiles may be related to China's 
HQ-9 surface-to-air missile program, which sought to marry guidance and 
command technology from the Russian S-300 and missile-seeker radar from 
the U.S. Patriot missile. A U.S. source has told the author that China 
does indeed have an example of the Patriot; at the 1997 Moscow Airshow, 
an official with a Russian missile design bureau told the author that 
the HQ-9 will use the same guidance frequency as the Patriot.
    Last year the Pentagon reported to Congress that ``China already 
may possess the capability to damage, under specific conditions, 
optical sensors on sateffites that are very vulnerable to damage by 
lasers. However, given China's current level of interest in laser 
technology, it is reasonable to assume that Beijing would develop a 
weapon that could destroy satellites in the future.'' \16\ China has 
invested heavily in its own laser programs but may also benefit from 
foreign technology. China is recruiting Russian laser technicians, and 
Chinese engineers appear to be familiar with current U.S. military 
laser developments and with the potential for lasers to destroy or 
disable targets.\17\
---------------------------------------------------------------------------
    \16\ Future Military Capabilities, p. 9.
    \17\ See article by Guo Jin of the China Aero Space Chanchun 
Institute of Optics and Fine Mechanics in Guangxue Jingmi Gongcheng 
[Optics and Precision Engineering], February 1996, pp. 7-14, in FBIS-
CST-96-015, February 1, 1996, on the Internet; Ding Bo, Xi Xue, and Yan 
Ren, ``Beam Energy Weaponry, Powerful Like Thunderbolts and 
Lightning,'' Jeifangjun Bao, December 25, 1995, p. 7, in FBIS-CHI-96-
039, February 27, 1996, pp. 22-23.
---------------------------------------------------------------------------
    As it seeks the means to deny space to future adversaries, China is 
also seeking to better exploit outer space for military missions.\18\ 
China is developing new military satellites for high-resolution 
imaging, radar imaging, signal intelligence (SIGINT) collection, 
navigation and communication. At the 1998 Zhuhai Airshow China 
announced it would launch six reconnaissance satellites: four imaging 
satellites and two radar satellites. When in orbit, this network will 
give China coverage of Asia twice daily for regular imaging and once 
daily for radar images. Radar satellites can penetrate cloud cover and 
are very useful for finding naval formations at sea. As does the U.S. 
military, China will also likely seek to integrate access to commercial 
satellite imaging into its military operations. China has long been a 
customer for French SPOT satellite images. China is also developing 
signal and electronic intelligence satellites which can also be used, 
in conjunction with information from imaging satellites, to provide 
targeting data for missiles, aircraft and submarine missions. Not 
content to rely on foreign navigation satellites, like GPS or its 
Russian counterpart, called GLONASS, China is also developing its own 
navigation satellite network. At the Zhuhai Airshow China announced 
that a future navigation satellite network will be based on small 
satellites--which are less expensive, easier to launch, and can be 
replaced quickly.
---------------------------------------------------------------------------
    \18\ Richard D. Fisher, Jr., ``China Rockets Into Military Space,'' 
The Asian Wall Street Journal, December 28, 1998, p.6.
---------------------------------------------------------------------------
Taiwan's Missile Dilemma: Defense and Deterrence?
    Taipei's response to China's developing missile threat has stressed 
defensive systems. But there are doubts about the validity of reliance 
on defensive systems and there is clear interest in developing 
deterrence based on an offensive capability such as missiles. The 
Patriot PAC-2+ anti-tactical ballistic missile systems that Taiwan 
purchased starting in 1994 may be capable of intercepting small numbers 
of DF-l5s. But it may not be capable of intercepting potential salvos 
of 100 or more missiles. This is certainly the case if Taiwan does not 
receive the AN/BOND long-range phased-array radar that was the subject 
of a White House/State Dept. vs. Defense Department/Congress debate 
last April leading up to the annual U.S.-ROC arms talks.\19\ This radar 
is needed to provide long-rage cueing to allow the Patriot system time 
to calculate interceptions in sufficient time. The ROC Navy is also 
anxious to acquire Aegis radar-equipped destroyers that could also 
eventually play a role in defending against PLA missiles but the U.S. 
has not yet decided to sell Taipei these ships.
---------------------------------------------------------------------------
    \19\ See April 19 letter from Congressman Ben Gilman to President 
Bill Clinton; Taiwan Central News Agency, ``MND Official: US Should 
Sell Long-Range Radar To Taiwan,'' April 24, 1999; Richard Fisher, 
``Taiwan's radar imperative,'' The Washington Times, April 28, 1999, p. 
A16.
---------------------------------------------------------------------------
    Recent reports to the Congress openly acknowledge Taiwan's 
requirement for missiles defense--and their potential inadequacy. The 
DoD Asian missile architecture report notes that for lower-tier 
coverage or defense against DF-15 or M-11 missiles, Taiwan would need 
12 land-based or 11 sea-based anti-missile batteries. But these cannot 
defend against faster, longer-range missiles like the DF-21. For 
longer-range missiles, Taiwan would need either one land or sea-based 
upper-tier class anti-missile system.\20\ However, the U.S. DoD Taiwan 
Straits report flatly acknowledges that missile defenses alone may not 
be enough. It states: ``Exclusive reliance on active missile defenses 
and associated BM/C3I, however, will not sufficiently offset the 
overwhelming advantage in offensive missiles which Beijing is projected 
to possess in 2005.'' \21\ This and the expected expense, perhaps US$ 
9.23 billion over 8 to 10 years, \22\ likely propel Taipei's interest 
in offensive system-based deterrent options.
---------------------------------------------------------------------------
    \20\ Report To Congress On Theater Missile Defense . . ., p. 14.
    \21\ The Security Situation In The Taiwan Strait, p. 6.
    \22\ Central News Agency, ``TMD To Cost Taiwan $9.23 Billion Over 
8-10 Years,'' March 24, 1999.
---------------------------------------------------------------------------
    Taiwan has long harbored the option to develop offensive ballistic 
and cruise missiles and has the capability to do so. The Tien-Ma 
missile program may have been suspended in the mid-1990s due to U.S. 
pressure. This program could be revived, or the Hsiung Feng II anti-
ship cruise missile could form the basis of a longer-range land attack 
system. But for Taiwan to be able to attack mobile and well-concealed 
DF-15s or M-11s, it will need very capable real-time detection and 
targeting systems like satellites or airborne synthetic aperture radar 
(SAR) systems. Taiwan's Rocsat II, which which was slated to be 
developed in cooperation with Germany's DASA, may have a 2 meter 
resolution--which could be very useful for military missions.\23\ 
However, this project may fail due to opposition from Beijing.\24\ But 
even if this program is successful, finding concealed missiles may 
require much higher resolution. And given the PLA's emerging anti-
satellite capability it would behoove Taipei to seek airborne platforms 
like unmanned aircraft that can carry powerful SAR systems like the 
U.S. Global Hawk, now in development. Another deterrent-oriented 
solution for Taiwan would be to equip its F-16 or Mirage-2000 fighters 
with precision ground-attack systems. These might be less politically 
provocative than missiles.
---------------------------------------------------------------------------
    \23\ ``China may hit Dasa over development of high-resolution 
satellite for Taiwan,'' Jane's Defence Weekly, April 14, 1999, p. 22.
    \24\ Recent reports indicate Taiwan may withdraw from this deal 
with DASA due to Beijing's pressure on DASA not to fulfill its 
contract, ``ROCSAT-2 Contract Faces Cancellation,'' reported on the 
``Go Taikonauts'' web page, www.geocities.com/CapCanaveral/Launchpad/
1921/news.htm, accessed on July 19, 1999.
---------------------------------------------------------------------------
    What often does not enter the debate over Taiwan's missile defense/
deterrent options are laser-based defensive systems. This is due mainly 
to the fact that no laser anti-missile system exists or is in 
development that would meet Taiwan's needs. But this, in turn, is due 
largely to the unwillingness of the mainstream U.S. Pentagon-industry 
combine to place a priority on laser systems over existing missile-
based systems. The near-term laser program, the Tactical High Energy 
Laser (THEL) came about after Israel concluded that only a laser could 
defeat a massive artillery rocket attack over the Golan Heights. Israel 
then convinced the U.S. to fund the THEL program, which could 
demonstrate a shootdown as early as later this year, and be deployed 
within three years. Taiwan would require a much more powerful laser 
capable of two million watts of power. Laser advocates point to the 
U.S. Navy's Mid-wave Infrared Chemical Laser (MIRACL) as proof of the 
U.S. ability to build such a high-power laser.
    It is also necessary for Taiwan to consider what can be done to 
expand passive missile defense capabilities. Improving hardened 
aircraft shelters, building such shelters for important ships, placing 
key command centers or even air force or army bases underground, and 
expanding civil defense systems can decrease the effectiveness of PLA 
missiles.\25\ Such measures also strengthen deterrence by demonstrating 
national resolve.
---------------------------------------------------------------------------
    \25\ For a discussion of Taiwan's passive defense options see, Tang 
Shi Yun, ``The Comments of TMD for Taiwan,'' Defense Technology Monthly 
(Taipei), May, 1999, pp. 100-107.
---------------------------------------------------------------------------
                dynamic element #2: information warfare
    Perhaps the second most important dynamic element that is receiving 
a great deal of PLA investment is information warfare. For China this 
form of warfare offers potential asymmetric advantages that can exploit 
a growing U.S. and ROC dependence on high-tech information systems for 
military and civil activities. Information warfare can be roughly 
described as a spectrum of activities that seek to maximize and secure 
one's own information sources, while also seeking the means to disrupt, 
disable or destroy the enemy's information sources. Last year the 
Pentagon noted that the PLA had ``shown and exceptional interest in 
information warfare and has begun programs to develop IW capabilities 
at the strategic, operational and tactical levels as part of its 
overall military modernization effort.'' \26\ In the area of 
Information Operations, China is said to be developing the means for 
``Computer Network Attack'' directed against Taiwan, as well as means 
to defend its own computer networks.
---------------------------------------------------------------------------
    \26\ Future Military Capabilities, p. 5.
---------------------------------------------------------------------------
    At the destructive end of the spectrum, China's laser ASAT program 
addresses a key U.S. vulnerability: growing dependence on satellites 
for the success of military operations. If U.S. satellites are even 
temporarily disrupted in the Taiwan area of operations that would have 
a grave effect on the U.S. ability to assist Taiwan militarily. China's 
future laser-ASAT capability also serves to negate Taiwan's expensive 
investment in imaging satellites--unless Taipei is allowed access to 
U.S. satellite camouflage techniques for its future satellites.
    As already noted, China also sees the need to exploit space to 
expand its military information capabilities. In addition to developing 
new imaging and radar satellites, it is known that China uses a variety 
of European, Indian, Russian and even U.S. satellite imaging sources. 
And as the U.S. is now doing, China can be expected to incorporate 
commercial imaging into its military operations. These sources will be 
combined with new airborne intelligence platforms. The PLAAF is 
building two airborne early warning platforms, the Y-8/Searchwater and 
the A-50/Phalcon AWACS. In addition, China is modifying Tu-154 
transports for ELINT/EW operations.
    But these information sources need a secure satellite 
communications network. At present the PLA lacks its own dedicated 
modern satcom network. However, at the Zhuhai Airshow China revealed 
new mobile military very small aperture terminal (VSAT) satellite 
receiver/transmitters.\27\ In this connection, the Pentagon notes that 
China's military communications satellite network is inadequate, and 
that in a crisis, ``the military could preempt the domestic satellite 
system for combat operations.'' \28\ If it did so, the PLA could 
possibly have access to at least four U.S.-made communication 
satellites operated by the Asia Pacific Telecommunications Company, and 
the China Orient Telecom Satellite Company, both of which were linked 
to the Commission of Science, Technology, and Industry for National 
Defense (COSTIND).\29\
---------------------------------------------------------------------------
    \27\ Brochure Nanjing Research Institute of Electronics Technology, 
``3M Offset-Fed Satcom Antenna.''
    \28\ The Security Situation In The Taiwan Strait, p. 15.
    \29\ Jeff Gerth, ``Reports Show Chinese Military Used American-Made 
Satellites,'' The New York Times, June 13, 1998, p. A1; Craig Covault, 
``Chinese Army May Use Next U.S. Satellite,'' Aviation Week and Space 
Technology, June 1, l998, p. 22.
---------------------------------------------------------------------------
    Down to Earth, the PLA is improving its overall electronic warfare 
capabilities. China is reported to be co-producing the Russian Zvezda 
Kh-31P anti-radiation missile, known at the KR-1.\30\ The Kh-31P was 
designed by Russia to counter the radar of the Patriot surface-to-air 
missile, which Taiwan has already purchased, and the U.S. Aegis radar 
\31\ that Taipei would like to acquire. At the 98 Zhuhai Airshow China 
revealed its first aircraft electronic intelligence (ELINT) and 
electronic jamming pods. Modern naval combatants like the Luhai and 
Luhu exhibit extensive electronic warfare systems. At the 1997 Moscow 
Airshow the Russians revealed a new GPS jamming devise said to be 
effective for diverting U.S. GPS-guided munitions--such as those used 
to great effect recently in Yugoslavia. One can reasonably presume 
Chinese interest in this technology.
---------------------------------------------------------------------------
    \30\ Douglas Barrie, ``China and Russia combine on KR-1,'' Flight 
International, December 10-16, 1997, p. 17.
    \31\ John W.R. Taylor, ``Gallery Of Russian Aerospace Weapons,'' 
Air Force Magazine, March 1996, p. 75.
---------------------------------------------------------------------------
    China has also shown an interest in stealth and counter-stealth. At 
the 1998 Zhuhai Airshow a private company was selling stealth coatings 
and computer programs to aid stealth shaping. Radar reflective coatings 
could be applied to numerous missiles, aircraft and ships. It can be 
expected that new Chinese land-attack cruise missiles will benefit from 
stealth coatings. There are some reports that a new PLA Navy destroyer, 
the ``Yantai,'' utilizes stealth coatings.\32\
---------------------------------------------------------------------------
    \32\ Associated Press, ``China Testing Stealth Ship,'' July 13, 
1999. This may refer to the new Luhai-class destroyer No. 167.
---------------------------------------------------------------------------
    More ominously, the 1998 Zhuhai show revealed that China may be 
already be marketing a counter-stealth radar. Institute No. 23 of the 
former China Aerospace Corporation, claiming ``high anti-stealth 
capability'' was marketing such a radar, called the J-231.\33\ While 
the author cannot verify the performance claims of this radar, if true, 
then China would possess a system that could begin to negate an area of 
extensive U.S. investment. Stealth pervades future U.S. weapons 
systems. Inexpensive anti-stealth radar, if it worked, would undermine 
an area of technology upon which the U.S. is placing greater 
dependence.
---------------------------------------------------------------------------
    \33\ Brochure, China Aerospace Co. Institute No. 23, ``J-231 Mid-
Range Surveillance Radar.''
---------------------------------------------------------------------------
    An area of PLA concentration that could yield great benefits in the 
future is that of enhanced radiation or directed radiation weapons. 
These are considered by the U.S. to be ``future generation'' weapon 
systems. China has also identified radio frequency (RF) weapons as 
necessary for future warfare \34\ and may have obtained information on 
U.S. RF weapon efforts as a consequence of its espionage in U.S. 
nuclear weapons laboratories.\35\ Considered to be related to 
electronic warfare, RF weapons kill electronic systems and power 
sources by emitting ultra-high power electronic pulses similar to that 
unleashed by nuclear explosions. China is developing high-power 
microwave warheads as one means for delivering RF explosions.\36\ While 
the Pentagon has some doubts that such a warhead is feasible, if the 
Chinese were successful, they could disable power grids, electronic 
communications, and the electronic systems of a naval battle group with 
long-range missiles. An outgrowth of this research is China's reported 
interest in directed energy RF weapons.\37\ These hold the potential 
for being able to destroy missiles by exciting engine fuel molecules to 
explode. The Pentagon concludes, ``Chinese deployment of such RF 
weapons by 2015 is assessed to be technically feasible.'' \38\
---------------------------------------------------------------------------
    \34\ Future Military Capabilities, p. 6.
    \35\ ``The Breach Was Total,'' Newsweek.
    \36\ The Security Situation In The Taiwan Strait, p. 7.
    \37\ Future Military Capabilities, p. 6.
    \38\ Ibid.
---------------------------------------------------------------------------
Taiwan's Information Warfare Response
    By virtue of its extensive computer hardware and software sector, 
the Pentagon has judged Taiwan to be capable of generating offensive 
and defensive Computer Network Warfare operations. The Pentagon has 
made special note of Taiwan's creative computer virus and anti-virus 
software makers.\39\ Again, the Pentagon has praise for Taiwan's 
civilian telecommunications capabilities, making progress toward the 
goal of becoming a regional telecom hub. The Pentagon notes Taiwan's 
current reliance on reconnaissance aircraft and commercial satellite 
companies for image intelligence.
---------------------------------------------------------------------------
    \39\ The Security Situation In The Taiwan Strait, p. 16.
---------------------------------------------------------------------------
    The Pentagon cross-straits report, however, does not say much about 
Taiwan's IW effort, noting that ``information on formally integrating 
IW into the warfighting doctrine is not available.'' \40\ This could be 
taken as implied criticism of Taiwan's efforts in this area. A public 
response occurred in May, when the ROC Ministry of Defense established 
an ``information warfare research and training task force'' to meet 
this growing threat.\41\ Beyond issues of doctrine and tactics 
pertaining to Computer Network Warfare, Taipei has an urgent need to 
expand its reconnaissance and communications assets. The ROCSAT II 
imaging satellite is a good start but this needs to be protected as 
their capability should improve. Taipei also needs more survivable 
airborne reconnaissance platforms, such as the future U.S. Global Hawk 
UAV, to provide constant imaging and radar coverage of areas near 
Taiwan.
---------------------------------------------------------------------------
    \40\ Ibid.
    \41\ Central New Agency, ``Military Forms Task Force To Answer 
Threat Of Information Warfare,'' May 5, 1999.
---------------------------------------------------------------------------
              dynamic element #3: air force modernization
    A third dynamic element affecting the military balance on the 
Taiwan Strait is the PLA's efforts to develop its Air Force into a 
modern all-weather air-superiority and strike force. While a slow 
process, the PLA is devoting greater resources to the purchase of 
modern Russian and Israeli combat systems and technology to supplement 
indigenous air combat programs. By the 2005 to 2010 time frame, it is 
possible that enough new PLAAF elements could come together to allow a 
significant number of 4th generation fighters, supported by radar and 
electronic intelligence aircraft, to wrest air superiority away from a 
ROCAF that has been severely damaged by massive missile strikes.
    However, getting to that point will require great effort and 
resources. Perhaps the most important organization-modernization 
challenge facing the PLAAF is whether it can develop doctrine, roles 
and missions necessary for modern air warfare. While clearly a goal, 
the PLAAF has yet to create an integrated air-defense system that melds 
fighters, missiles and C4I elements into an efficient network. It is 
also working to acquire AEW, tanker, and long-range interdiction 
aircraft armed with modern missiles with which it can fashion an all-
weather strike capability. Training is just beginning to move beyond 
old Soviet-style positive ground control tactics to stress air combat 
maneuvering on instrumented ranges, aggressor units and advanced air 
combat simulators.\42\
---------------------------------------------------------------------------
    \42\ A picture of a new domed air combat simulator obtained at the 
1998 Thuhai Airshow can be viewed on www.heritage.org, ``Report On The 
1998 Thuhai Airshow,'' Part 2, by Richard Fisher.
---------------------------------------------------------------------------
    The PLAAF has long labored under poor logistic and maintenance 
conditions. This is partially due to a practice of co-locating aircraft 
and engine manufacturers, but not ensuring that different manufacturers 
who produce the same aircraft, can exchange parts between similar 
airframes and engines. China has been unable to develop advanced jet 
engines and is only beginning to learn advanced 4th generation aircraft 
manufacturing techniques. A proliferation of new foreign systems in the 
1990s is likely only to compound logistic and maintenance support 
services.
    Influenced largely by the shock of the success of U.S. air forces 
during the Gulf War plus the Western embargoes, in 1992 China purchased 
its first batch of 26 Russian Sukhoi Su-27SK fighters, followed by 24 
more in 1996, and then an agreement to co-produce 200 more that same 
year. They will be produced in Shenyang under the designation J-11. The 
first two reportedly flew in late 1998 and the reported goal is to ramp 
up production to 15 a year by 2002 \43\--an ambitious goal that may 
require extensive Russian help. The Su-27 is China's first modern 4th 
generation fighter with long range, helmet-sighted R-73 short-range 
AAMs and R-27 semi-active medium-range AAMs. China's Su-27s were the 
first fighters in Asia to be armed with helmet-sighted missiles--which 
have conferred a decisive advantage in numerous air combat exercises 
with U.S. fighters. Successive batches have been upgraded with ECM 
pods, and the co-produced variants may include upgraded radar that can 
handle the R-77 active-radar guided medium-range AAM \44\ and the Kh-
31P/KR-1 anti-radiation missile.
---------------------------------------------------------------------------
    \43\ ``China-assembled Su-27s make their first flights,'' Jane's 
Defence Weekly, February 24, 1999, p. 16.
    \44\ Interview, Moscow Airshow, August, 1997. Delivery of the R-77, 
however, is dependent on Vympel being able to undertake sustained 
production, which was just getting underway in 1998. After Russia 
fulfills R-77 orders for Malaysia and India, China may follow. The 
Security Situation In The Taiwan Strait report expects China to have a 
R-77 like AAM by 2005, but it is more realistic that China will acquire 
the R-77 before that date.
---------------------------------------------------------------------------
    China is using foreign technology to update its old Russian and 
domestic designs, but it does not appear that the PLAAF is going to buy 
them. Russian Phazotron radar and R-27 missiles have been incorporated 
into the Shenyang J-8IIM which may only be offered for export. And the 
Russian RD-33 engine is likely to form the core of the Chengdu FC-1 
fighter designed to compete in the F-5/Mig-21 replacement market. Co-
funded by Pakistan, the FC-1's future is not secure, as it remains 
uncertain that they will be purchased by the PLAAF. Chengdu is also 
marketing the J-7MG, the latest in a long line of J-7s that 
incorporates a new cranked wing, upgraded radar, defensive electronics, 
and a helmet-sighted version of the PL-9 short-range AAM, which is a 
copy of the Israeli Python-3.\45\
---------------------------------------------------------------------------
    \45\ It is noteworthy that at the 98 Zhuhai show, Chinese engineers 
stated that the PLAAF had not purchased the PL-9 HMS for backfitting to 
J-7 aircraft. It could be that the PLAAF remains pleased with its 
Russian R-73 HMS AAMs. Pakistan and Bangladesh appear to be initial 
customers for the F-7MG, which raises the possibility that 
domestically-produced HMS AAMs will be exported before they enter PLAAF 
service.
---------------------------------------------------------------------------
    For the future, Shenyang apparently has the lead for a new 5th 
generation stealthy fighter known in the West as the XXJ. Projections 
produced by the U.S. Office of Naval Intelligence show the XXJ bearing 
a resemblance to the U.S. F-15. However, this project could evolve much 
differently should China succeed in its apparent efforts to gain access 
to Russia's Mig I.42 5th generation project.\46\ Should it gain access, 
China would be able to acquire Russia's most advanced radar, 
electronics and engine technologies. However, recent reports suggest 
Russia is not yet willing to let China into this program.
---------------------------------------------------------------------------
    \46\ Simon Saradzhyan, ``New Russian Fighter May Never Take 
Flight,'' Defense News, February 22, 1999, p. 22.
---------------------------------------------------------------------------
    The most important current domestic fighter project for the PLAAF 
is the Chengdu J-10, China's first indigenous 4th generation fighter. 
After a lengthy development it reportedly flew for the first time in 
April l988.\47\ Reports suggest China may buy up to 300 J-10s. Due to 
Israeli assistance the J-10 is expected to bear a strong resemblance to 
the canceled Lavi. Israel and Russia are competing to provide the 
radar, electronic and missile subsystems for the J-10, though new 
Chinese radar and missile could be used. Thought to be powered by the 
Russian AL-31 engine, there are reports that a twin RD-33 engine J-10 
could eventually go to the PLA Navy Air Force.
---------------------------------------------------------------------------
    \47\ ``China starts to flight test new F-10 fighter,'' Flight 
International, May 20-26, 1998, p. 5.
---------------------------------------------------------------------------
    Regarding dedicated attack aircraft, the 1998 Zhuhai Airshow saw 
the unveiling of the JH-7 fighter-bomber, which has been in development 
since the mid-1970s. China apparently will buy a small number for self-
sufficiency purposes, but the PLAAF is going to rely on the much more 
superior Su-30 for attack missions. After several years of 
negotiations, in early 1999 it became clear that a Chinese purchase of 
the Su-30 attack fighter was near. By early June reports emerged that 
China would purchase 72 Su-30s, and co-produce 250 more.\48\ But 
Chinese military officials in Washington later stated that they would 
only buy 50, with no deal yet on co-production.\49\
---------------------------------------------------------------------------
    \48\ Cary Huang, ``Beijing buys Russian jet squadrons,'' Hong Kong 
Standard, June 21, 1999.
    \49\ Barbara Opall-Rome, ``China Sets Sights On 50 Su-30s,'' 
Defense News, July 5, 1999, p. 5.
---------------------------------------------------------------------------
    In the Su-30 the PLAAF will receive its first modern all-weather 
long-range strike fighter.\50\ In essence, the Su-30 is a two-seat Su-
27 that has been strengthened and modified for attack missions. The 
Sukhoi bureau hopes the Su-30 will become comparable to the U.S. Boeing 
F-15E Strike Eagle, the main U.S. heavy fighter-bomber used to great 
effect over the Persian Gulf and the Balkans. Both aircraft share 
similar size and performance characteristics. The Su-30 will have 
longer unrefueled radius of about 900 miles--less depending on the 
warload.
---------------------------------------------------------------------------
    \50\ For more analysis of China Su-30 purchase, see Richard Fisher, 
``China's New Sukhois,'' Taipei Times, June 30, 1999, p. 9.
---------------------------------------------------------------------------
    Like the F-15E, the Su-30 can be outfitted to carry a range of 
weapons to include laser-guided bombs and missiles, in addition to 
anti-radar and anti-ship missiles. It is likely that China will also 
buy from Russia a package of advanced laser and low-light targeting 
systems, plus a variety of bombs and missiles to equip its Su-30s. The 
Kh-31P/KR-1 anti-radar missile will likely be a major weapon for the 
Su-30.
    Full exploitation of these new fighter and attack aircraft will 
depend on the PLAAF's being able to absorb new support aircraft. The 
most important is a joint Israeli-Russian project to build an AWACS 
system based on the Russian A-50 with an Israeli IAI Phalcon phased-
array radar. China has committed to buying the prototype and may 
purchase 3 to 7 more. This AWACS may be competing with a GEC-Marconi 
Argus radar equipped Il-76 which has been the subject of long 
discussion. In 1996 China purchased a reported 6 to 8 Racal Searchwater 
AEW radar to be fitted on the Xian Y-8 transport. The first prototype 
may have flown in mid-1998.
    The PLAAF has long sought an aerial refueling capability and has 
converted a small number of H-6 bombers for this purpose. Russia is 
heavily marketing the Il-78M tanker, which has appeared at both Zhuhai 
shows. As India has done, it remains possible that China will purchase 
the Il-78M after it begins to receive its Su-3Os. For ECM/ELINT 
missions, China is reported to have outfitted four Tu-154 transports 
with electronic intelligence systems, and has deployed these aircraft 
to the Nanjing Military Region. China may build another eight of this 
aircraft.\51\ At Zhuhai' 98 China revealed a new series of EW/ELINT 
pods for fighter or attack aircraft.
---------------------------------------------------------------------------
    \51\ ``ELINT aircraft put into service,'' Jane's Defence Weekly, 
March 24, 1999, p. 29.
---------------------------------------------------------------------------
    The PLAAF has had a long-standing requirement to replace its 
obsolete Xian H-6 medium bombers. There is occasional mention of China 
interest in purchasing a small number of Russian Tu-22M3 supersonic 
medium bombers but no order has materialized. It is also possible that 
Xian may be developing a new design that has not yet been revealed.\52\
---------------------------------------------------------------------------
    \52\ Rumors circulate around an alleged B-9 bomber, that may 
benefit from advanced Russian bomber designs that lack funding, like 
the Sukhoi T-60.
---------------------------------------------------------------------------
    The PLAAF also controls most of China's long-range surface-to-air 
missiles, like the S300PMU system purchased from Russia in the early 
1990s. These missiles are mainly stationed around Beijing, thought they 
were featured in the 1996 exercises near Taiwan. The PLAAF may also 
control new Russian SA-15 SAMs, which are fast enough to be able to 
target laser-guided bombs. In Russian service the SA-15 is designed to 
protect the S-300 from attack. At the 1998 Farnbourogh Show China 
revealed its new FT-2000 long-range SAM, which may be based on S-300, 
clandestinely acquired U.S. Patriot SAM, and Chinese technology. It 
will initially be guided by passive anti-radiation systems, though an 
active-guided version may be completed after the year 2000. Sources 
interviewed at the 98 Zhuhai show indicated this missile eventually 
would have an anti-tactical ballistic missile (ATBM) capability. For 
the future, this raises the question of whether the PLAAF will inherit 
future anti-missile missions.
Taiwan's Challenge: Maintaining Its Aerial Edge
    In contrast to the emerging PLA missile threat, Taiwan has for 
several decades maintained a degree of technical superiority for its 
air force to deter the Mainland. Air clashes during the 1950s and 1960s 
demonstrated that the ROCAF could rapidly absorb new technology, like 
air-to-air missiles, and use them to achieve success. It has also 
helped that for decades either political turmoil or never-ending 
reliance on obsolete Russian designs depressed the readiness and 
training levels of the PLAAF. But in the late 1990s the ROCAF finds 
that it also must modernize and innovate to stay ahead. It is not 
enough to have a significant number of 4th generation fighters. These 
assets require secure aerial radar and electronic support, superior 
air-to-air missiles, plus the airbase protection and flexibility to 
survive massive PLA missile strikes.
    Within the next few years the ROCAF will comprise about 340 modern 
frontline fighters supported by about 100 older but upgraded F-5Es.\53\ 
China's initial purchases of the Su-27, combined with the competitive 
prospect of France's sale of Mirage-2000 fighters convinced President 
Bush to sell 150 F-16 fighters to Taiwan in 1992. These are of the F-
16A/B Block 20 MLU version. It is an early F-16A with a lower-thrust 
engine than current models, but with advanced radar, electronic and 
cockpit systems that will allow the fitting of a Sharpshooter targeting 
pod, and later, the active-radar guided AIM-120 AMRAAM medium-range 
air-to-air missile. Despite repeated requests, the U.S. has not sold 
Taiwan the AIM-120, which would allow the F-16 to fire on multiple 
targets without having to maintain a radar lock on the opponents. By 
the end of 1998 Taiwan received its 60 Mirage-2000-5 fighters from 
France. This is a very capable interceptor with an 80-mile range radar 
and the active-radar guided Matra MICA air-to-air missile.
---------------------------------------------------------------------------
    \53\ For analysis of the ROCAF see, Jon Lake, ``Airpower Analysis, 
Taiwan,'' World Airpower Journal, Summer, 1998, pp. 144-157; Leung, pp. 
72-75.
---------------------------------------------------------------------------
    Anti-ship and other ground attack missions will be the main mission 
for the Ching-Kuo Indigenous Defense Fighter (IDF). This fighter was 
conceived out of the unwillingness of the U.S. to sell Taiwan the F-16 
in the late 1970s. Its performance as a fighter is comparable to the 
early F-16. Its twin engines confer greater survivability though they 
could stand to be improved to a higher thrust rating.
    In terms of the air-defense balance, it appears that Taiwan now has 
the edge, but by the end of the next decade that prospect may be 
uncertain. While the ultimate number of PLAAF Sukhois is unknown, even 
the prospect of a force of 500 Su-27s and Su-30s is most unsettling. 
These aircraft would be equipped with helmet sighted, and very likely, 
active-radar air-to-air missiles. They would also be controlled by 
AWACS, denying Taiwan the advantage of its own E2T AWACS. Furthermore, 
Taiwan's E-2s would very likely be the target of intense attacks both 
in the air and on the ground.
    At a minimum the ROCAF needs the AIM-120 to give its F-16s a multi-
target capability. In addition, the ROCAF should be cleared for early 
export of the new U.S. AIM-9X, the first U.S. helmet-sighted AAM. This 
missile uses a Sidewinder motor with a new off-boresight seeker and 
helmet-display to confer even greater flexibility than the R-73 in 
PLAAF service.
    Another pressing requirement is to improve ROC airbase protection 
against SRBM and Su-30 attack. While ROC airbases are increasingly 
equipped with hardened air shelters for combat aircraft, these will 
have to be made better able to withstand missile warheads and laser-
guided bombs designed to attack such shelters. For the future it may be 
prudent for the ROCAF to consider purchasing vertical take-off aircraft 
like the U.S. Harrier. These could be used to develop dispersal and 
concealment tactics in anticipation of purchasing the future U.S. Joint 
Strike Fighter, a version of which will be V/STOL capable.
    In addition, the ROCAF also faces the possible prospect of having 
to contribute to Taiwan's missile defense in the form of counter-force 
missions against DF-15s and M-11s. Today, the ROCAF has little 
capability to undertake offensive operations against in the Nanjing 
Military Region. While both the F-16 and the Mirage-2000-5 are 
optimized for defensive missions, they could be modified to undertake 
attack missions. Currently, the most potent attack missile in the ROCAF 
arsenal is the TV-guided U.S. AMG-65 Maverick A/B. This missile is 
dependent upon clear weather, whereas the AGM-65D with an imaging-
infrared seeker is not. But the U.S. will not sell Taiwan the AGM-
65D.\54\ But given the developing missile threat and the growing need 
for a counter-force response, it would be logical for the U.S. to 
consider selling Taiwan a longer range stand-off precision attack 
missile. Such a missile is also needed in view of the PLA's 
increasingly capable air-defense missiles, like the SA-15 acquired from 
Russia, and the FT-2000 family of long-range SAMs. Taiwan would at 
least require a missile like the U.S. Navy SLAM, a Harpoon equipped for 
precision land attack.
---------------------------------------------------------------------------
    \54\ Leung, p. 75.
---------------------------------------------------------------------------
    Attacking PLA missile sites, however, requires more than just 
aircraft and new missiles. It also requires the capability to find DF-
15 and M-11 batteries that will likely be on the move and using 
deception and camouflage tactics. The 4-5 E-2T Hawkeye AWACS in the 
ROCAF are just adequate for air and naval operations, but are not 
capable of finding ground-based threats. At best, this would require a 
combination of powerful reconnaissance satellites supported by aircraft 
with synthetic aperture radar with moving target indicators (SAR/MTI), 
like the U.S. J-STARS. Britain has just decided to buy a smaller J-
STARS system mounted on a business jet, which might be an option for 
Taiwan. But for the longer term Taiwan should seek a SAR.MTI equipped 
unmanned aircraft, such as the U.S. Global Hawk.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                dynamic element #4: naval modernization
    A fourth dynamic element in the cross-straits military balance is 
that of naval modernization. The Pentagon notes that the PLAN 
``continues to lag behind other regional navies, including that of 
Taiwan, in most technological areas, especially air defense, 
surveillance and C4I.'' \55\ In addition, the PLAN is just beginning to 
work out long overseas deployment operations and to develop joint 
warfare doctrine. However, the PLA Navy is in the midst of an equipment 
upgrade that promises to greatly complicate Taiwan's naval defense and 
pose new challenges to U.S. naval forces in Asia. The PLAN is placing 
emphasis on acquiring modern submarines and better surface combatants, 
with aircraft carriers remaining a distant goal. The challenge for the 
PLA will be to integrate missile and air forces into coherent long-
range naval operations.
---------------------------------------------------------------------------
    \55\ The Security Situation In The Taiwan Strait, p. 10.
---------------------------------------------------------------------------
    The PLAN submarine fleet is expanding in numbers and sophistication 
due to foreign technology. The PLAN has completed the acquisition of 
four Russian Kilo-class conventional submarines. The last of two 
advanced Type 636 model, which are much quieter than the Project 866 
Kilo submarines, was delivered last year.\56\ China is said to be 
negotiating for the purchase of a third Type 636.\57\ All Kilos are 
apparently stationed with the Easter Fleet, nearest Taiwan. So far, the 
Kilo in PLAN service has been dogged by problems pertaining to 
inadequate crew training and a lack of spare parts. Earlier this year 
the French weekly Le Monde reported that China had contracted to 
purchase 10 Russian submarines, but this has not been verified.\58\
---------------------------------------------------------------------------
    \56\ Nikolai Novichkov, ``Russia delivers fourth `Kilo' to China,'' 
Jane's Defence Weekly, January 13, 1999, p. 19.
    \57\ ``New PLAN to train, purchase vessels,'' Jane's Defence 
Weekly, December 16, 1999, p. 25.
    \58\ Jacques Isnard, ``Chinese Submarine Was `Submarining' on a 
freighter in Channel,'' Le Monde, February 4, 1999, p. 4.
---------------------------------------------------------------------------
    Nevertheless, access to Russian submarine technology has provided a 
``quantum leap'' for China. The Kilo 636 is said to be nearly as quiet 
as the early version of the U.S. Los Angeles class nuclear 
submarine.\59\ China is said to have benefited from Russian submarine 
technology in the area of nuclear reactors, internal acoustic 
dampening, acoustic tiles, modern mines and torpedoes, diesel and 
propeller design, gearbox quieting, modern sonar, sonar array and fire 
control systems.\60\ China's Kilos are likely armed with the Russian 
wire-guided torpedoes, which adds a new anti-submarine capability to 
the Chinese submarine fleet. China is also said to have purchased from 
Kazakhstan the Shkval rocket torpedo. This torpedo travels at a speed 
of 200 knots, or 5-6 times the speed of a normal torpedo, and is 
especially suited for attacking large ships such as aircraft 
carriers.\61\
---------------------------------------------------------------------------
    \59\ Rupert Pengelley, ``Grappling for Submarine Supremacy,'' 
Jane's International Defense Review, July 1996, p. 51.
    \60\ Mark Farrer, ``Submarine force in change--the People's 
Republic of China,'' Asia-Pacific Defence Reporter, October-November, 
1998, p. 12-13.
    \61\ Robert Karniol, ``China buys Shkval torpedo from Kazakhstan,'' 
Jane's Defence Weekly, August 26, 1998, p. 6.
---------------------------------------------------------------------------
    Russian technology is being used to assist all new Chinese 
submarines. The conventional Song submarine benefits from a Russian 
designed 7-blade propeller and more Russian technology could be 
incorporated into future versions of this sub. By one estimate, four to 
eight more Song's will be build before the introduction of a new 
variant.\62\ Apparently to keep their submarine yards busy, China will 
build more of the Ming-class conventional sub, an improved version of 
the 1950s Russian Romeo design with upgraded engines, sonar and 
torpedoes. These and remaining Romeos can be used for mining Taiwanese 
ports and major sea-lanes around Taiwan.
---------------------------------------------------------------------------
    \62\ Farrer, p. 13.
---------------------------------------------------------------------------
    The next few years may also see China produce a new class of 
nuclear-powered submarine, the Type 093. Again benefiting from Russian 
technology, the Type 093 is projected by U.S. Office of Naval 
Intelligence to have a performance similar to the Russian Victor-III 
nuclear attack submarine. This would be about slightly below the 
performance of an early Los Angeles, but a great improvement over 
China's indigenous Han nuclear submarines. By one estimate, 4-6 Type 
093s should enter service by 2012.\63\
---------------------------------------------------------------------------
    \63\ Farrer, p. 14.
---------------------------------------------------------------------------
    PLAN surface combatants could improve rapidly from the strength of 
domestic design talent and imported technology. China's major domestic 
surface combatant designs have shown marked improvement from the Luhu 
to the recently launched Luhai destroyer. The Luhai is the first major 
PLAN ship to use stealth shaping, using some the design techniques 
demonstrated in the F25T frigates sold to Thailand. Both the Luhai and 
the F25T are not as clean as the French LaFayette sold to Taiwan. But 
at the recent IDEX show the China Shipbuilding Trading Company revealed 
its F16U frigate design that does show a command of modern warship 
stealth shaping and the use of vertical-launched missiles.\64\ 
Following the F25T to Luhai precedent, it is reasonable that in the not 
too distant future very modern PLAN frigates based in the F16U design 
will begin to supplement less sophisticated Jiangwei and Jianghu 
classes.
---------------------------------------------------------------------------
    \64\ ``China reveals export frigate,'' Jane's International Defense 
Review, May 1999, p. 3.
---------------------------------------------------------------------------
    The Luhu introduced 1980s-level European anti-submarine and fire-
control systems and modern U.S. gas turbine engines to the PLAN. The 
Luhai differs from the Luhu in that it uses Ukrainian gas turbine 
engines and carries twice the number of C-802 missiles (16) and two 
instead of one helicopter.\65\ While the first Luhai No. 167 is 
deficient in its air defense, carrying only the Chinese version of the 
short-range Crotale, it appears to have space in front of the bridge 
for later fitting of a better vertical-launched SAM.
---------------------------------------------------------------------------
    \65\ ``China launches a powerful new super warship,'' Jane's 
Defence Weekly, February 3, 1999, p. 16.
---------------------------------------------------------------------------
    While the two Russian Soveremenniy class destroyers to be delivered 
by 2002 \66\ may impart greater knowledge of sensors and combat ship 
design, their real significance for the PLAN is the introduction of two 
new missiles. The Raduga Moskit anti-ship missile is perhaps the most 
lethal anti-ship missile in the world, combining a Mach 2.5 speed with 
a very low-level flight pattern that uses violent end maneuvers to 
throw off point defenses. After detecting the Moskit, the U.S. Phalanx 
point defense system, used by most large ROC ships, may have only 2.5 
seconds to calculate a fire solution--not enough time before the 
devastating impact of a 750 lb. warhead. In the Soveremenniy the PLAN 
also receives its first medium-range naval SAM, the 9M38 (SA-N-7) or 
9M38M2 (SA-N-12). The later can intercept targets out to 30 miles, and 
is comparable to the U.S. Standard naval SAM.
---------------------------------------------------------------------------
    \66\ The two Soveremenniys were launched in late 1988 and in April 
1999. The first may be delivered to the PLAN late next year, and the 
second in 2002. There is one report that China is negotiating for a 
third Soveremenniy, see, ``Second Russian-built PLAN destroyer rolls 
out,'' Jane's Navy International, June 1999, p. 6.
---------------------------------------------------------------------------
    Looking to the future, China very likely is also considering how 
long-range ballistic and cruise missiles can assist naval operations. 
With advanced RF warheads and space surveillance, it is possible for 
the PLA to consider attacking enemy naval formations with ballistic 
missiles before using aircraft and submarines. RF warheads very neatly 
use radiation to attack the vulnerable electronic components of the 
modern naval task force and the radius of their effect means that 
precision accuracy may not be necessary. New long-range cruise 
missiles, such as may be based on the YJ-22, offer possibilities for 
naval-based anti-ship or land attack missions. Both ballistic and 
cruise missiles, armed with RF or submunition warheads could wreck 
havoc among ships in ROC naval bases.
    The PLAN Air Force does not appear to have a high priority in the 
overall modernization, but it is showing signs of improvement. This air 
arm, rather than the PLAAF, may be the first customer for the Xian JH-7 
attack fighter that has been in development since the mid-1970s. It was 
revealed with much fanfare at the 1988 Zhuhai Airshow. Resembling a 
beefy twin-seat Jaguar, JH-7 promises a respectable 900-mile radius, an 
all-weather attack radar and low-level navigation and targeting pod 
which can employ laser-guided bombs. In naval service it will be armed 
with the C-801 anti-ship missile. With external cueing it could carry 
the longer-range C-802. Xian may also be planning an electronic warfare 
version of the JH-7.\67\ While Xian says it has mastered the WS-9 
engines based on Rolls Royce Spey Mk 202s, recent reports suggest Xian 
is trying to buy more Speys to complete the first batch of JH-7s.\68\
---------------------------------------------------------------------------
    \67\ For much more analysis of the JH-7, based on interviews with 
Xian officials at the 1998 Zhuhai Airshow, see Richard Fisher, ``Xian 
JH-7/FBC-1: The nine lives of the Flying Leopard,'' World Airpower 
Journal, Summer, 1999, pp. 22-25.
    \68\ Douglas Barrie, ``Chinese Turn to U.K. Firms To Fill Strike-
Fighter Gap,'' Defense News, February 1, 1999, p. 6.
---------------------------------------------------------------------------
    PLAN anti-submarine capabilities will receive a major boost with 
the introduction of four Russian Kamov Ka-28 ASW helicopters.\69\ These 
will be the first purpose-designed ASW helicopters acquired by the PLA, 
its existing French Z-1s1 having been modified for ASW duties. The Y-8/
Searchwater AEW aircraft are also for the PLAN, and will greatly assist 
with over-the-horizon targeting for a variety of missiles. Other than a 
few Y-8 transports converted for maritime surveillance, the PLAN AF 
lacks a dedicated long-range patrol/ASW aircraft like the U.S. P-3. 
Perhaps China's interest in the Beriev Be-200 jet-powered amphibian 
offers an indication how the PLA may fulfill that requirement.
---------------------------------------------------------------------------
    \69\ The PLAN has ordered eight Ka-28s, four of an ASW model and 
four search and rescue versions. It can be expected that more of the 
ASW variant will be ordered to outfit Luhai destroyers. For more on the 
Ka-28 see, Piotr Butowski, ``Kamovs for the Navy,'' Air International, 
May 1999, pp. 284-292.
---------------------------------------------------------------------------
Taiwan's Naval Challenge
    Like the Air Force, the ROC Navy has contributed to deterrence by 
maintaining a technological edge over its PLA counterpart. It has 
successfully upgraded World War II destroyers to make them more capable 
that most recent PLAN combatants and its emphasis on ship and air ASW 
has for the most part compensated for its lack of submarine ASW assets. 
However, the potential combined effect of growing PLA missile, air and 
naval capabilities raises the prospect that absent radical 
improvements, the ROC Navy may not be assured success in its principle 
counter-blockade missions toward the later part of the next decade.
    As PLA naval blockade operations are growing increasingly dependent 
upon the early destruction of the ROC Navy by air and missile forces in 
ports, the prospects of the ROC Navy are tied to the success of 
Taiwan's efforts to defend against missile and air attack. The ROC Navy 
hopes to play a major role in future missile defense operations by 
acquiring the U.S. Aegis radar system that will be fitted to an 
existing, or a Taiwan-produced U.S. destroyer hull. There is interest 
in either acquiring excess U.S. Spruance-class destroyers for 
conversion, or building new Burke-class destroyers to accommodate the 
Aegis system. So far, the U.S has denied Taiwan's requests for Aegis. 
It is hard to deny that the ROC Navy has a requirement for self-defense 
from PLA SRBMs and cruise missiles, and recent Pentagon Asian theater 
missile defense report notes that one Aegis system could cover Taiwan. 
The ROC Navy also needs better passive defenses like ship shelters, if 
possible, to buy time for ships to escape ports under missile attack.
    An equal if not more pressing ROC naval requirement is for new 
submarines. In light of the State Department's long-standing opposition 
to Taiwan's submarine requests, it is noteworthy that the recent 
Pentagon cross-straits report boldly states, ``Acquisition of 
additional submarines remains one of Taiwan most important 
priorities.'' \70\ The utter cruelty of the U.S. denial was made clear 
to the author in a recent visit to the ROC submarine squadron.\71\ A 
tour of the rickety 53-year old Guppy, dubbed the ``Museum Class,'' 
evokes sympathy for the families of their crew. They cannot dive deeper 
than they are long, meaning they are unsuitable even for their main 
mission, providing ASW training for ships and aircraft. As a 
consequence, the two remaining modern Dutch Zwardviss subs are 
completely occupied with training operations and have little time for 
their own ASW training. The ROC Navy clearly needs more submarines for 
ASW missions given the large and growing PLAN submarine force. 
Taiwanese sources state an immediate requirement for up to six new 
submarines. If budgets allowed they could use more.
---------------------------------------------------------------------------
    \70\ The Security Situation In The Taiwan Strait, p. 11.
    \71\ Visit to the ROC submarine squadron in Kaohsiung Naval Base, 
May 1, 1999.
---------------------------------------------------------------------------
    For its surface ships the most pressing needs are in the areas of 
anti-missile, counter-air and ASW capabilities. The imminent entry of 
the Moskit into the PLAN creates an urgent need for the Aegis radar, 
which is the only U.S. radar that can track the Moskit at sufficient 
range to enable a fire solution for the Standard SAM. Reliance on the 
Phalanx point-defense gun is not sufficient to counter the danger posed 
by the Moskit. The Taiwanese Navy also requires better SAMs for some of 
its ships, like the French LaFayettes, which are armed only with the 
short-range Sea Chaparral.
            dynamic element #5: posture of the united states
    A fifth and final dynamic element in the cross-straits strategic 
balance is the posture of the United States. American support has been 
vital to Taiwan's survival, and for many years into the future, 
American military power may remain strong enough to deter overt Chinese 
military attack on Taiwan. As a consequence, Beijing's goal since the 
resumption of relations in 1970s has been to curtail U.S. support for 
Taiwan. Beijing's ultimate goal is to turn Washington into an active or 
passive supporter for unification under Beijing's terms. Successive 
U.S. Administrations, including the Clinton Administration, have sought 
to walk the line that would have them defend Taiwan, but still holding 
out for the ideal solution in which Beijing and Taipei would solve 
their differences peacefully under the rubric of ``One China.'' But 
Taiwan's vigorous democratic politics are straining the limits of the 
old formula. Will Washington support a democratic Taiwan that is slowly 
asserting its right of self-determination, or will it join Beijing in 
insisting that ``One China'' requires that Taipei eventually 
subordinate it sovereignty, and possibly much more, to Beijing's dicta? 
Will the U.S. sell Taiwan a new generation of weapons systems that are 
required to sustain deterrence on the Taiwan Strait through the next 
decade? Or will the U.S. decline to do so, leaving Taiwan to determine 
its own fate alone? The numerous tensions pulling U.S. policymakers 
each way were fully displayed during the Taiwan Straits crisis of 1995 
and 1996. And they are revealing themselves anew in the latest brewing 
crisis created by President Lee Teng Hui's July 9 statement to a German 
interviewer.
    In the midst of the developing crisis of 1995, the Clinton 
Administration saw fit to admonish Taiwan's ``independence'' tendencies 
by warning Taipei that U.S. defense commitments implied in the Taiwan 
Relations Act may not apply in the case of a declaration of 
independence. This warning eventually turned into a public concession 
to Beijing in the first of the ``Three No's,'' which the U.S. states it 
will not support independence for Taiwan. This non-support for 
independence is a key element of policy for the ``One China'' school, 
which is now ascendant in the Clinton Administration. After Lee's July 
9 statement, the Administration was quick to firmly state its adherence 
to the ``One China'' formula as its main attempt to calm growing 
tensions.\72\ Members of this school tend to view Taiwan's democracy as 
the root of instability on the Taiwan Strait. For this school continued 
arms sales to Taiwan is a dispensable irritant in Sino-U.S. relations. 
Some, like former Ambassador Chas Freeman, assert that ``it does not 
make sense to attempt to sustain Taiwan's current military 
superiority,'' given China's military potential.\73\
---------------------------------------------------------------------------
    \72\ A defense of the ``One China'' school is offered by David 
Shambaugh, ``Two Chinas, But Only One Answer,'' The Washington Post 
Outlook, July 18, 1999, p. B1.
    \73\ Chas. W. Freeman, Jr., ``Preventing War in the Taiwan 
Strait,'' Foreign Affairs, July/August 1998, p. 11.
---------------------------------------------------------------------------
    Against this, the legal requirements of the Taiwan Relations Act, 
and congressional activism, serve to restrain the ``One China'' school. 
In the wake of Lee's recent statement, it appears that the 
Administration is curtailing some military contacts with Taiwan to 
demonstrate its displeasure. This runs smack into a congressional 
counter-current, this year led by Senator Jesse Helms (R-NC). Helms' 
Taiwan Security Enhancement Act constitutes a strong flank attack on 
the ``One China'' school. The bill asserts that the military balance on 
the Taiwan Strait is in danger of shifting to China, and that the U.S. 
should sell Taiwan land and sea-based missile defense systems, 
satellite early warning data, submarines, AIM-120s, and communications 
equipment to allow joint operations.\74\ The bill also calls for closer 
military-to-military relations between the U.S. and Taiwan, and for 
greater congressional scrutiny over the bureaucratic process that 
governs U.S. arms sales to Taiwan. As this paper has tried to amply 
describe, the potential for a real shift in the military balance 
justifies many of the initiatives called for in Helms' bill. 
Nevertheless, according to one prominent U.S. analyst, the Helms bill 
``would likely cause a major rupture in Sino-American relations.'' \75\
---------------------------------------------------------------------------
    \74\ S. 693, ``Taiwan Security Enhancement Act,'' Section 5.
    \75\ Shambaugh, p. B2.
---------------------------------------------------------------------------
    An emerging wild card in the American debate is the U.S. security 
establishment. In a community that has its share of hawks and doves, 
the hawks appear to be making headway in the debate over China's 
strategic intentions and the direction of PLA modernization. This does 
not mean that there is uniformity of views within the Pentagon or the 
intelligence community. But there are enough individuals who are able 
to use the mounting evidence of PLA hostile intent change views of 
future policy. That the Pentagon would respond to recent congressional 
mandates with detailed reports of emerging Chinese military 
capabilities marks the degree to which opinions are evolving in the 
U.S. security establishment.
    While the Pentagon may not be able to change Clinton Administration 
policy on arms sales to Taiwan, it appears that a change of party in 
the White House offers the possibility of new attitude toward Taiwan's 
future military requirements. A question to ask, however, is whether 
this is time enough to stem a balance of power on the Taiwan Strait 
that could be rapidly shifting to Beijing's favor by the end of the 
next decade. To stem this tide the U.S. should:

          1. Sell Taiwan the building blocks of a realistic missile 
        defense capability that can shift to laser systems when 
        available. The U.S. should also sell Taiwan long-endurance 
        reconnaissance unmanned aircraft, conventional submarines, 
        active radar guided and helmet-sighted air-to-air missiles, and 
        the necessary systems to allow F-16s to attack SRBMs.
          2. Undertake a serious assessment of Taiwan's defense 
        doctrine, capabilities, and how they measure up to the future 
        threat. The U.S. should offer Taipei frank criticism of its 
        defense policies, if that criticism is necessary. There also 
        should be a more active military-to-military relationships 
        between the U.S. and Taiwan. It is unconscionable that most 
        U.S. star or flag rank officers get to travel to China, but not 
        to Taiwan. Taiwan should have access to much higher levels of 
        U.S. military leadership and access to higher levels of U.S. 
        planning and intelligence.
          3. For its own part, the U.S. must maintain its technical 
        superiority over the China's military, and retain enough forces 
        in Asia to deter a Taiwan-China conflict. This will require 
        that the U.S. invest heavily in space, laser, radio frequency, 
        missile defense, and communication technologies that will 
        ensure U.S. military superiority. Washington should quickly 
        establish an Asia-wide missile defense network that would 
        become the main mission for the U.S. military beyond the next 
        decade. The U.S. should now build fighter aircraft like the F-
        22 plus advanced missiles that sustain a margin of superiority 
        over China's Sukhois. The Pacific Command should always have 
        access to adequate numbers of submarines and advanced combat 
        aircraft dictated by the requirements of deterrence.
                                 ______
                                 

                         The Truth About Taiwan

if china wants reunion with taiwan, it should look more worth reuniting 
                                  with
    It seems more like an abstruse semantic debate than a threat to 
world peace. But, if some Chinese leaders are to be believed, the 
latest language used by Lee Teng-hui, Taiwan's president, to describe 
the island's relationship with the mainland could lead to a war. The 
threat of force has become almost a kneejerk reaction for China's 
leaders whenever Taiwan displeases them. They need to realise that this 
hinders rather than helps China's goal of reunification. Not only does 
it antagonise Taiwan's people; it also helps to build up other 
countries' support for Taiwan's right to decide its own future.
    All Mr. Lee said was that Taiwan sees its relations with China as a 
``special state-to-state relationship'' rather than an ``internal'' 
one. Since it is self-evident that the Taiwan of 1999 is not part of 
China, this seems uncontentious--no more, as Taiwan's officials 
soothingly point out, than a ``clarification'' of the status quo. The 
trouble is that the status quo relies on lack of clarity, and on 
ambiguity about Taiwan's place in the world. Certainly, China found the 
elaboration provocative. One of its generals, as happy to mix metaphors 
as to lob missiles, said that Mr. Lee, ``playing with fire'', might 
``drown himself in the boundless ocean of the people's war.''
    China insists that Taiwan is an ``inalienable part of Chinese 
sovereign territory.'' So it is riled when official statements seem to 
rule out reunification. Yet Taiwan's recent history has seen the steady 
build-up of what in practice looks like the behaviour of an independent 
state. Taiwan has shed its archaic constitutional links with China; it 
has given the mainland a helping hand by allowing Taiwanese businessmen 
to become huge investors there; above all, the island, unlike the 
mainland, has started to embrace democracy.
First question: what do the Tiwanese want?
    Taiwan's swift transition from being one of Asia's most rigid 
dictatorships to being one of its liveliest new democracies was bound 
to fray its vestigial ties with China. Only a small minority in Taiwan 
now favours reunification. Most of its people want a continuation of 
the separate status that has brought them prosperity and a measure of 
freedom.
    No doubt Mr. Lee's provocative words have much to do with domestic 
politics. A presidential election is to be held next spring. The man 
Mr. Lee has chosen as his successor is not very popular, and the ruling 
party's vote may be split by a challenge from one of its leading 
figures who is standing as an independent. A confrontation with Beijing 
may expose the challenger, James Soong, to criticism for being too soft 
on China. It will certainly pull in votes from pro-independence 
Taiwanese who would otherwise support the opposition.
    All of this puts the West--and especially the United States--in a 
difficult position. There is widespread sympathy for Taiwan's awkward 
position in the world. On the other hand, every big country has 
diplomatic relations with China, and has implicitly or explicitly 
accepted China's argument that ``there is only one China and Taiwan is 
part of China.'' Is it not undiplomatic of Mr. Lee to roil the waters, 
especially if it is for domestic political purposes?
    Of course it is. The Americans this week wearily sent officials to 
try to cool tempers in both Beijing and Taipei. But it is hypocritical 
for the West to applaud Taiwan's democratic transformation while 
complaining about an inevitable consequence of that transformation--
that the island's status has become a central issue of its politics. 
The current squabble also highlights another ambiguity in American 
foreign policy. The United States is both a subscriber to China's 
formula about ``one China'' and yet also, through the 1979 Taiwan 
Relations Act, committed to the defence of Taiwan.
    The best hope of ensuring that these contradictions are never put 
to the test is that China itself will change. Maybe one day Taiwan's 
people will willingly join a democratic, tolerant China. Or maybe a 
more liberal China will one day be less hostile to Taiwan's 
independence. Today both ideas look like pipe-dreams. It is as likely 
that a future regime in China--``communist'' or otherwise--will be even 
more insecurely sensitive on issues of national sovereignty, even more 
aggressive in its attitude towards Taiwan. The ``generous'' 
reunification terms currently on offer date from 1981. Then, after the 
horrors of the cultural revolution, China had a government which 
enjoyed popular support. It could offer concessions (the one country, 
two-systems formula later offered to Hong Kong) beyond the scope of a 
weaker regime. They may not last.
    Playing for time still makes sense for Taiwan. But that does not 
mean keeping quiet about its anomalous international position. The 
Chinese anger that Mr. Lee has provoked is worrying. But it does at 
least serve as a reminder that China has never renounced the threat of 
an invasion. This, most of the world now agrees, is unacceptable. That 
is the message which now has to be delivered to the government in 
Beijing.
    However the present row resolves itself, the future of Taiwan will 
soon move up the world's agenda. When Portugal hands Macau back to 
China in December, Taiwan will be the last item left on China's list of 
places it wants to reclaim. Once, it was possible for China to tell 
itself that in Taiwan, as in Hong Kong and Macau, the ruling elite 
might negotiate a transfer of sovereignty. No longer. To draw Taiwan 
into reunion, China will need to win the support of Taiwan's people. 
Its current behaviour is a demonstration of how not to do it.
                                 ______
                                 

 Statement by Ronald Reagan upon Ambassador George Bush's Return From 
       Japan and China--August 25, 1980, Los Angeles, California

    Ten days ago George Bush and I met with you here in Los Angeles on 
the occasion of his departure for Japan and China, a trip he undertook 
at my request. As we stressed at the time, the purpose of the trip was 
to provide for a candid exchange of views with leaders in both 
countries on a wide range of international topics of mutual interest. 
Ambassador Bush returned last evening, and has reported his findings in 
detail.
    We are both very pleased with the results of his extensive 
discussions. In a series of meetings with distinguished leaders in 
Japan, including Prime Minister Suzuki, Former Prime Ministers Fukuda, 
Kishi and Miki, Foreign Minister Itch and Minister of International 
Trade and Industry Tanaka, he had the opportunity to hear their views 
and recommendations concerning the future of U.S.-Japanese relations.
    Our Republican Party Platform stresses that Japan will remain a 
pillar of our policy for Asia, and a Reagan-Bush Administration will 
work hard to insure that U.S.-Japanese relations are maintained in 
excellent condition, based on close consultation and mutual 
understanding.
    Japan's role in the process of insuring peace in Asia is a crucial 
one, and we must reinforce our ties with this close ally. Japan is our 
second most important trading partner, and we are her first. We have 
close ties in other fields, too. A most important example is the U.S.-
Japan Mutual Security Treaty which recently marked its twentieth 
anniversary.
    Understanding the Japanese perspective is important for the success 
of American policy. As Ambassador Bush will tell you in detail, he 
found Japanese leaders unanimous in their view that the United States 
must be a strong, reliable, leading partner.
    I appreciate receiving their views, and I am grateful to them for 
the courtesies extended to Ambassador Bush. I would also like to 
express my appreciation to, and regard for, U.S. Ambassador Mike 
Mansfield, who also extended many courtesies.
    Of equal importance was Ambassador Bush's trip to China, where he 
held a series of high-level meetings. As I said on August 16, ``we have 
an obvious interest in developing our relationship with China, an 
interest that goes beyond trade and cultural ties. It is an interest 
that is fundamental to a Reagan-Bush Administration.''
    The meetings in Beijing provided for extensive exchanges of views. 
George has reported to me in great detail the points of similarity and 
agreement, as well as those of dissimilarity and disagreement. Since 
the objective of the trip was to have just such an exchange without 
necessarily reaching agreement, I believe that the objective was 
reached.
    We now have received an updated, first-hand of China's views, and 
the Chinese leaders have heard our point of view.
    While in Beijing, Ambassador Bush and Richard Allen met at length 
with Vice Premier Deng Xiaoping, Foreign Minister Huang Hua, as well as 
with other top foreign policy experts and military leaders. I 
appreciate the courtesies which the Chinese leaders extended to our 
party, and I also wish to thank U.S. Ambassador Leonard Woodcock for 
his kind assistance.
    We now maintain full and friendly diplomatic relations with China. 
This relationship began only a few years ago, and it is one which we 
should develop and strengthen in the years ahead. It is a delicate 
relationship, and the Reagan-Bush Administration will handle it with 
care and respect, with due regard for our own vital interests in the 
world generally, and in the Pacific region specifically.
    China and the United States have a common interest in maintaining 
peace so that our nations can grow and prosper. Our two-way trade has 
now reached approximately $3.5 billion annually, and China's program of 
modernization depends in a major way on Western and U.S. technology.
    Along with many other nations, we and China share a deep concern 
about the pace and scale of the Soviet military buildup. Chinese 
leaders agree with Japanese leaders that the United States must be a 
strong and vigorous defender of the peace, and they specifically favor 
us bolstering our defenses and our alliances.
    It is quite clear that we do not see eye to eye on Taiwan. Thus, 
this is an appropriate time for me to state our position on this 
subject.
    I'm sure that the Chinese leaders would place no value on our 
relations with them if they thought we would break commitments to them 
if a stronger power were to demand it. Based on my long-standing 
conviction that America can provide leadership and command respect only 
if it keeps its commitments to its friends, large and small, a Reagan-
Bush Administration would observe these five principles in dealing with 
the China situation.
                  guiding principles for the far east
    First, U.S.-Chinese relations are important to American as well as 
Chinese interests. Our partnership should be global and strategic. In 
seeking improved relations with the People's Republic of China, I would 
extend the hand of friendship to all Chinese. In continuing our 
relations, which date from the historic opening created by President 
Nixon, I would continue the process of expanding trade, scientific and 
cultural ties.
    Second, I pledge to work for peace, stability and the economic 
growth of the Western Pacific area in cooperation with Japan, the 
People's Republic of China, the Republic of Korea and Taiwan.
    Third, I will cooperate and consult with all countries of the area 
in a mutual effort to stand firm against aggression or search for 
hegemony which threaten the peace and stability of the area.
    Fourth, I intend that United States relations with Taiwan will 
develop in accordance with the law of our land, the Taiwan Relations 
Act. This legislation is the product of our democratic process, and is 
designed to remedy the defects of the totally inadequate legislation 
proposed by Jimmy Carter.
    By accepting China's three conditions for ``normalization,'' Jimmy 
Carter made concessions that Presidents Nixon and Ford had steadfastly 
refused to make. I was and am critical of his decision because I 
believe he made concessions that were not necessary and not in our 
national interest. I felt that a condition of normalization--by itself 
a sound policy choice--should have been the retention of a liaison 
office on Taiwan of equivalent status to the one which we had earlier 
established in Beijing. With a persistent and principled negotiating 
position, I believe that normalization could ultimately have been 
achieved on this basis. But that is behind us now. My present concern 
is to safeguard the interests of the United States and to enforce the 
law of the land.
    It was the timely action of the Congress, reflecting the strong 
support of the American people for Taiwan, that forced the changes in 
the inadequate bill which Mr. Carter proposed. Clearly, the Congress 
was unwilling to buy the Carter plan, which it believed would have 
jeopardized Taiwan's security.
    This Act, designed by the Congress to provide adequate safeguards 
for Taiwan's security and well-being, also provides the official basis 
for our relations with our long-time friend and ally. It declares our 
official policy to be one of maintaining peace and promoting extensive, 
close, and friendly relations between the United States and the 
seventeen million people on Taiwan as well as the one billion people on 
the China mainland. It specifies that our official policy considers any 
effort to determine the future of Taiwan by other than peaceful means a 
threat to peace and of ``grave concern'' to the United States.
    And, most important, it spells out our policy of providing 
defensive weapons to Taiwan and mandates the United States to maintain 
the means to ``resist any resort to force or other forms of coercion'' 
which threaten the security or the social or economic system of Taiwan.
    This Act further spells out, in great detail, how the President of 
the United States, our highest elected official, shall conduct 
relations with Taiwan, leaving to his discretion the specific methods 
of achieving policy objectives. The Act further details how our 
official personnel (including diplomats) are to administer United 
States relations with Taiwan through the American Institute in Taiwan. 
It specifies that for that purpose they are to resign for the term of 
their duty in Taiwan and then be reinstated to their former agencies of 
the U.S. government with no loss of status, seniority or pension 
rights.
    The intent of the Congress is crystal clear. Our official relations 
with Taiwan will be funded by Congress with public monies, the 
expenditure of which will be audited by the Comptroller General of the 
United States; and Congressional oversight will be performed by two 
standing Conmittees of the Congress.
    You might ask what I would do differently. I would not pretend, as 
Carter does, that the relationship we now have with Taiwan, enacted by 
our Congress, is not official.
    I am satisfied that this Act provides an official and adequate 
basis for safeguarding our relationship with Taiwan, and I pledge to 
enforce it. But I will eliminate petty practices of the Carter 
Administration which are inappropriate and demeaning to our Chinese 
friends on Taiwan. For example, it is absurd and not required by the 
Act that our representatives are not permitted to meet with Taiwanese 
officials in their offices and ours. I will treat all Chinese officials 
with fairness and dignity.
    I would not impose restrictions which are not required by the 
Taiwan Relations Act and which contravene its spirit and purpose. Here 
are other examples of how Carter has gone out of his way to humiliate 
our friends on Taiwan:

  --Taiwanese officials are ignored at senior levels of the U.S. 
        government.
  --The Taiwan Relations Act specifically requires that the Taiwanese 
        be permitted to keep the sane number of offices in this country 
        as they had before. Previously, Taiwan had 14 such offices. 
        Today there are but nine.
  --Taiwanese military officers are no longer permitted to train in the 
        United States or to attend service academies.
  --Recently the Carter Administration attempted to ban all imports 
        from Taiwan labeled ``Made in the Republic of China,'' but was 
        forced to rescind the order after opposition began to mount in 
        the Congress.
  --The Carter Administration unilaterally imposed a one-year 
        moratorium on arms supplies even though the Act specifies that 
        Taiwan shall be provided with arms of a defense character.
  --The Carter Administration abrogated the Civil Aviation Agreement 
        with Taiwan, which had been in effect since 1947, in response 
        to demands from the People's Republic of China.

    I recognize that the People's Republic of China is not pleased with 
the Taiwan Relations Act which the United States Congress insisted on 
as the official basis for our relations with Taiwan. This was made 
abundantly clear to Mr. Bush, and, I'm told, is clear to the Carter 
Administration. But it is the law of our land.
    Fifth, as President I will not accept the interference of any 
foreign power in the process of protecting American interests and 
carrying out the laws of our land. To do otherwise would be a 
dereliction of my duty as President.
    It is my conclusion that the strict observance of these five 
principles will be in the best interests of the United States, the 
People's Republic of China and the people of Taiwan.
    The specific implementation of these duties will have to await the 
results of the election in November, but in deciding what to do I will 
take into account the views of the People's Republic of China as well 
as Taiwan. It will be my firm intention to preserve the interests of 
the United States, and as President I will choose the methods by which 
this shall best be accomplished.

                                   - 

</pre></body></html>
